<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Publishing Office]


<DOC>
 
                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND
                 HOUSING  AND  URBAN  DEVELOPMENT,  AND
                  INDEPENDENT AGENCIES APPROPRIATIONS
                                FOR 1998

=========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES

                    JERRY LEWIS, California, Chairman

TOM DeLAY, Texas                     LOUIS STOKES, Ohio
JAMES T. WALSH, New York             ALAN B. MOLLOHAN, West Virginia
DAVID L. HOBSON, Ohio                MARCY KAPTUR, Ohio
JOE KNOLLENBERG, Michigan            CARRIE P. MEEK, Florida
RODNEY P. FRELINGHUYSEN, New Jersey  DAVID E. PRICE, North Carolina
MARK W. NEUMANN, Wisconsin           
ROGER F. WICKER, Mississippi         

 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

  Frank M. Cushing, Paul E. Thomson, Timothy L. Peterson, and  Valerie 
                     L. Baldwin, Staff Assistants
                                ________

                                 PART 7

                     ENVIRONMENTAL PROTECTION AGENCY

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
41-431 O                    WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director








DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 1998

                              ----------                              

                                           Tuesday, April 15, 1997.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

CAROL M. BROWNER, ADMINISTRATOR
SALLYANNE HARPER, ACTING CHIEF FINANCIAL OFFICER
AL PESACHOWITZ, ASSISTANT ADMINISTRATOR, OFFICE OF ADMINISTRATION AND 
    RESOURCES MANAGEMENT
JONATHAN Z. CANNON, GENERAL COUNSEL
DAVID GARDINER, ASSISTANT ADMINISTRATOR, OFFICE OF POLICY, PLANNING AND 
    EVALUATION
ROBERT PERCIASEPE, ASSISTANT ADMINISTRATOR, OFFICE OF WATER
TIMOTHY FIELDS, ACTING DEPUTY ASSISTANT ADMINISTRATOR, OFFICE OF SOLID 
    WASTE AND EMERGENCY RESPONSE
MARY NICHOLS, ASSISTANT ADMINISTRATOR, OFFICE OF AIR AND RADIATION
STEVE HERMAN, ASSISTANT ADMINISTRATOR, OFFICE OF ENFORCEMENT AND 
    COMPLIANCE ASSURANCE
DR. LYNN R. GOLDMAN, ASSISTANT ADMINISTRATOR, OFFICE OF PREVENTION, 
    PESTICIDES AND TOXIC SUBSTANCES
DR. ROBERT J. HUGGETT, ASSISTANT ADMINISTRATOR, OFFICE OF RESEARCH AND 
    DEVELOPMENT
WILLIAM A. NITZE, ASSISTANT ADMINISTRATOR, OFFICE OF INTERNATIONAL 
    ACTIVITIES
NIKKI L. TINSLEY, ACTING INSPECTOR GENERAL
JULIE ANDERSON, ACTING ASSOCIATE ADMINISTRATOR, OFFICE OF CONGRESSIONAL 
    AND LEGISLATIVE AFFAIRS
DR. PHILIP LANGRIGAN, EPA CONSULTANT, CHILDREN'S OFFICE
J. CHARLES FOX, ASSOCIATE ADMINISTRATOR, OFFICE OF REINVENTION
W. MICHAEL MCCABE, REGIONAL ADMINISTRATOR, EPA REGION III
KATHRYN S. SCHMOLL, COMPTROLLER
ELIZABETH CRAIG, DIRECTOR, BUDGET DIVISION

                    Chairman Lewis' Opening Remarks

    Mr. Lewis. The meeting will come to order.
    Good morning, ladies and gentlemen. This is the first of 
two days of hearings on the fiscal year 1998 budget request for 
the Environmental Protection Agency. For 1998, the Agency has 
requested a funding level of $7,645,493,000, which represents 
an increase of $846 million, or 11 percent, over the 1997 
appropriated level.
    The big winner in this proposed budget is the Superfund 
program, which would get $700 million of the Agency's requested 
increase. We, of course, will explore this issue at some length 
in just a little while.
    Testifying on behalf of the Agency, we are very pleased 
this morning to welcome Administrator Carol M. Browner. Madam 
Administrator, we wish to welcome you back to the subcommittee. 
To say the least, your testifying before us is always 
interesting. In a moment, I will ask you to introduce your 
colleagues who accompany you today, but before we go to that, I 
would like to call upon my colleague, the gentleman from Ohio, 
Mr. Stokes, for any comments he might have.
    Mr. Stokes. Thank you, Mr. Chairman.
    I don't have any formal welcoming remarks. I would just 
join with you, Mr. Chairman, in welcoming Administrator Browner 
before our Subcommittee again. She has always done an 
outstanding job here and it is always a pleasure to have her 
before our Subcommittee. We look forward to your testimony 
again.
    Thank you.
    Mr. Lewis. Ms. Browner, I would ask you to introduce those 
who are with you, as broadly or as carefully as you would like. 
I might mention that your entire statement will be included in 
the record and you can proceed forward as you wish.

                Administrator Browner's Opening Remarks

    Ms. Browner. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here before you and members of this 
Subcommittee to present the President's 1998 budget request for 
the United States Environmental Protection Agency.
    Joining me at the table, to my left, is Fred Hansen, Deputy 
Administrator, and to my right is Sallyanne Harper, Acting 
Chief Financial Officer.
    As is the custom, Mr. Chairman, I also have with me today 
our Assistant Administrators for each of the programmatic 
areas, and with your leave, as we move into those areas, we 
will introduce those individuals.
    The request made by the President on behalf of the 
Environmental Protection Agency is $7.6 billion and 18,283 
FTEs. President Clinton showed during his first term that it is 
possible to reduce the deficit, restore the Nation's economic 
health, and protect the public health and our environment, and 
he believes that we must continue on that course. The President 
and I believe strongly that a healthy environment and a healthy 
economy go hand in hand.
    The budget before you focuses on the environmental 
challenges of the 21st century by strategically expanding EPA's 
resources for protecting the air we breathe, the water we 
drink, and the land on which we live. By protecting the 
environment, we protect the health of millions of Americans, 
particularly the health of our children.
    The President is requesting an increase for EPA of nearly 
$850 million over this year's appropriated levels. When you add 
the additional resources that our Agency will be redirecting, 
the budget contains a total of more than $900 million in new, 
high priority investments.
    Last August, the President presented America with a call to 
action to deal with the most pressing environmental problems 
faced by our Nation's communities. Of this year's budget 
increase, $736 million will fund these high priority 
initiatives, including a dramatic acceleration of the pace of 
Superfund cleanups, a revitalization of communities through our 
Brownfields cleanup program, a commitment to expand the 
public's access to information about toxic pollution in their 
neighborhoods, and a strengthening of criminal enforcement 
against polluters.
    The budget proposes $2.1 billion for Superfund, which 
represents a $650 million increase for construction 
completions. That increase will allow us to double the pace of 
cleanups. Rather than completing 250 sites in the next four 
years, which is what we can do at the current funding level, we 
could complete 500 sites in the next four years, giving these 
communities back economic hope and the opportunity for 
redevelopment.
    On many of these sites--and many of you are aware of them 
from your own districts--communities have literally been 
waiting years and years and years for their cleanup. With the 
resources, we can now get the job of cleaning up the Nation's 
worst toxic dump sites done.
    We also propose a major expansion of our Brownfields 
initiative with a $50 million increase. This is a program 
designed to work with local communities, with mayors, to 
cleanup and restore lightly contaminated urban sites. This is a 
budget increase that will enable us to clean up approximately 
5,000 sites by the year 2000.
    Mr. Chairman, I am sure you are aware that we are working 
in partnership with other Federal agencies. We have brought 
them into this program, which we began over three years ago, 
including the Department of Housing and Urban Development.
    Finally, this budget includes an expansion of the public's 
right to know about toxic pollution in their neighborhoods, 
with an additional $35 million for an initiative to expand 
information available to the American people about toxic 
threats to their families. An informed, involved citizenry will 
always make far better decisions than some distant bureaucracy.
    We also would like to call your attention, very briefly, 
Mr. Chairman, to the increases we are providing to two new 
pieces of legislation, passed in a bipartisan manner by this 
body last year. These are the Safe Drinking Water Act 
Amendments and the Food Quality Protection Act. This budget 
includes a $36 million increase to enable EPA to implement 
these two very important pieces of legislation.
    In addition to our commitment to implementing this new 
legislation, the President's budget also supports the broad 
goals of protecting children from environmental health threats, 
revitalizing the environmental and economic health of cities, 
and strengthening partnerships with state and local 
governments.
    We appreciate the success we have had with this committee 
in prior years. We look forward to once again working in a 
consensus building, bipartisan manner to craft an 
appropriations bill that will allow us to honor our 
responsibility to the people of this country, to protect the 
air they breathe, the water they drink, and the land on which 
they live.
    Thank you very much for the opportunity to be here today, 
and I would ask that my entire statement be included in the 
record.
    Mr. Lewis. It will be included in the record.
    [The information follows:]

[Pages 5- 8--The official Committee record contains additional material here.]


                           Budget Priorities

    Mr. Lewis. For the members' information, because we expect 
a pretty sizable attendance on the part of members throughout 
these hearings, we're going to try to stay reasonably close to 
the ten-minute rule as we go forward from here. These are very, 
very important subject areas of great interest to the members, 
both in terms of the national impact these programs have upon 
our environment, but also the impact they have upon our 
individual districts.
    So, with that, Madame Administrator, thank you very much 
for your opening comments.
    I had originally intended to begin my questioning along a 
little different tack, but something that was included on page 
1 of your written statement struck me as perhaps being the very 
essence of the concern so many people have for the way EPA runs 
its programs.
    Your statement talks about dealing with ``the most pressing 
environmental problems faced by our Nation's communities.'' And 
then you go on to mention the acceleration of Superfund 
cleanups, promoting Brownfields cleanups, expanding the 
public's access to pollution information, and strengthening 
criminal enforcement against polluters.
    These are all very worthy efforts. No one would ever 
suggest they are not important. Indeed, I have no doubt that 
every member of this subcommittee would agree that EPA should 
be active in all of these areas, and more. I guess the point 
is, are these really EPA's priorities?
    While your proposal to accelerate Superfund cleanups in 
many ways makes a wonderful press release, the fact is that 
most, if not all, of the sites that could be accelerated to see 
completed construction in the next two years are not posing 
imminent health or safety risks to surrounding communities.
    Although I have sincere doubts that you could possibly get 
to 900 completions at the end of two years, clearly the only 
way you could possibly meet your target is to focus your 
attention on those sites which would be considered the so-
called ``easy'' ones, posing little or no immediate health risk 
to the communities and which have been in the Superfund 
pipeline for several years. It would be great to say, to all of 
these communities, that we are finally going to fix their local 
Superfund problem right now. If we had all the money necessary 
to do this, and also deal with what are obviously higher 
priority health and safety needs of the American citizens, we 
would be further along in fixing Superfund problems than we 
are.
    Unfortunately, we cannot afford to do everything at once 
and must put the majority of our resources where the greatest 
such risks occur.
    Similarly, we are all fans of the Brownfields program. It 
is an excellent complement to other economic development 
programs so necessary to revitalize our cities.
    Likewise, we all believe that citizens have a right to know 
what the governmental and private sectors are doing in their 
communities, and we believe that environmental criminals should 
be dealt with as harshly as any others who would purposely 
violate our laws. These are all good programs that deserve 
support. But they are not the most pressing environmental 
problems faced by our Nation's communities.
    Your budget request is, unfortunately, more of--and this is 
my judgment--more of a political campaign document than a 
serious attempt to prioritize scarce fiscal resources on our 
country's most pressing environmental problems.
    Virtually every environmental scientist suggests that clean 
air poses the highest health risk to the people of this 
country. Yet your total combined request for all air programs, 
environmental programs, management and science and technology 
accounts, $400 million, is just over half of the $700 million 
increase requested for Superfund.
    Indeed, you are currently in the midst of developing new 
rules regarding ozone and particulate matter which, if adopted, 
will at the very least impose massive monitoring requirements 
on hundreds of communities around the country. Yet again, your 
budget request for state grants to assist communities in 
performing this monitoring, some $10.9 million, is woefully 
inadequate. If ozone and particulate matter poses enough of a 
threat that you would make a policy decision to embark on this 
rulemaking activity, I would at least expect that your budget 
request would accurately depict this as a priority that it 
should be.
    Unfortunately, either the press release ``wouldn't play 
well in Peoria'', or should I say Pensacola, or the President 
forgot to put this on his list at Kalamazoo.
    For two years, this Subcommittee has asked you to develop a 
priority list of the environmental requirements and needs of 
this country, a list based on sound science, which would allow 
all of us to make tough funding choices based more on real 
health and safety risks than on politics. I am disappointed, 
though not really surprised, that this year's budget request 
continues along the same path as before.
    Ms. Browner, some good things will certainly be 
accomplished with your budget request. I am convinced, however, 
that if the considerable talents of EPA's personnel were 
focused on a true list of the most pressing environmental 
problems faced by the Nation, so very much more could be 
accomplished.
    Now, taking us briefly to the NAAQS, that which is known as 
the National Ambient Air Quality Standards, dealing with ozone 
and particulate matter rulemaking, my previous comments on 
priorities has mainly to do with the credibility of the Agency. 
It is exactly this credibility which comes into question with 
regard to your NAAQS rulemaking activities for ozone and 
particulate matter.
    As you are surely aware, nearly half of page 70 of the 
Conference Report accompanying the 1997 appropriations, in 
Public Law 104-204, was devoted to the expression of the 
conferees that the lack of data relative to particulate matter 
should result in the Agency's promulgating no new particulate 
standards at this time. Specifically, we noted that, ``Some 
scientists have concluded that current data do not adequately 
demonstrate causality or provide sufficient information to 
establish a specific new control strategy.''
    While a court order required you to review ambient air 
quality standards for particulates, it did not require a change 
in those standards. Your decision was, purely and simply, a 
political policy decision, one, I hasten to add, that was not 
backed by the kind of science that should be performed in 
advance of such massive rulemakings.
    Even your own 1998 budget justification says, on page 3-5, 
that ``A multiyear effort on particulate matter''--that is, 
matter that is less than 10 microns--``research will be 
expanded to address a number of uncertainties, including those 
associated with mortality estimates, evaluation of biological 
mechanisms of toxicity, and the evaluation ofinnovative control 
technologies.''
    You go on to say, on page 3-108, that ``While the available 
epidemiology data are sufficient to indicate an association 
between PM and adverse health effects, many scientific 
uncertainties remain. Plausible, biological mechanisms by which 
PM, at low ambient levels, could cause mortality and morbidity, 
effects suggested by epidemiological studies have yet to be 
identified. It is not yet possible to determine which ambient 
PM components are the most significant in causing adverse 
health effects.''
    I would note that these statements are found in the science 
and technology account requests, and I would guess that the 
folks in that part of the Agency feel like they are now under 
the gun to make the science fit the policy. It seems like it's 
supposed to be the other way around.
    I am going to ask a number of questions for this whole 
issue in a few moments, but I wanted to add that my comments so 
far have focused primarily on the particulate matter portion of 
the rulemaking. You have, of course, linked the ozone 
rulemaking with the PM rulemaking, even though there is no 
legal or scientific reason to do so. Your own Clean Air Science 
Advisory Committee concluded that there is no bright line 
whereby your new proposed standards for ozone will necessarily 
show improved health results over current standards. It would 
seem that the nonpartisan environment ``think tank'' Resources 
For the Future got it pretty close to the mark when they 
indicated that the linking of ozone and PM would allow EPA to 
focus public attention on death rates associated with PM so as 
to ``diminish attention to the troubling economic questions 
about the ozone standard.''
    As recently as this past December, even EPA released a 
press statement noting that ``Trend analysis shows continued 
air quality improvement during the past ten years for all six 
criteria pollutants'', which includes ozone, or smog, and 
particulate matter.
    As we have discussed in the past, my personal record with 
regard to clean air issues takes a back seat to no one. 
Nevertheless, I am sorely perplexed why you have further 
threatened the credibility of your Agency, and yourself, by 
proposing these rulemakings before the science can fully back 
them up. Perhaps just as important is the recent revelation 
that the studies upon which EPA placed primary reliance for the 
PM rule, particularly the Harvard ``Six Cities'' study, will 
not be released by the federally funded researchers for review 
by the public.
    It is my understanding that this study was the primary 
basis for EPA's original claim that the PM rule would result in 
20,000 fewer premature deaths. Yet a misunderstanding with the 
interpretation of the data in the study caused you to issue a 
press statement just two weeks ago that the number is actually 
15,000, not 20,000. I'm asking myself, how in the world can you 
justify the promulgation of such broad and expensive new 
standards without the release for public comment of all of the 
available data? If EPA, or its contractors and grantees, are 
off by a factor of 25 percent on something as important as the 
number of premature deaths, how can we ever be sure that the 
rest of the study isn't off by a like amount, except by release 
and public review of the available data?
    I might also say at this point that your personal rules, if 
enacted, will require states, cities, taxpayers, consumers and 
business, to pay billions of dollars to be in compliance. With 
so much at stake, you are asking them and us to accept, as an 
article of faith, and with no chance of review, a study coming 
from Harvard--I mean, to say the least, I'm getting a hint of 
your suggesting that that has been released, but it certainly 
hasn't been released for my review.
    Ms. Browner. It's available to anyone who wants to get it.
    Mr. Lewis. To say the least, to be waiting for a Harvard 
study makes my western blood boil a bit.
    Madam Administrator, you have commented publicly and 
privately to me with regard to all of the wonderful studies 
that you claim support your policy decision on these 
rulemakings. Yet how can the public possibly make rational 
arguments relative to the scientific basis of these rules when 
you refuse or are party to the nonrelease of all data relied 
upon in your decision-making process. Do you plan to release, 
or force others to release, this data, and if so, when?
    Because this data will take time for the public to review 
and to respond to, presuming all of the data we're talking 
about, will you pledge to request of the court an adequate 
extension of time beyond the July 19th deadline for the 
completion of your final decision on PM? That's a question I 
will ask you to respond to in just a moment.
    Is the refusal to release the data developed by Harvard or 
any other studies sufficient grounds for you to reverse course 
and choose the ``no change'' option the conferees encouraged 
last September? If not, why not?
    I have seen estimates that your proposed PM rule will 
create between 160 and 300 new Clean Air Act nonattainment 
areas in the United States. Since most areas of the country 
have little, if any, monitoring equipment and, therefore, very 
little associated data, how do we know how many will actually 
be out of compliance? How long will it take EPA to determine 
this number?
    Madam Administrator, let me say, in closing these rather 
extensive initial remarks, designed to set a stage, that many 
an area of the country has worked very, very hard to bring 
themselves into compliance under the existing rules. Many have 
struggled and made sacrifices, both in terms of their 
economies, their jobs, and a lot of other circumstances. And 
yet there is little doubt that, whether we're talking about 
California, or Ohio, or if we're talking about South Carolina, 
with these rules you propose, many of those who struggled so 
hard will suddenly find themselves in noncompliance, with 
almost no answers as to how they ever meet the challenges of 
these proposed rules.
    So, with that, Madame Administrator, I would be happy to 
give you a chance to respond to some of those questions asked, 
or just general comments, before I turn to Mr. Stokes.
    Ms. Browner. Mr. Chairman, you covered a broad range of 
subjects, from Superfund to clean air. If I----
    Mr. Lewis. Emphasizing one subject area, priorities.
    Ms. Browner. I would first say that, while we highlight in 
our opening statement those areas of increase, that does not 
suggest this budget does not include appropriate funding levels 
for all of the responsibilities that have been given to us by 
Congress. Those responsibilities include decisions about the 
registration of pesticides and their application on individual 
crops, the research necessary on clean air, dioxin, endocrine 
disrupters, the work we do at small, lightly contaminated 
sites, and the work we do at large sites.
    We operate at the will of this body under 13 separate, 
major federal statutes, and every year in developing a budget 
we are faced with the very difficult task of working across all 
of those statutes, seeking to find the best application of 
resources. That is the budget we present to you.
    In no way does the fact that we highlight where the 
increases would go in an opening statement suggest that the 
level of funding we have provided in other areas is inadequate. 
We can speak to all of those, obviously, during the course of 
the hearing.

                        superfund budget request

    One specific comment I would like to make on the Superfund, 
the toxic waste cleanup request, is that we have not suggested 
that those sites would be done in two years. It is a two-year 
funding request because of the nature of how the construction 
operates at those sites. In fact, the work is done over four 
years. I want to be very clear about what we promise the 
American people, because they have been promised a lot in this 
program.
    I have spent much of the last four years publicly saying 
that this is a program that has a complicated history, a 
history of which I don't think anyone--the Congress, the 
communities, or EPA--has been particularly proud. But I am 
proud of the fact that, in the last four years, this 
Administration cleaned up more sites than in the first 12 years 
of the program, and we now will have ready to go in excess of 
600 sites from which, through risk-based measurement 500 can be 
completed with the appropriate level of funding. That list of 
600 can be made available. You have pressed us and we have 
agreed with you that it should be done on a risk-analysis 
basis. We can make that available to you.
    But the real question for the Congress, in considering the 
EPA budget request and the increase, is how many of these 
communities should finally get their sites cleaned up. I don't 
disagree that what's happened is the program has moved along, 
and now we have a lot of them ready to go into the final phase. 
But I don't think that any of us want to be in a position of 
saying again to a community, who may have already waited four, 
five, six, seven, eight, nine, ten years, ``wait again.''
    I hope we can have an honest discussion about how much 
money it takes to get how many sites done. We will show you the 
map on that and we will deliver to the American people a level 
of cleanup and a level of public health protection that we 
think this statute promised them.

                     naaqs: health effects studies

    In the case of the Clean Air Act, just very briefly, Mr. 
Chairman, it is absolutely important to me that everyone 
involved in this issue, that everyone on this Committee and in 
the Congress understand that no final decision has been made on 
standards for PM and Ozone. We made a proposal to the American 
people. It reflected, at that time, in the case of ozone, the 
better part of ten years of scientific analysis. In the case of 
PM, an equal amount of time, a peer review process unparalleled 
in the history of EPA, a volume of published scientific peer 
reviewed studies unparalleled in the history of EPA.
    Based on that process of peer review we made a proposal to 
the American people. It is where the science showed us the 
protections would be best provided.
    We have just completed taking public comment on that 
proposal, and we are reviewing those proposals right now. No 
final decision has been made at this time.
    We agree with you that information should be available to 
the public. Mary Nichols has written to Harvard and the 
American Cancer Society, which also has one of the underlying 
data bases that was used by some of the scientists in 
undertaking their studies. The studies were peer reviewed 
before they were considered by EPA, and then they were peer 
reviewed again by the EPA external scientific panel, 
encouraging them to release the information. We can explain to 
you in detail what Harvard and what the American Cancer Society 
have done.
    I would like to make just one point on this issue. This 
issue of the underlying data bases was publicly discussed by 
the external peer review panels working with EPA, made up of 
industry, university experts, meteorologists, health experts. 
The issue of underlying data bases was discussed and 
considered. They believed that, in the case of the studies and 
the peer review process that these studies were subjected to 
the additional peer review they were now being subjected to, 
meant that these studies should properly be included in the 
volume of more than 200 peer-reviewed published studies on 
these issues.
    We are more than happy to explain what Harvard has now 
done. They have made the information available. A scientist 
with a scientific question can access the information. That is 
also the case with the American Cancer Society's database. 
We're more than happy to explain all of that.
    But I would hope that people can understand, as I know you 
do, the magnitude of the effort that led to this proposal, and 
the fact that we are now reviewing public comments and we take 
it very seriously, that no final decision has been made.

                       naaqs: control strategies

    Mr. Lewis. Madam Administrator, my concern, just to 
summarize, is that it appears to me that these panels that have 
been carefully peer reviewed have come forth with a variety of 
possible choices, but it sure appears to me as though you had a 
pre-established notion of what the choice should be and went 
about establishing that as the foundation.
    It is kind of like the President's decision to make a 
wilderness area out of almost an entire state, and then decide 
to consult with people after the fact. It is very disconcerting 
that there is that pattern in this Administration, at least on 
the surface it appears to be.
    Let me ask you a specific question--and I have a list of 
questions that I was reviewing. With the NAAQS standards, there 
are going to be areas that have struggled to go into 
attainment, who are going to suddenly be out.
    Am I correct that EPA does not have specific control 
strategies in mind for these particular areas, and that to meet 
the challenges they may very well find themselves having to 
implement a broad array of strategies that may even include 
barbecues and the like?
    Ms. Browner. No. First of all, this is absolutely not about 
barbecues, this is not about people's Fourth of July 
fireworks----
    Mr. Lewis. It's not about lawnmowers.
    Ms. Browner. It's not about lawnmowers. Is it about whether 
or not your child can play outside on the Fourth of July.
    Mr. Lewis. Remembering those many areas that struggled long 
and hard----
    Ms. Browner. I agree.
    Mr. Lewis [continuing]. To make attainment, and some still 
have not made it under the existing standards, that those same 
ones are suddenly going to be not in attainment and--frankly, 
there are very, very legitimate people with very distinguished 
scientific backgrounds who question whether attainment is 
feasible in many an area.
    Ms. Browner. If I might briefly step back. Certainly you, 
Mr. Chairman, know this issue as well as anyone in Congress, 
having been involved in it from a state and local perspective 
for a very, very long time.
    If I might step back briefly for the other members of the 
Committee. There are two public health standards which EPA has 
proposed to strengthen. One of those is ozone, which is also 
referred to as smog. It is something that we are all too 
familiar with on a hot summer day here in Washington. You go 
outside and suddenly, if you're trying to be active, if you're 
running, you experience a respiratory effect.
    The other is what we refer to as particulate matter, or 
fine particles. These are tiny, tiny things that you cannot 
see. When you breathe them, they become imbedded in your lungs. 
You cannot cough them up, you cannot blow your nose and hope to 
expel them. I'm sorry, but those are the kind of facts we deal 
with.
    The result of those fine particles, in far too many 
instances, is premature death. In the case of the smog/ozone, 
the concerns are respiratory illness and, most particularly 
asthma. Asthma is now the single largest cause of childhood 
hospitalization in the United States. More children are put in 
the hospital because of an asthma attack than anything else 
today in the United States.
    We have proposed to strengthen these two standards based on 
many years of analysis. In the Clean Air Act Congress told EPA 
to look at the six most commonly found air pollutants every 
five years and, based on the best available science, determine 
whether or not the public's health is adequately protected.
    Of the six, EPA has completed a review of five. We are only 
proposing to strengthen two. It's a proposal at this point in 
time and no final decision has been made. The others will 
remain the same. The reason we didn't review the sixth one is 
because it's lead, and largely the work from a national 
perspective is done on lead in the air.
    So we have taken a comprehensive review of these public 
health standards. They are within a particular part of the 
statute that is different from the rest of the statute. This 
provision in the statute has been reauthorized under both 
Democratic and Republican Presidents. It has been the source of 
great debate each time the law has been reconsidered by this 
body, and it has been preserved each and every time after that 
debate.
    Now, very specifically----
    Mr. Lewis. We have to move along here.

                            NAAQS Compliance

    Ms. Browner. One more minute, please.
    The progress we have made in this country in reducing air 
pollution is unparalleled in the world. Every single person who 
has been a part of this, including every Member of Congress, 
should be proud of that progress.
    Anything that has been done by any city, even a city that 
might not be able to meet a tougher standard, if that is where 
we end the process, was an important thing to do and will be 
important, even if they need to take additional steps. Nothing 
has been wasted. It is like building a brick wall. You have to 
put the first layer down before you can put the second layer 
down, and the second layer before the third layer. Nothing has 
been wasted.
    We project that for 70 percent of the areas that might not 
meet the standard we have proposed--again, we have not made a 
final decision--they would be able to meet a tougher public 
health standard for ozone through currently available 
solutions.
    If I might briefly explain what I mean by that----
    Mr. Lewis. Briefly, Madam Administrator.
    Ms. Browner. That means agreements we have already reached 
on the books with industry to reduce their pollution. That 
means, for example, that certain technologies used in some 
areas could be expanded to other areas. Seventy percent could 
meet a tougher public health standard for ozone through 
currently available solutions.
    It means next year, if you buy a new car in the United 
States, thanks to the good work of EPA and Detroit----
    Mr. Lewis. Seventy percent could reach the new----
    Ms. Browner. Right. But we've been very fair and honest 
about this. We recognize that for 30 percent--and I think, Mr. 
Chairman, as you well know, some large amount of that is in 
California, and we're the first to admit it--we will have to 
find new solutions. But there is a long history under the Clean 
Air Act of industry rising to the challenge.
    For PM, just like----
    [The information follows:]

[Pages 18 - 33--The official Committee record contains additional material here.]


    Mr. Lewis. Ms. Browner, I hate to have a ``divorce'' take 
place here, but Louis Stokes and I are getting along very well 
and----
    Mr. Stokes. Mr. Chairman, you take all the time you want.

                        pM 2.5 Proposed Standard

    Ms. Browner. I just want to give you the corresponding 
number for the PM, so that no one thinks anything was being 
hidden here. Let me just give you the corresponding number.
    For the fine particles, this is really a new pollutant that 
we are proposing to set a standard for. Today weregulate the 
coarse ones, but these are finer ones. It's not a change in the level 
of protection from 10 to 2.5. It is actually a different size 
pollutant.
    We project, that 40 percent of the areas could meet a 
tougher public health standard, which we have proposed--we have 
not finalized that decision--through solutions currently 
available. Obviously, the challenge there is greater.
    In closing, I would just remind people that there is a 25 
year history under the Clean Air Act in this country. Mr. 
Chairman, you know it probably far better than anyone, with 
Detroit saying they couldn't build a catalytic converter. They 
positively couldn't do it. And they couldn't contribute to air 
pollution reductions. They didn't do it just once; they did it 
twice.
    People were telling us they couldn't find a substitute for 
chlorofluorocarbons. Not only did they do it, they did it far 
more quickly than anyone expected, and they did it far less 
expensively. There is a long history of industry rising to the 
challenge, working in partnership with government, with 
citizens, to find solutions.
    Mr. Lewis. Madam Administrator, it is with that history, 
and my great concern that you may be taking steps that 
undermine not just that history but the whole credibility of 
this movement, that I express these concerns I have today.
    Mr. Stokes, you will be very pleased to know, as I 
introduce you, that the Administrator has indicated that no 
final decision has been made and, thereby, Cuyahoga County may 
be able to breathe with some sense of relief. But I must also 
add, Mr. Stokes, that at a later time--let me mark this date--
that at a later time I hope, eyeball to eyeball, over an ice 
cream soda, to discuss whether or not really in some people's 
heads a decision has already been made.
    Mr. Stokes, I am glad to yield to you.
    Mr. Stokes. Thank you very much, Mr. Chairman.
    Ms. Browner, you've had a good warm up. [Laughter.]
    Ms. Browner. Following the leadership of the Chairman.
    Mr. Stokes. We should have an interesting day.
    By the way, Madam Administrator, I am involved in a mark-up 
with another committee and I may be moving in and out today and 
tomorrow. I wanted you to understand why I may not always be 
present.
    Mr. Lewis. If you will just give me your questions, I would 
be glad to ask them, Mr. Stokes. [Laughter.]

                       Superfund Reauthorization

    Mr. Stokes. I knew you would do that for me. Thank you, Mr. 
Chairman.
    You mentioned the increase you desire in the area of 
Superfund. As you know, we have not been able to enact over the 
last four or five years of this legislation. What is your 
understanding in terms of the authorization legislation, in 
both the House and the Senate?
    Ms. Browner. Congressman Stokes, this Administration has 
worked very hard to see the Superfund law rewritten. We believe 
it is a law that needs to be rewritten. It was our top 
priority. We gave Congress a bill that enjoyed the support of 
everyone from the Sierra Club to the chemical manufacturers.
    Politics being what it is, it didn't come to pass. We are 
now back at the table in a bipartisan manner, on both the House 
and the Senate side, looking at how to craft comprehensive 
reform of the Superfund law.
    I might add, though, that we didn't just stop with 
presenting legislation. We then changed the program in its day-
to-day operation through a series of administrative reforms 
which have been studied by several groups, including an 
industry group, and they have found the reforms on balance, to 
be of a positive nature. We would be more than happy to provide 
that to the committee in writing.
    [The information follows:]

               Superfund: Reauthorization, Agency Efforts

    Although the Superfund reauthorization bill hasn't been 
enacted, we didn't just stop with presenting legislation. 
Through a series of administrative reforms, the Agency has been 
able to change the day-to-day operation of the program making 
the Superfund of today a fundamentally different program from 
previous years. The following administrative reform reports are 
attached--``A Chemical Industry Perspective on EPA's Superfund 
Administrative Reforms'', and ``EPA's Superfund Reforms: A 
report on the First Year of Implementation''.

[Pages 36 - 176--The official Committee record contains additional material here.]


    Mr. Stokes. It is my understanding that the chairmen of 
both the House and Senate authorizing committees, as well as 
the chairman of the Senate Appropriations subcommittee 
responsible for EPA's budget, are on record as being opposed to 
the large Superfund increase. Is that also yourunderstanding?
    Ms. Browner. That is correct. That is our understanding.
    Mr. Stokes, in the case of Mr. Chafee, you're correct. 
There was a letter and we'll make it available to the 
committee, speaking to the need for reauthorization.
    Mr. Bond, did make a statement, at the Senate hearing. He 
has not given us a written indication of his position.
    [The information follows:]

[Pages 178 - 184--The official Committee record contains additional material here.]


    Mr. Stokes. The question I was going to follow up with is 
whether you know how much of the opposition is simply due to 
the fact that the program currently lacks authorization, or how 
much of it is due to other factors?
    Ms. Browner. I would not feel comfortable speaking for 
other members. My sense is that, in the case of the authorizing 
committee, they also share our strong desire for 
reauthorization.

                         Superfund: GAO Report

    Mr. Stokes. The General Accounting Office, in its 
assessment of the Superfund program for its high-risk reports, 
observes that although EPA has made many improvements, much 
remains to be done. The GAO believes EPA needs to do more to 
increase the amount of indirect program costs that can be 
recovered, and needs to improve contract management so that it 
does not overpay its contractors.
    What specific actions is EPA taking in these areas?
    Ms. Browner. We have undertaken a number of changes in the 
day-to-day operations of the Superfund program, in terms of 
management at individual sites, management across the program, 
and specific actions designed to increase the rate of cleanup.
    The effect is we have been able to reduce the amount of 
time per cleanup on average to two years, and we have also been 
able to secure a reduction in the dollars per cleanup.

                              Brownfields

    Mr. Stokes. Madam Administrator, as you know, I have been 
and continue to be a very strong supporter of the Agency's 
Brownfields initiative. As we noted, in conjunction with the 
President's Kalamazoo speech, the EPA's 1998 budget request 
included an additional $50 million for Brownfields, bringing 
the total to $87.1 million.
    Can you briefly tell us of the program's accomplishments 
since inception, quantifying, where possible, in terms of site 
study, sites cleared or cleaned up, jobs produced, and economic 
activity generated?
    Ms. Browner. Congressman Stokes, I think our Brownfields 
program is widely viewed as extremely successful, in terms of a 
relatively, small dollar amount, in the scheme of the federal 
budget, the program dollars result in a return.
    We began this project back in 1995 out of existing funds. 
Up to this point we have not sought an increase in funding from 
the Congress for this program. We have been doing it within our 
base budget because we felt it was a high priority that 
deserved a redirection of funds.
    The increase we seek now from Congress would allow us to 
dramatically increase the number of cities that would actually 
benefit from the small grants of $200,000 and smaller that we 
make available for assessment. These grants are used by cities, 
by local governments, and by the states, to undertake an 
analysis of the sites to determine which ones are most ripe for 
redevelopment.
    We could provide the status, in each of the areas where a 
grant has been made, We can give you in writing a summary of 
what has actually happened.
    In each and every instance, what we're seeing is 
redevelopment; in each and every instance, what we're seeing is 
a net gain to the tax revenues of the local community. Suddenly 
sites that had been sitting there not being used by anyone are 
now being used and taxes are being paid to the city. We would 
be more than happy to give you that kind of a breakout on a 
site-by-site basis.
    I think it will show you what additional dollars will do 
for these local communities, in having these sites finally 
cleaned up and put back to productive use.
    Mr. Stokes. I would appreciate it if you would feel free to 
elaborate in the record on each one of those instances.
    [The information follows:]

[Pages 187 - 190--The official Committee record contains additional material here.]


    Mr. Stokes. Let me ask you this. What approaches used by 
communities at the early Brownfields sites have been 
successful, and alternatively, what approaches have been used 
that have been less than successful?
    Ms. Browner. I think the most important things about 
Brownfields is that it allows the community to make a case-by-
case determination. It needs to be a flexible program because 
no two communities are the same. The history that has produced 
these deserted sites can vary dramatically.
    I think the reason we have had such success is because 
we've been flexible in allowing a community to say, ``Look, 
this site, we believe, is right for redevelopment, but this one 
isn't.'' Therefore, we will provide the dollars for that site, 
where the redevelopment is the most likely. What we have seen 
in community after community is, if you go into the right site 
first, even though it's just one grant and it's relatively 
small, it will have a trickle down effect. Other sites will 
benefit, perhaps indirectly, but nevertheless they will benefit 
by the activity at the first site. There is a spiral effect, 
and it works out block after block.
    At this time, what we would strongly recommend to Congress, 
in working with us to fulfill the opportunities of this 
program, is to preserve the flexibility. Let'sensure that the 
communities can actually tell us what makes the most sense for them.

                Brownfields: Other Agencies' Involvement

    Mr. Stokes. Madam Administrator, can you explain to us the 
national partnership agenda, on which the EPA is now working 
with 16 other federal agencies, and how this effort relates to 
Brownfields?
    Ms. Browner. As I began this work with the mayors and 
communities of the country, it was an EPA program. Again, it 
came out of our base budget and we did not seek dollars, new 
dollars from Congress. As it became increasingly successful, 
mayors told me they think there are other departments and 
agencies that could be valuable players in this effort, not the 
least of which is Housing and Urban Development an agency that 
this committee has jurisdiction over.
    So for the last six months we have been working across the 
Federal Government to bring those other agencies into the fold 
to bring their services, to bear. It's not just HUD, but also 
the Small Business Administration. We think there are some 
tremendous opportunities. A lot of these sites are ripe for 
development by small businesses, so they are becoming actively 
involved.
    We will be announcing, in the not-too-distant future, an 
administration-wide effort to ensure that all of the tools 
available to the Federal Government are being used in a 
coordinated manner.
    Obviously, a big component of the President's Brownfields 
proposal is included in the balanced budget, and that is a tax 
incentive. It is a $1.2 billion tax incentive over five years 
that would allow a business that chooses to clean up and 
redevelop one of these sites an opportunity to deduct the 
clean-up cost. Today, if you are a party that polluted a 
Superfund site, you can deduct your clean-up cost. That is the 
way the tax law is structured.
    Yet, if you come along and you want to buy a site, and you 
want to clean it up, and you want to develop it and give it 
back to that community for profitable use, you cannot deduct 
the clean-up cost. So the President has found room within his 
balanced budget to level the playing field so that these sites 
will receive the same kind of tax advantage that other sites 
receive. That will further induce the redevelopers, the 
bankers, the lenders, to come to the sites, to do the modest 
cleanup, and to redevelop the sites.
    Mr. Stokes. I think I have reached the end of my time. 
Thank you, Mr. Chairman.
    Mr. Lewis. Thank you very much, Mr. Stokes.
    As I indicated earlier, we're going to try to stay 
reasonably close to the ten-minute rule, but further than that, 
we're going to try to call upon members reasonably close to 
when they came in, so that we can at least continue and 
encourage people to participate in the process.
    Mr. DeLay.

                           PM Risk Assessment

    Mr. DeLay. Thank you, Mr. Chairman.
    Madam Administrator, already there has been a lot said, and 
I really appreciate the Chairman laying it out so well, some of 
the concerns that many of us on this panel and in this Congress 
have.
    Not the least of which, Madam Administrator, when you make 
statements like you've made this morning, many of them without 
foundation, many of them with your own government agencies 
disputing what you say--and we're going to get into each one of 
these over the next day or two, but I just want to lay out to 
you where I'm coming from.
    I think I heard the Chairman say that your credibility is 
in question, and the credibility of this Agency is in question, 
by some of your statements. You take a lot of credit, as many 
people should take a lot of credit, for the last 20 years of 
progress in cleaning up the air of this country, particularly 
in cities, and in my own City of Houston. A lot of people 
should take a lot of credit for that.
    But, frankly, that was the easy part, the easy part. We're 
getting to the hard parts. The hard part needs a good 
scientific basis in order to make these decisions, because even 
though, in my estimation, over the years EPA, this Congress, 
and organizations in general have wasted billions upon billions 
of dollars, with no benefit to clean air, clean water or clean 
land, in many different areas. I'm not saying overall. I'm just 
saying in certain areas, where a lot of money has been wasted 
and a lot of people's freedoms have been taken away from them, 
with no benefit realized for it.
    Even your own organization, CASAC, agrees that something 
needs to be done with the PM standards, but they have yet to 
say what. Yet, you have already made a determination. They say 
they need more data in order to make these decisions. I mean, 
even your statements on the risk and the causation associated 
with the risk, as you present it, is not well-founded, 
scientific fact. In fact, your statements about peer review of 
peer review of peer review is questioned by agencies in your 
own Administration, as well as some of your own peer review 
panels. So we want to get into that, too.
    Let me start with risk factors. It is my understanding that 
the scientific community considers relative risk estimates 
below 2 or 3 to demonstrate highly unreliable evidence of a 
causal link. Do you know what that means, what I'm saying?
    Ms. Browner. No, I don't.
    Mr. DeLay. You have made the statement that people are 
dying----
    Ms. Browner. Are you speaking to air?
    Mr. DeLay. To air.
    Ms. Browner. Okay.
    Mr. DeLay. That people are dying because of the air, and 
these little molecules stick to our lungs and we can't cough 
them out. Yet the scientific community talks about and 
considers, when you start talking about these issues, a 
relative risk estimate, a relative risk estimate below 2 or 3 
to demonstrate highly unreliable evidence of a causal link.
    What is the relative risk factor associated with PM 2.5?
    Ms. Browner. With all due respect--and risk is something I 
spend a great deal of time dealing with--I'm not sure I 
understand your question.
    Mr. DeLay. Well, there's a body of thought--surely, when 
you considered this new rulemaking, you considered the risk 
factor of going to a new molecule, particulate matter of 2.5.
    Ms. Browner. The law requires us under the Clean Air Act to 
look at the best available science. The PM 2.5 science is a 
combination of studies in cities, where PM 2.5 was actually 
being measured, and a body of health information that includes 
mortality, death certificates, hospital admissions and actual 
health records of large numbers of individuals. That is the 
body of evidence.
    Mr. DeLay. Are you saying the rulemaking is not based on 
risk assessment?
    Ms. Browner. No. You then look at the data.
    Mr. DeLay. I understand all that. I'm a scientist myself, 
Ms. Browner. What I'm asking you is a scientific body of 
thought that establishes a risk factor for moving to a new 
particulate matter 2.5? What is the risk factor? If you don't 
know the answer, I'll give it to you. It's 1.1 to 1.2.
    Ms. Browner. Right, it's 1.1.
    Mr. DeLay. Ms. Browner, the relative risk factor of getting 
mouth cancer from using mouthwash regularly, do you know what 
that is? It's 1.5.
    Ms. Browner. Yes, but you can choose to use mouthwash. You 
cannot choose to breathe. It's just that simple. Therefore, 
when you look at these issues, we do have to take into account 
the reality of----
    Mr. Lewis. Wait a minute. I'm not sure what you just said.
    Ms. Browner. I said you can choose to use mouthwash. You 
cannot choose whether or not you breathe.
    Mr. Lewis. But the risk factor is the same?
    Ms. Browner. Apparently. I am not familiar with the risk 
factor of mouthwash. We don't regulate mouthwash. I want to be 
very clear.
    Mr. DeLay. Do you know what the risk factor of getting lung 
cancer from drinking milk is? It's 2.14, almost twice as high 
as the risk factor associated with your PM 2.5.
    Are you planning then to regulate yogurt, whole milk, hot 
dogs and mouthwash, all of which have higher relative risks 
associated with certain types of cancer, than the risk 
associated with your PM 2.5?
    Ms. Browner. It's not a carcinogen. PM 2.5 is not a 
carcinogen, and that is not why we have proposed a standard for 
2.5.
    Mr. DeLay. You are not sure what PM 2.5 is?
    Ms. Browner. No, we are sure what it is. It kills people 
when they breathe it. It kills large numbers of people 
prematurely.
    Mr. DeLay. Let's talk about that then.
    Ms. Browner. It's not a carcinogen. I think the record, 
with all due respect, needs to reflect that. The comparisons 
you're seeking to make are from a carcinogen to a 
noncarcinogen.
    Mr. DeLay. Ma'am, in science it is a relative risk of 
receiving adverse effects. I'm not saying it's a risk of 
cancer. It's a relative risk, and you're establishing an 
incredible rule coming out of the EPA--by the way, not mandated 
by statute, but mandated by policy from the EPA.
    Ms. Browner, the EPA is not required by law to propose 
these standards. You claim that the agency was--and I quote--
``driven by science''. You said you have listened to the 
science, you have a cause and you have an effect. You're saying 
that the cause is PM 2.5 and the effect is children dying.
    Ms. Browner. Excuse me. We have never said children are 
dying from 2.5, with all due respect. It's not children.
    Mr. DeLay. Well, we can go back to the record, if you want. 
You just said it, people dying.
    Ms. Browner. I addressed premature death in seniors. I 
addressed the respiratory illness and asthma in children. I 
have never said children and premature death.
    Mr. DeLay. You said premature death in seniors, and 
hospitalizations, cause and effect.
    Ms. Browner, that is not really true, is it? What the 
studies show is an association, not a causation. In fact, the 
Clean Air Act Science Advisory Committee, your CASAC that we 
mentioned earlier, the organization which reviewed the 
scientific documents--maybe it's one of the peer reviews of 
peer reviews of peer reviews that you don't want to include--
this organization reviewed these documents in which the new 
proposals are based and stated in their report that there are 
``many unanswered questions and uncertainties associated with 
establishing causality of the association between PM 2.5 and 
mortality.''
    Further, a March 16th letter from the Chair, and past 
Chair, of CASAC, states, ``The panel urges that it be 
explicitly stated that the causality of PM 2.5 has not been 
clearly established.'' That was March 16th.
    On what do you base your claim that there's a causation, a 
cause and effect?
    Ms. Browner. This is shown by the state of the science, and 
we agree, and that's why we seek more money for scientific 
review in this area. It is very similar to where we found 
ourselves with tobacco ten or fifteen years ago. It is also 
similar to where we once found ourselves with lead in gasoline.
    What the science shows is that it's absolutely clear, that 
when 2.5 reaches a certain level in the ambient air, there are 
real and measurable health effects. It shows us a level of 
pollution and a level of health effects.
    Mr. DeLay. You say science shows us. Maybe your science 
shows us that you're--maybe your selective science shows us.

                            pm: casac panel

    Ms. Browner. I'll be more than happy to quote to you from 
CASAC.
    Mr. DeLay. What about CASAC?
    Ms. Browner. CASAC said, ``It was the consensus of the 
panel that, although our understanding of the effects is far 
from complete, there was also a consensus that a new PM 2.5 
NAAQS be established.'' That is what CASAC said. Nineteen of 21 
members said, after a four year review, a public review of the 
science, that a standard should be developed for 2.5.
    Mr. DeLay. If I can--this will be my last, and then I'll 
move on and let someone else ask questions, because I've got 
plenty.
    You tout that there are 21 members of CASAC----
    Ms. Browner. From this one panel, right.
    Mr. DeLay [continuing]. And you just touted that they voted 
in support of the position you've taken on the PM 2.5 rule.
    Briefing documents used by the Agency state, ``There was a 
consensus that a new PM 2.5 NAAQS be established, with 19 of 
the 21 panel members endorsing the concept of a 24 hour and/or 
an annual PM 2.5 NAAQS'' that you just quoted.
    But that statement is quite misleading. How many of the 21 
members voted against setting an annual fine particle standard?
    Ms. Browner. The document we are quoting--and I think 
you're quoting from the same one--is the Clean Air Act 
Scientific Advisory Committee closure letter on the EPA staff 
paper on PM, from June 13, 1996. The quote is there was a 
consensus, that 19 or 21----
    Mr. DeLay. No, ma'am. Eight----
    Ms. Browner [continuing]. Said set the 2.5 standard.
    Mr. DeLay. Just answer the question. Eight or nine, I am 
told, voted against setting an annual fine particle standard.
    How many of the 21 members supported an annual standard as 
low as 15 micrograms per cubic meter, the level that you 
proposed?
    Ms. Browner. There are two issues that were properly before 
the CASAC external peer review.
    Mr. DeLay. Ma'am, I understand all that. Just answer my 
question. How many of the 21 members supported the annual 
standard as low as 15 micrograms per cubic meter, the level 
that you are proposing and touting here today?
    Ms. Browner. With all due respect, if I'm going to answer 
the question, I need to separate out two issues.
    Mr. DeLay. No, ma'am. You're taking more of my time. It's a 
simple question, and I will answer it for you if you don't want 
to answer it.
    Ms. Browner. It's not a simple question.
    Mr. DeLay. It's two. Only two of your panel voted to set 
the standard that you're proposing.
    Ms. Browner. Mr. Delay, with all due respect, you are 
attempting to say that there was not consensus in the panel 
that a new pollutant, a fine particle, a 2.5 particle should be 
regulated to protect the public's health. Nineteen of the 21 
people said it is time to set a standard for 2.5.
    Mr. DeLay. Ma'am, this is your own advisory committee, and 
the way they voted. For the record, I'm putting the way they 
voted because you're misrepresenting and it goes right back to 
the whole point, that you make statements that aren't supported 
by fact.
    The former chairman of CASAC has been quoted as saying, ``I 
don't think the standards that have been chosen reflect the 
advice the CASAC has given to the Administrator.'' How do you 
respond to that?
    Ms. Browner. The panel reached a consensus that we should 
set a standard for fine particles.
    Mr. DeLay. But not the standard you have set.
    Ms. Browner. We haven't set a standard.
    Mr. DeLay. You proposed a rulemaking that sets a standard.
    Ms. Browner. The panel said further that, in setting the 
amount of these fine particles that could be in the air, there 
was an appropriate range for consideration. I'm telling you how 
this worked over four years ago.
    Mr. DeLay. Ma'am, I'm not a child, and you don't have to 
explain it like I'm a child. I know exactly what you're doing. 
You're saying there is a range, so you picked the worse range, 
a range not supported except by two of that panel. They said, 
and I said earlier, they want a PM standard, but they didn't 
know which, and they needed more data.
    You took that to mean that it's time to propose a 
rulemaking to set a standard that was only supported by two, 
and then you walked around and said ``we have consensus from 
CASAC.'' You don't have consensus.
    I yield back, Mr. Chairman.
    Ms. Browner. Do I get to respond?
    Mr. Lewis. Madam Administrator, certainly you can respond, 
and then I will call on our next questioner.
    Ms. Browner. We have been very forthcoming about this. We 
have made all of the documents available which include a lot of 
discussion about the concentration levels of 2.5. We have taken 
public comment on a range of concentration levels. We have not 
made any final decision on the appropriate concentration level 
for 2.5 to guarantee what the statute requires. The statute 
requires a five-year review based on best available science, 
and a public health standard with a margin of safety.
    We had detailed within our public documents the different 
range of concentration levels and the public health protections 
that would be provided. That is what we took comment on and we 
have not made a final decision.
    Mr. Lewis. Thank you, Mr. Delay, and Ms. Browner.
    It is my pleasure to call upon my colleague, Mr. 
Knollenberg, for ten minutes.

                     naaqs: health effects studies

    Mr. Knollenberg. Thank you, Mr. Chairman.
     Administrator Browner, welcome.
    I want to pursue a couple of things with you. I know none 
of this is very easy, but a lot of us are bewildered. Congress 
has an oversight responsibility, and if we're going to have 
that responsibility, we have to have all the information that 
we can possibly get our hands on.
    I note that in two of the EPA's press releases, dated back 
in November, which I believe was the day the EPA proposed the--
I call them new standards, because that's what they say. You 
maybe choose to say something else. But the statement was made 
that there are 185 studies identified showing the effects of 
ozone and health, and there were 86 studies that showed links 
between PM and human health. Is that correct?
    Ms. Browner. Right. That is correct. Just to clarify, those 
are all published, peer reviewed, scientific studies.
    Mr. Knollenberg. So then it would be safe to say that the 
185 studies were the basis for establishing a new ozone 
standard? You choose not to use the word standard, but what is 
it if it isn't a standard?
    Ms. Browner. Where perhaps Mr. Delay and I had our 
disagreement was over the word ``proposed''. We have not made a 
final decision. We did propose a public health standard, for 
which we are now in the process of taking comment on and which 
we are now reviewing.
    Mr. Knollenberg. Let me just say the decision. Then the 86 
studies were the basis for your decision on PM 2.5?
    Ms. Browner. For our proposal. There is no final decision.
    Mr. Knollenberg. Decision or proposal. Okay.
    Ms. Browner. Well, I think there's a fundamental difference 
there. There's a process----
    Mr. Knollenberg. You've made the statement. We have heard 
and read some different things, and I think it's important that 
we get your views here today, and your actual wording.
    Would you please tell this subcommittee then, if this is 
true, these two statements, to the extent of the 185 and the 
86, how many--well, I know the 86 studies specifically dealt 
with PM 2.5 and human health.
    Now, how many studies really did deal with, in the final 
analysis, PM 2.5 and human health, out of the 86?
    Ms. Browner. If I might explain the process, just very 
quickly, because it gets----
    Mr. Knollenberg. I can answer for you. What I have and what 
has been presented to us by EPA is seven. So of the 86, seven 
were used. Is that not true?
    Ms. Browner. No.
    Mr. Knollenberg. That's not true?
    Ms. Browner. No. All 86 were reviewed in terms of the CASAC 
review process.
    Mr. Knollenberg. Well, how many dealt with PM 2.5 
specifically?
    Ms. Browner. Of the 86, seven of them are specifically----
    Mr. Knollenberg. Seven. Okay.
    Ms. Browner. Wait. This is important. I mean, with all due 
respect, this is probably the biggest issue that EPA has been 
involved in for the better part of two decades. I am more than 
happy to welcome the oversight. We have made ourselves 
available to committee after committee----
    Mr. Knollenberg. I'm not making these numbers up. These are 
out there.
    Ms. Browner. I need to----
    Mr. Knollenberg. I just want to make sure you and I at 
least agree----
    Ms. Browner. You're not letting me answer the question, 
with all due respect. It's not a simple yes or----
    Mr. Knollenberg. Well, you did answer it.
    Ms. Browner. But it's not a simple yes or no question. It 
shouldn't be a simple yes or no question when you're dealing 
with the body of science that has been dealt with here, when 
you're dealing with something in excess of a four-year process.
    I apologize, but I think it is important for people to 
understand how we arrived at this proposal. It wasn't something 
that we arrived at in the course of a week, two weeks, a month, 
or even a year. It is the better part, in the case of ozone, of 
ten years, and in the case of PM, five years. That is all I'm 
asking for, is the opportunity to explain that to this 
committee, if it wants to look at these issues.
    Mr. Knollenberg. Let me go a little further. This is news 
to me, too. You mentioned that the Harvard study is now public 
information and we can get our hands on it?

                   naaqs: access to health study data

    Ms. Browner. What Harvard has done is made the information 
available to a third party, and that third party will take 
requests for access and process them accordingly. It is 
available outside of Harvard.
    Mr. Knollenberg. Do you have names and phone numbers?
    Ms. Browner. Yes, we can provide those to you.
    Mr. Knollenberg. I would like to have that.
    Ms. Browner. The Cancer Society also makes their data base 
available, and we can tell you how to access that in terms of 
contacting the appropriate parties with a scientific question 
protocol, and then accessing the data bases.
    Mr. Knollenberg. We would like to have that, please.
    Mr. Chairman, if you could make a note that we are 
requesting that information, the names and phone numbers.
    Mr. Lewis. It is part of the record and will be included in 
the record.
    Ms. Browner. We will try and provide that to you after 
lunch today.
    [The information follows:]

                    harvard school of public health

    Contact: James H. Ware, Dean for Academic Affairs, (617) 
432-1026.

                        american cancer society

    Contact: Clark Heath, Vice President, Epidemiology and 
Statistics, (404) 329-7686.

                        health effects institute

    Contact: Daniel J. Greenbaum, President, (617) 876-6700.

                           NAAQS: CASAC Panel

    Mr. Knollenberg. It is my understanding that EPA has been 
sued twice by the American Lung Association, I think first for 
ozone and then, in 1994, for particulate matter.
    Now, I'm concerned. This is no threat to you. It's just a 
concern that I have, about the fact that maybe this decision 
for PM may be based more upon a court order rather than a 
rational scientific basis. And let me tell you why I say that. 
I am basing this on two letters from CASAC to the former 
chairman. Let me just read this to you and you can respond.
    The former chairman, Dr. George Wolf, brings this to light 
in a letter of March 15, 1996. He says, ``As mentioned above, 
the panel members have expressed concern that the Agency may 
not be responsive to some of our comments, or may misinterpret 
them, since we will not have another opportunity to review the 
final document. This concern is another unfortunate consequence 
of the court-mandated accelerated time schedules. Nevertheless, 
it is a real concern.'' This is Dr. Wolf, who was the chairman 
at that time.
    Now, in a June 13, 1996 letter from Dr. Wolf, he states 
further that, ``While your staff is to be highly commended for 
producing such quality documents in such a short period of 
time, the deadlines did not allow--'' this is the chairman 
speaking ``--did not allow adequate time to analyze, integrate, 
interpret and debate the available data.'' And it goes on. But 
that was his comment.
    I have a little problem with your explanation of the vote 
or the decision that was reached by the 21 members, because 
this is the information I have, and you tell me where this is 
wrong. You said 19 of the 21 members supported a PM at 2.5, but 
as Paul Harvey would say, ``the rest of the story'' is that 
eight declined to select a level, four said higher than EPA's 
range, two said no PM is needed, and three were somewhere in 
the middle. Now, four did support a lower level. Again, this is 
hardly a consensus for choosing a proposal.
    Could you explain how you came up with the standard and 
give your opinion?
    Ms. Browner. With leave of the chairman, it would be 
helpful if I knew how much time I have. This is a complex 
issue, and you've made a number of important statements that I 
think it would be helpful if we could take a moment to address.
    Mr. Knollenberg. The data is from Table 1 of a summary of 
panel members recommendations. It was a letter that was written 
to you back on June 13th. Everything that is in--
    Mr. Lewis. Mr. Knollenberg, you still have two or three 
minutes, so whatever you would like to do.
    Mr. Knollenberg. Before you do respond--and we do want your 
answer--I want to try to tie this together so that I don't get 
off the track with what I really want to ask. I think I have 
most of it out, but why don't you respond to that then.
    Tell me, if you can, what is flawed about what I picked up 
from this report? I've just pulled it right out of that letter.
    Ms. Browner. With all due respect, you are confusing two 
issues.
    Mr. Knollenberg. What two?
    Ms. Browner. One is the size of particle, for which a 
standard should be set, and the second is the concentration 
level.
    I apologize. This is difficult and I am doing my best to 
simplify it.
    On size: currently we have standards for 10. The panel 
agreed, 19 of 21, that there should be a standard for 2.5. Some 
of the information--
    Mr. Knollenberg. That's where it wanders off and gets a bit 
different. I mean, we just----
    Ms. Browner. Well, I am more than happy to tell you the 
numbers.
    Mr. Knollenberg. I have them. Tell me. Tell the committee.
    Ms. Browner. You put two different numbers together in your 
statement, with all due respect.
    Mr. Knollenberg. I did not. I did not. This comes directly 
from the report. Do you have a copy of it?
    Ms. Browner. Yes.
    Mr. Knollenberg. It's in there.

                   NAAQS: CASAC Panel Recommendations

    Ms. Browner. The numbers show that nineteen of 21 agreed 
that it was time to have a fine particle standard. Only 11 of 
the 21 expressed an opinion about the concentration level. Of 
the 11 that had an opinion on the concentration level, how much 
2.5 can safely be in the air, six supported levels within the 
ranges proposed, by EPA, and five supported levels above that 
range. Not all of the 21 spoke to it.
    You will find a similar issue in ozone in terms of how the 
committee panel chose to address concentration levels.
    Mr. Knollenberg. I still have a question or two. I don't 
know how much time is left.
    Mr. Chairman. Mr. Chairman, how is the clock?
    Mr. Lewis. I am sorry, Mr. Knollenberg. You have another 
minute.
    Mr. Knollenberg. All right.
    Well, I think that you can understand, Madam Administrator, 
it is difficult for us to get the reports that obviously we 
have and make any kind of assessment that is different than 
what I have told you, and it is very difficult.
    I respect what you have just said. I know you are trying to 
get to a--this is no fun for you to come here and take a hit 
from some of us, and believe me, it is not a hit in the sense 
of----
    Ms. Browner. This is not a hit, in my opinion.
    Mr. Knollenberg [continuing]. Being nothing more than 
oversight, but I believe----
    Ms. Browner. This is a difficult issue that we all should 
engage in an honest fact-driven discussion of.
    Mr. Knollenberg. But I don't think that there should be a 
rush to judgment. I truly do not.
    I also think that many times in an effort to improve things 
that we begin to make good the enemy of perfect, and I have 
said that before.
    Ms. Browner. There is no rush to judgment. I would hardly 
call a 4-year public process----

                  NAAQS: Clean Air Act Mandated Review

    Mr. Knollenberg. There is a court order that gives us some 
sense of a push or pressure.
    Ms. Browner. The last time this body. reauthorized the 
Clean Air Act in 1990, you preserved the requirement, in the 
law that EPA review these standards every 5 years. That iswhat 
you have promised the American people, and that is what we have sought 
to do here.
    We all remember the painful days when the White House was 
not particularly willing to allow EPA to follow its statutory 
requirements and this body would step in to move EPA along.
    Mr. Knollenberg. Do you not have a court order that has to 
be--a ruling has to be determined by July?
    Ms. Browner. Yes, absolutely.
    Mr. Knollenberg. Do you not?
    Ms. Browner. And the reason you have that is because EPA 
had not been doing the statutorily required review. It is for 
that simple reason.
    The American Lung Association went to a judge and said the 
statute says Congress told EPA to review the standard every 5 
years, but they are not doing it. The judge said ``you are 
right, I am going to make them do it.'' That is true.
    Mr. Lewis. Mr. Knollenberg, I think you have made the point 
very well, but as we go on here, Madam Administrator, let me 
say that the committee is dwelling upon the question of 
particulate matter, whether the standard should be 2.5 or 
whether it should remain at 10.
    The law does require a review. It does not require that you 
change----
    Ms. Browner. We agree.

                PM Proposed Standard: Scientific Review

    Mr. Lewis [continuing]. That standard, and the consensus of 
your scientific advisers say that there should be some kind of 
particulate--fine particulate change or adjustment, but nowhere 
near a majority say it should be 2.5, and our panel is 
concerned--our panel--that you have already made that decision 
in your head, and they are concerned about that.
    Ms. Browner. Okay.
    Mr. Lewis. Having said that, we are still collecting data. 
We are still collecting data as to the real effect upon our 
movement several years ago to 10. We don't really know. We 
don't really know the positive effect of moving to 10, and to 
suggest to bring it down three times that level, at least it is 
causing some people to scratch their head, and you can 
understand----
    Ms. Browner. I can understand.
    Mr. Lewis [continuing]. As they look at your data and you 
say 19 of 21, you don't think there ought to be a change, the 
implication is they all want 2.5, and I think it is clearly 
being laid on the record today that, at best, there is a 
consensus to suggest there ought to be a fine particle change.
    Ms. Browner. Right. Mr. Chairman, I do think part of the 
confusion here, with all due respect, is 10 to 2.5. If I might 
just say one thing to all of the members here, it sounds like 
what we are doing is we are tightening a standard. The easiest 
way to think about 10 to 2.5, is they are two different 
pollutants. It is no different than saying smog and fine 
particles.
    Just because you have done work to deal with coarser 
standard, coarser particles, does not necessarily mean that you 
have addressed the fine particles. It is not a question of 
tightening when you go from 10 to 2.5. It is a question of 
changing which pollutant you are focusing your energies on.
    Then, once you decide which pollutant is appropriately the 
focus of interest based on public health data, you look at the 
concentration levels, whether it be PM 10, ozone, carbon 
monoxide, lead, or PM 2.5. I fear there is a lot of confusion 
over that one issue.
    Mr. Lewis. Now, with that, let us move forward. My 
colleague, Mrs. Meek, has been more than patient. So it is my 
pleasure to welcome Mrs. Meek for 10 minutes.
    Mrs. Meek.
    Mrs. Meek. I am sorry, Mr. Chairman.
    Mr. Lewis. That is all right. I am very pleased with your 
patience, and please feel free to use as much or all or more 
than your 10 minutes if you like.
    Mrs. Meek. Thank you.
    First of all, I am happy to see Ms. Browner. She is a 
Floridian. I think she has done an excellent job over this, and 
my opinion is not relatively biased based on my knowledge of 
her as a Floridian and her record in Florida and what she has 
brought to Congress.
    I have listened very closely today at the kinds of 
questions and the answers from Ms. Browner, and my observation 
is she is perfectly capable of answering all of your questions. 
I am happy to hear that.
    This is my first time on this committee, even though I have 
heard this particular agency testify before, and, Ms. Browner, 
understand that this entire thing is a very compelling issue, 
and I certainly don't want to minimize this particular PM that 
you are talking about today.

                 PM 2.5: Criteria For Standard Setting

    How do you as an administrator find some of the motivating 
factors which are important in setting these standards? Before 
you answer this, with my being new to this committee, what I 
hear a lot today in this committee is a question of your 
decision-making prowess relative to the scientific data which 
is available and the extent to which you have that data.
    I would like to know, is health the one criterion that you 
are using, or are there other factors that you bring in? Also, 
is there any time that you as a person who has to synthesize 
and bring in all of these data, looking at these data from all 
of your groups and looking at how do you finally as an 
Administrator--is there ever a time that you as a person who is 
knowledgeable in this area has to put some of your skills 
together? Otherwise, you may as well have Carrie Meek there 
making those decisions.
    The question I am asking you, is there a chance 
administratively for you to utilize your scientific background, 
your experience, and your empirical knowledge and observation? 
Is there ever that opportunity? And then I will finish that 
question later.
    Ms. Browner. In the case of public health air standards, 
what is most compelling and what I think absolutely must rule 
the day is the science. I created a process with the Assistant 
Administrator for Air, Mary Nichols. It is unlike any we have 
ever engaged in at EPA involving a review of a huge body of 
science and the health records of hundreds of thousands of 
Americans.
    We made a proposal to the American people: we have not made 
a final decision. The proposal we are taking comment on is 
based on where the science took us. It is based on the fact 
that in the case of smog, ozone, that three of the four health 
experts said .08 is the right standard.
    It is based on the fact that when you look at the studies 
of PM 2.5, not PM 10, you see an overwhelming number of people 
who suffer adverse consequences.
    My responsibility as the head of the country's 
environmental agency is to follow the science. The Clean Air 
Act further requires that for these two pollutants there be a 
public health standard set with an ample margin of safety. It 
is not a cost benefit standard in the way that some of our 
statutes are, and appropriately so. It is a public health 
standard because of the concern that for the six most commonly 
found air pollutants, they don't recognize State or regional 
boundaries. As a Nation, we set standards to guarantee a level 
of public health protection. So that is what we do here. It is 
the science, the science, the science in the statute Congress 
has told us to look at the science.
    Mrs. Meek. All right. So, then, you deal with both 
objective--almost all objective data when you are making these 
decisions.
    Ms. Browner. We began the process in the case of these two 
air proposals with 5,000 peer-reviewed published scientific 
studies, 5,000. The external peer review panel--not EPA--the 
external peer review panel told us we need to look at those 
studies and cull from those 5,000 those that speak to certain 
issues. So we went from 5,000 to the 184 and the 86, the 250 or 
so.
    Then, how you read those studies, what interpretation you 
put on the body taken together, that was peer-reviewed, and 
that is what I mean when I say it is extensively peer reviewed. 
It is a peer-reviewed study. It is a peer-reviewed decision to 
go from 5,000 to 250. It is peer-reviewed how to read the 250 
across the board. Every step of this is publicly peer-reviewed. 
It involves public meetings with people from industry and 
people from the environmental community. Anybody can go to 
these meetings and say, hey, in that 186 list of studies, two 
of those are junk, take them out. It is an iterative process.
    Mrs. Meek. A little bit further on that is, some members as 
I can perceive of the Congress feel that EPA has been a little 
heavy-handed in terms of its regulatory standards and that kind 
of thing. How are the States that have been in noncompliance 
with EPA, and I understand some of them are in noncompliance--
how are they going to handle in your mind this particular 
circumstance, and will you be able to help with the limited 
resources that the Congress has given to you?
    I have read you have gotten sometimes up to almost 50-
percent cut in EPA. How are you going to handle this? You are 
making new standards, and they are based on good scientific 
information. The States, many of them are in noncompliance. How 
will you--how do you think they will handle this?

                      NAAQS: COMPLIANCE BY STATES

    Ms. Browner. The Clean Air Act provides a variety of tools 
to EPA and the States to achieve air pollution reductions.
    As I said previously, we believe 70 percent of the areas 
that might not today need a tougher public health smog standard 
will be able to do so because we have new technologies that we 
have developed in partnership with industry. I mentioned the 
on-board canister. We worked with Detroit. Next year, if you 
buy a new car, there will be a little $10 part inside your gas 
tank. You won't even know it is there. The effect is to reduce 
the pollution every time you refill your car with gasoline 
which will provide a level of public health benefits.
    We will give you a list of all of those agreements we have 
with industry to make technology advances to reduce their 
pollution.
    Based on the experience of 25 years of industry rising to 
the challenge, I feel very comfortable that we can succeed over 
a 7-to-10-year implementation period. We are just in the first 
phase. It is a public health phase. Then there is a 7-to-10-
year implementation phase. Based on our experience, we can once 
again work with industry and the States to find common-sense, 
cost-effective solutions.
    It is not without its challenges. I want to be very honest 
and forthright about that. It is not without its challenges, 
but what kind of country would we be when we have this kind of 
public health data if we simply said, ``enough is enough, so 
what if our children experience asthma, so what if our children 
can't play outside on a certain day, so what if our seniors die 
prematurely because of air pollution.'' I think by working 
together with industry, we can find common-sense, cost-
effective solutions. It is the history of the clean air program 
in this country, and it is a remarkable history, and everyone 
should be proud of it.
    Mrs. Meek. Thank you very much.
    Ms. Browner. Thank you.
    Mrs. Meek. Mr. Chairman? Mr. Chairman, I am finished.
    Mr. Lewis. I am sorry. You are finished?
    Mrs. Meek. I am finished, yes. Thank you.
    Mr. Lewis. Are you trying to get us back on schedule?
    Mrs. Meek. I need to.
    Mr. Lewis. Thank you very much, Mrs. Meek.
    My colleague from New Jersey, Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Lewis. Ten minutes.
    Mr. Frelinghuysen. Good morning, Administrator Browner. How 
are you?
    Ms. Browner. Good morning.

                               SUPERFUND

    Mr. Frelinghuysen. I would like to focus for a little bit 
on the Superfund program, and for the record, I would like to 
know how much money has been spent to date from Federal and 
other sources on Superfund cleanups.
    Ms. Browner. Total since the inception of the program, 15 
years ago?
    Mr. Frelinghuysen. Yes.
    Ms. Browner. $16.1 billion has been spent on cleanups.
    Mr. Frelinghuysen. I understand the figure is closer to $25 
billion. Yes, I am counting the whole enchilada.
    Ms. Browner. I apologize. I thought you said Federal.
    There is an additional $12 billion that has been spent by 
the responsible parties to pay to clean up the pollution they 
have caused.
    Mr. Frelinghuysen. The reason I ask this question is the 
same reason I asked it last year. I think one of our jobs here 
in this committee is not only to provide you with resources, 
but I think the citizens ought to know how much money has been 
spent to date, and it is often said, and Ihave seen it 
documented, that 53 percent of that is spent on overhead and 
litigation, and 47 percent is spent on actual cleanup, and little 
wonder, it is so difficult to get anybody in Congress to support 
Superfund reform if the general feeling is that most of it is going to 
be spent solving legal disputes and a lesser percent goes into actual 
cleanups.
    I would like to know how many sites have actually been 
cleaned up with these dollars, whether it is $16 or $25 
billion. I would like to know what percentage of the Superfund 
sites that are on that national priority list have been cleaned 
up.
    Ms. Browner. 423 sites have actually been cleaned up. We 
have 482 sites in the construction phase, which is the final 
phase of cleanup activities. We have another 147 where we are 
completing the design phase, which is working with the 
community, with the responsible parties to develop the 
blueprint for the final cleanup.
    This is from a universe of 1,387 sites now on the national 
priorities list.
    The funding that we seek would allow us to complete 500 
cleanups over the course of 4 years. We have already done some 
numbers of those. We are moving along, and I think as of today, 
of that 500, we have now completed 23.
    Mr. Fields. This year?
    Ms. Browner. Yes.
    Mr. Fields. We have got 23.
    Ms. Browner. So 23 have now been completed within that 500 
under the current funding level. The challenge, if we are going 
to go beyond the 250 we know we can do at current funding 
levels, is to find the money to do the rest of them.

                          SUPERFUND CARRYOVER

    Mr. Frelinghuysen. You have substantial carryover money. 
How much do you have? And you have that that money carry over 
for a couple of years. Why can't those dollars be applied?
    First of all, tell us how much you have in the way of 
carryover dollars, whether any of the other carryover monies 
have been applied. In other words, you can put as much money 
you want into the system, but the system, in your own words, on 
other occasions, you have said that the system is broken, it 
needs to be fixed. We are putting more money into a system that 
needs to be fixed. How much in the way of carryover monies?
    Ms. Browner. We have about $130 million in carryover. This 
is a very large program. That is running at a fairly standard 
rate.
    Perhaps this is where your question is coming from. We do 
carry some reserves because we continue to have, as is true 
with any contract, something of a lag on the contracts. Until 
we have closed out a contract, we may have obligations under 
that contract, and so we have to carry a reserve account. 
Otherwise, the contractors would be left high and dry, which 
obviously no one would want to see happen. So we do carry a 
reserve account.
    We have been de-obligating the funds as we close out the 
contracts. Those dollars are taken into account in making this 
request to you. It is not as if there is some special pot of 
money that is not accounted for.
    When we look at the number of sites we promise to clean up, 
we take into account carryover funds in addition to the 
increase in funding we seek from the trust fund. All of that is 
accounted for, and we have displayed that for the committee. We 
are more than happy to display that for you.
    Mr. Frelinghuysen. As you are aware, I come from a State 
that has more Superfund----
    Ms. Browner. Yes.
    Mr. Frelinghuysen [continuing]. Sites than any in the 
Nation. From what I can gather, more than a billion dollars in 
public money has been spent in New Jersey alone.
    Last year, you accompanied the President to northern New 
Jersey to visit a specific industrial latex site in Bergen 
County. I would like to know where that site--where work on 
that site stands because I have to be quite blunt. I have more 
sites in my district than any other member of Congress, and 
there seems to be a correlation between my personal interest in 
the cleanup of those sites than the activity at those sites, 
and I would like to know whether your visit last fall has 
resulted in any super-type work occurring at that site, and if 
not, why not.
    Ms. Browner. The decision-making in terms of the level of 
activities at individual Superfund sites is made at the career 
level. It is not made at the political level. It is the subject 
of cross-agency discussions and risk analysis. We can show you 
how those decisions are made.
    So the fact that I or perhaps the President visited a 
particular site doesn't change in and of itself our commitment 
to that site. We make those individual site commitments on the 
basis of an extensive analysis.

                     SUPERFUND: BERGEN COUNTY SITE

    Mr. Frelinghuysen. Let us put a human face on this for a 
minute. I am not sure what your answer was relative to the 
Bergen County site.
    Ms. Browner. Well, I thought perhaps you were suggesting 
because I had gone there, it got special treatment.
    Mr. Frelinghuysen. Well, I am telling you, without fear of 
contradiction, that the sites in my district, the activities' 
work and design in the few areas where there is construction, 
there is a direct relationship between my personal interest and 
involvement in those sites and the activities of work on those 
sites.
    In this business, since you have put a human face on the 
particulate matter issue, let me put a human face on the 
Superfund issue.
    We have in my area a family that is living, as you are 
aware----
    Ms. Browner. Yes.
    Mr. Frelinghuysen [continuing]. In the middle of this site, 
a totally screwed-up site where materials were brought on site 
that were supposedly going to be used to remedy the situation. 
There was an aspect that was raised in the press, and I raised 
it with you last year.
    Actually, my first year on the committee, I think I believe 
I asked for the inspector general to do a study into the 
activities of that site because of the outrageous things that 
were occurring there.
    I wrote you in March of this year to call your attention to 
the asbestos dump site in Millington, New Jersey. That is 
Longhill Township. I know that you get credit for answering 
your mail on a timely basis, but I sent this on March 13th, and 
I invoke the question as to whether the inspector general has 
actually finished his investigation----
    Ms. Browner. It is a she.
    Mr. Frelinghuysen [continuing]. Of that site.
    Ms. Browner. She is here, if she wants to answer.
    Mr. Frelinghuysen. I don't think I mentioned the gender, 
but I would like to know where that inspector general's report 
is and, furthermore, whether there is going to be any action on 
the part of the EPA to resolve this family situation. I will 
toss it----
    Ms. Browner. We do have our inspector general here today. I 
think the committee remembers John Martin who was with us for a 
number of years. He has left public service, and we have Nikki 
Tinsley acting in the position of Inspector General. She was 
the deputy, and she has stepped up into the Inspector General 
position. If she might answer the question.
    Mr. Lewis. Who is on the panel's far right.
    Ms. Browner. Thank you.
    Mr. Frelinghuysen. Good morning.
    Ms. Tinsley. Our investigators have no longer----
    Mrs. Meek. I can't hear.
    Mr. Lewis. I am afraid they can't hear you.
    Ms. Browner. You need to help her up.
    Mr. Lewis. Can somebody take the mike over there, please?
    Ms. Tinsley. Our investigators have done a lot of work at 
that site, and they have referred the results of their work to 
the Department of Justice, and we are working with Justice now. 
We are following their lead on where that goes in the future. 
The agency has also completed some work with the contractor on 
the site that you will want to speak to, I think.
    Ms. Browner. If I might have Tim Fields answer. Tim is the 
Acting Assistant Administrator for the Office of Solid Waste 
and Emergency Response. Obviously, when we make a referral to 
the Justice Department, that puts us in an awkward situation in 
terms of our public comment. I think Mr. Fields might be able 
to add one more piece of information that would be helpful.
    Mr. Frelinghuysen. All right. Please do.
    I just want to make a point, not only the fact of answering 
our mail, but this is over 2 years.
    Ms. Browner. Right.

                      Superfund: Teilman Property

    Mr. Frelinghuysen. And this family is living--you know, we 
think of Superfund, we think of great philosophical debates, 
but in reality, there are people living at this site. There are 
many sites in my district where people have wanted to reuse 
ball fields that haven't been used in the last 25 years and not 
getting action.
    The floor is yours.
    Mr. Fields. Well, Mr. Congressman, your personal 
involvement in the site has made a difference, and we commend 
you for going to the site every year.
    The Tielmann family is----
    Mr. Frelinghuysen. Oh, actually, I went four times last 
year, and it is amazing how much activity follows just prior to 
my visit.
    Mr. Fields. We have this site as one of our ranked priority 
sites to get done. We are negotiating right now with the 
Tielmanns on the price of the property. We expect those 
negotiations will be done in the next month with our region. 
Once those negotiations are done, we plan on buying out the 
property and then moving on with cleanup of the remaining 
portions of the site. We hope to get that done within the next 
6 to 8 months. That is a high-priority site. It is one of the 
highest-ranked sites in the Superfund program, and I assure you 
that we will want to expeditiously resolve the negotiations 
with the Tielmanns, and give them a fair price for their 
property, and then complete the rest of this cleanup.
    Mr. Frelinghuysen. Thank you for that update.
    And last, Mr. Chairman, I would like to include in the 
record a list of Superfund sites in my district, their status. 
Most of them are in the design status.
    I mean, I don't think many citizens know that these sites 
were listed in 1983, and there is the expectation that at some 
point in time, before we are all dead and buried, that these 
sites are going to be addressed.
    So, while I am all for reauthorizing Superfund and I think 
we have given you quite a lot of money for actual cleanup and 
tried to wall it off so we don't spend so much money on 
litigation and overhead, that it bothers me you are asking for 
more money when, in fact, it doesn't appear to me that the 
system is working well enough now.
    Ms. Browner. We would be more than happy to go over the 
list with you. I think we have provided the list to the 
committee. If not, we will certainly do so.
    There is a body of 600-plus sites out of which 500--472 as 
of today--can be done if we have the adequate level of funding. 
It is a funding issue, and we are more than happy to show you 
the sites that could be cleaned up.
    Look, I take full responsibility for the day-to-day 
operation of this program in the last 4 years. I have, I think, 
a demonstrated record. Our program has a demonstrated record in 
getting more sites cleaned up in 4 years than had been done in 
12 years.
    Your State is a great example of the fact that we have got 
lots of sites ready to go. It is a dollar issue. It is just 
thatsimple. With the dollars, we can complete them. Without it, 
we can't.
    Mr. Frelinghuysen. With all due respect, dollars are 
necessary, but in many cases, every site is different. So that, 
obviously, it places a burden on design.
    I am just saying things are not happening, and it is not 
just a question of money. In many cases, the Department has 
changed its designs. I can tell you in the ball field site, at 
one point in time, you were going to leave it on site. Now 
there is a prospect of all of those materials being taken off. 
Little wonder, people lose hope.
    Thank you, Mr. Chairman.
    Mr. Lewis. Mr. Frelinghuysen, let me say that your list 
will be included in the record, but I would also urge you to 
review that along with the list that the administrator 
suggests----
    Ms. Browner. Right.
    Mr. Lewis [continuing]. Is a part of our record, and I 
would be interested in our discussing the relevance of that 
list as it relates to your problem. I would be very 
interested----
    Mr. Frelinghuysen. Thank you.
    Mr. Lewis [continuing]. In your input.
    [The information follows:]

[Pages 210 - 231--The official Committee record contains additional material here.]


    Mr. Lewis. You went out of your way to help us introduce 
the acting inspector general. I would like all of you to know 
that within my agencies, I have indicated that it is my 
intention to work very closely with inspectors general across 
the agencies and commissions that we deal with, for I think 
their input and their professional work will be--can be of 
great assistance to the way we go forward in our oversight 
responsibilities. So I intend to address that further as we go 
forward here, but wanted to mention that as long as we were 
there.
    Mr. Hobson.
    Mr. Hobson. Thank you, Mr. Chairman.
    Ms. Browner, I have a number of questions I want to ask you 
and a number I will put in the record, but before I do that, I 
want to, as a parent and grandparent, take a moment to 
congratulate you on the values that you are imparting to 
Zachary in an article that appeared, a lot of good Republican 
values or bipartisan.
    Ms. Browner. That is right.
    Mr. Hobson. Maybe it is bipartisan values.
    Ms. Browner. I appreciate that recognition that my family 
does practice bipartisan values in providing a block grant to 
my son.
    Mr. Hobson. I hope that your agency will also do at least 
10 percent on good deeds and that you will be user-friendly, as 
you made Toys-R-Us be user-friendly, also, because that is what 
we would all like to see in agencies, but I thought it was a 
wonderful article.
    Ms. Browner. Thank you very much.
    Mr. Hobson. You should be very proud as a parent, and I am 
sure Zachary is a joy.
    As a matter of fact, one digression, my daughter is 
supposed to be giving birth any day now, so another grandchild 
out here.
    Ms. Browner. Congratulations.

                          davis clark landfill

    Mr. Hobson. So I am worried about clean air and 
particulates, too.
    I am also worried about landfills, and I want to just take 
a brief moment. I have a constituent here, Bob Hunter, from 
Springfield, Ohio. There is a lot of concern in my community, 
and I want to just do this question real fast, and you may want 
to answer part of it and you can come back later.
    Last year, the Ohio EPA issued a permit to allow Davis 
Clark landfill to be sited in Tremont City, Ohio in my 
congressional district. I am concerned with this decision 
because, typically, landfills are not permitted over high-yield 
aquifers. However, the Ohio EPA in this case granted a variance 
based on the agency's conclusion that 30 feet of till between 
the landfill and the aquifer would protect the water source 
from contamination.
    The other thing is, this landfill is right next to another 
one that we are not quite sure what is in there and what is 
coming out of there, and it was built under a lot of old 
standards.
    My concern is, many times, we can't get you out of a 
situation, and here is one where we can't get you in to look at 
it because I am told it is a State problem, and that is an 
unusual thing for me because usually you folks are around where 
we would say if we could just get the EPA to do something 
different in this.
    In this case, my problem is I have a lot of problems with 
the science in this. It is not an exact science. It is over an 
aquifer. A lot of people I talk to say why take the risk over 
an aquifer, and my community is concerned about this because it 
is costly, as we all know. So, if there is any help you can--I 
know the States generally have this, but does the EPA have any 
oversight in State responsibility in siting of the landfills, 
and do you have any chance to review the decisions of State 
landfills, especially when these variances are granted, and if 
so, can you give my community help?
    Ms. Browner. I think it would not be appropriate for me to 
speak to the specifics of this site because I am not intimately 
familiar with them.
    It is true that Ohio has day-to-day responsibility. We have 
delegated the Federal responsibility to the State of Ohio. In 
this and many other instances, they run a large State 
environmental program.
    When we make these delegations, we do retain the right, if 
necessary, to provide additional review, and we will certainly 
look at whether or not that would be appropriate in this 
instance.
    Again, I don't know the facts of this and what kind of 
permit conditions the State might have proposed. I think you 
raise a valid question which is locating a facility of this 
nature on. Did you suggest it is a sole-source aquifer?
    Mr. Hobson. No. It is a high-yield aquifer.
    Ms. Browner. High-yield aquifer.
    Mr. Hobson. There is a difference.
    Ms. Browner. Right, there is a difference.
    Mr. Hobson. I am not an expert. I am a real estate guy, 
but, you know, everybody I have talked to says why take the 
risk, and I am not sure. If the risk is fine the science is 
there, I don't have any problem. I think the community would 
feel--I don't have any problem with the guys at the State. I 
have asked them to err on the side of being cautious. They say 
they have. I have talked to the Governor.
    My community, I think, in this instance--this is a time 
where I think I would feel more comfortable. So, with that,if 
you could have somebody look at it. I would like to go on to--if 
somebody could just look, go ahead.
    Ms. Browner. We will certainly do that, and we will talk to 
the State. We will have both our drinking water and our 
landfill people speak to the State.
    Mr. Hobson. There are some people who would like a 
horizontal versus a test based on a vertical, no horizontal, 
but I don't know.
    Ms. Browner. Okay.
    Mr. Hobson. I don't know. I just don't want to come back in 
50 years. I am not going to be here in 50 years, but I don't 
want to come back and say----
    Ms. Browner. That baby is going to be here.

                           NAAQS: CASAC Panel

    Mr. Hobson [continuing]. Hey, I didn't do my job.
    I would like to ask--a lot of the questions that have been 
asked about the clean air regs, the particulate is a particular 
problem in my State where they are talking about big money, $4 
billion a year. I want to come back, and I don't mean to be 
argumentative about this, and you have gone through this, but I 
want to talk about--I want to get back to the ``Kasich.''
    Ms. Browner. CASAC.
    Mr. Hobson. I know. I just wanted to get his name in here. 
It is my chairman in the other committee.
    Ms. Browner. I apologize.
    Mr. Hobson. I want to get back to the CASAC, I guess it is, 
and the consensus on the PM. Isn't it correct--and again, they 
couldn't reach a consensus on the health benefits resulting in 
the new standard, and frankly, aren't you asking for $26 
million in additional PM research because there isn't a 
consensus on the health benefits of the proposed PM standard? 
If that is not true, just tell us what is going on.
    Ms. Browner. If I might, rather than speaking to the 
proposal, I might speak to PM broadly here for just a moment.
    There are 86 studies that have been identified through a 
peer-review process as relevant in terms of 2.5 and public 
health. We are taking comment on how many people are protected 
at which level. That is the process we are in right now, but I 
think your question goes more specifically to whether there 
actually is science that shows us when 2.5 reaches a certain 
concentration, a certain amount in the air that causes adverse 
health effects. There are, in fact----
    Mr. Hobson. Significant health effects.
    Ms. Browner. Significant health effects, death.
    Mr. Hobson. Breathing has a problem with----
    Ms. Browner. Death.
    Mr. Hobson. I mean, we are all in that mode.
    Ms. Browner. We think that is significant.
    Mr. Hobson. I am going to a Golden Buckeye hearing next 
week. I am in a downward trend. So, no matter what I breathe or 
what I do, I am in a trend. Now, we can improve it, but----
    Ms. Browner. Premature death.
    Mr. Hobson. Go ahead. I am sorry.
    Ms. Browner. The studies show premature death, and that is 
why I believe, 19 of the 21 CASAC members said it is time to 
set a standard for PM 2.5, to regulate, if you will, a new 
pollutant, a fine particle.
    Now, the concentration level is what we take comment on at 
this time. Obviously, we take comment on 2.5, but more 
specifically, in terms of CASAC, it is regarding the 
concentration levels where a CASAC did have a variety of 
opinions. We are the first to share that with the committee.
    Mr. Hobson. Just restate that to me for a second. Someone 
was right behind me. The last thing you said were a variety 
of--let me tell you what is happening out there from my 
perspective.
    The problem I think you are hearing here is that there is 
going to be a lot of people asked--a lot of people have tried 
and done a lot of good things that people said they couldn't do 
and they have done. They have come a long way. Suddenly, they 
are going to be asked to spend billions of dollars. The answer 
that comes back to us is, look, their own people that are 
advising them have mixed opinions about the results of this and 
whether there is real data that there will be real health 
improvement based on what they are proposing, and there is some 
feeling that the proposal that you reach--you have heard this 
before--was reached in a way to justify that. If you say that, 
that is okay. I will accept that, but I am having trouble with 
going to spending $4 billion from my State alone if there is 
not appropriate science behind that to justify spending that 
kind of money when we made a good effort to get where we are 
now.
    My next question is about E-check.

                       PM Public Health Standard

    Mrs. Browner. Right.
    Mr. Hobson. But that is the problem we are having here.
    Ms. Browner. The one thing that we keep having a 
fundamental misunderstanding on is right now, nobody neither 
State, or industry, is required to do anything to reduce the 
levels of PM 2.5.
    Mr. Hobson. I understand.
    Ms. Browner. There are reductions that occur because of 
other activities. Acid rain programs would be one of them, but 
today there is not a requirement specifically to reduce the 
amount of 2.5. That is the first step we have proposed to take, 
which is to say ``let's set a health standard for 2.5,'' and 
out of that would admittedly flow a number of efforts to reduce 
how much 2.5 pollution is actually in the air.
    So it is important, and this is a new pollutant for which 
there is not currently a public health standard. You almost 
forget that there is a PM 10. Just to forget that there is a 
standard out there is the easiest way to think about that and 
recognize, that what the science showed us is that there is a 
pollutant out there that we didn't understand 5, 10, 15 years 
ago. Now it is time to take some steps. 19 or 21 members of 
CASAC recommended we do that.
    The amount of this new pollutant that can safety be in the 
air was the subject of some amount of discussion in CASAC. We 
in no way would suggest to the committee that they reached a 
consensus on that, nor have we suggested it to anyone. They had 
a range of opinions. We have reflected that range in the public 
comments we seek. Should it be X amount, X amount plus 10, X 
amount plus 20.
    Where I think the issue keeps getting further confused is 
some largely in industry who might be affected--have attempted 
to suggest that we don't really understand or we don't know 
that when PM 2.5 is at a certain level, there are health 
effects.
    We don't know, once that fine particle is embedded in your 
lung, why it kills one person andnot another, but that doesn't 
change the fact that we do know that a large number of people will die 
when 2.5 is at certain levels. It is identical to where we were on 
smoking 15 years ago.
    We knew that with the increased sales of cigarettes, lung 
cancer went up. We could see that. We could see the link 
between smoking and lung cancer.
    What we see here is the health effects of 2.5 being 
measured with increased depth. The B, C, D, E, F of how that 
particle actually lands and which part of the lung, and why one 
person dies and not another will unfold over time.
    Mr. Hobson. But some people would say why would you spend 
these large sums of money to do something that you are not sure 
about until you have better science so what you are trying----
    Ms. Browner. We are sure that, at one level, PM 2.5 causes 
death.
    The other example would be lead in gasoline. What the 
science showed us when we made a decision as a country to take 
lead out of gasoline is that with the advent of lead in 
gasoline, children were becoming ill, they were dying, they 
were losing IQ points.
    We can't tell you today with absolute certainty why one 
child breathing the fumes dies and another is fine. We can't 
answer that for you. Science is still clarifying doing the 
middle steps of the process, but if we had failed to act in the 
case of lead, if we hadn't said there is a cause, leaded 
gasoline, there is an effect, death, illness, IQ points lost, 
and we had waited for the science to tell us all the details we 
would still have children needlessly suffering.
    What we are doing here is identical to that. The health 
science shows that a lot of people are adversely affected, 
premature death with PM 2.5.
    What would be really inappropriate is if we were here today 
having made these proposals--and again, we haven't made a final 
decision and not asking you for additional money to continue 
the scientific research. That would be inappropriate. Then we 
wouldn't be doing the job that I think the American people have 
every right to respect.
    Finally, and I say this to all the members of the 
committee, when we reach a final decision, whatever it may be, 
on fine particles in ozone sometime this summer, there is no 
requirement when that final decision is made for any industry 
to do anything to change their levels of pollution. There is 
absolutely no requirement on that day for any industry to do 
anything.
    Any requirements that may result from a new public health 
standard--if that is where we end this in terms of individual 
industries and the reduction of their pollution--it is all 
subject to an extensive public process with a vote by this body 
as to whether or not that industry should reduce its pollution.
    So please understand this begins a long process with lots 
of public participation.
    Mr. Hobson. But you have got everybody's attention. I hope 
you understand that situation.
    Ms. Browner. Oh, I do.
    Mr. Lewis. We have got to move along here.
    Mr. Hobson. I am not going to ask any more questions, but I 
have got some more on E-check.
    Ms. Browner. Okay.
    Mr. Hobson. I have got one----
    Ms. Browner. We have met with you before.
    Mr. Hobson. I have got one on your rent and your agency 
that you need to fight to see what your rent is with GSA. I 
asked everybody that.
    Ms. Browner. We would be more than happy to talk to you 
about our building.
    Mr. Hobson. I would like to talk to you about that at some 
point.
    Mr. Lewis. He has some boiler-plate questions.
    Ms. Browner. Okay.

                     Brownfields: Property Purchase

    Mr. Hobson. The last thing I just want to make a comment 
about and then I will come back on this later, there is a real 
problem, and I mentioned this to you before. We all talk about 
the big deals which he has got, but you need to talk to 
somebody who wants to buy a property that is small like--let us 
take an ex-gas station site. You try to buy that site for 
another use.
    First of all, if it is owned by a small business, they 
can't afford to clean it up. So they let it sit there. The 
community can't clean it up, and so what happens is--and you 
come in there and try to buy it. Your whole liability--I asked 
you this before, but it is a real problem. There are more of 
those sites.
    Ms. Browner. We agree.
    Mr. Hobson. You talk about those. They are all over, and 
they sit there and they get worse and not better, and we need 
to find a way that your whole estate is not at risk if you want 
to go in there and try to clean this sucker out.
    Mr. Lewis. There is no need to respond to that. We have got 
to move on.
    Ms. Browner. But that is Brownfields.
    Mr. Lewis. We will get to Brownfields, believe me. We will 
get to it.
    Ms. Browner. That is it.
    Mr. Lewis. Before going to Mr. Price, I must speak for the 
members to the schedule. It is the Chair's intention to go 
until 12:30 today and then return at 2 o'clock. We will proceed 
from there later in the day than I originally anticipated--I am 
not sure how late--just to make sure that we can complete our 
work tomorrow. We will not have a morning session. The Chair 
has a conflict. So we will be coming in at 1 o'clock and expect 
that we will complete our work schedule reasonably early in the 
afternoon.
    So, with that, thank you for your patience, as I call on 
Mr. Price.

                         Research Triangle Park

    Mr. Price. Thank you, Mr. Chairman.
    I would like to welcome Administrator Browner and her 
colleagues and observe that the discussion this morning has 
underscored the need for credible research, credible research 
conducted within EPA and useful contract research as well. That 
brings me to my district and my State, which is the center of 
EPA research, environmental research in general with NIEHS also 
having a major research facility in Rsearch Triangle Park, 
North Carolina.
    You are well aware, of course, Ms. Browner, that your 
agency is in the process of consolidating your laboratory 
facilities in Research Triangle Park into one building. A need 
for that building has been well established over the years. It 
is at least 10 years overdue.
    The 2,400 people that EPA employs are currently workingin 
11 leased spaces over a 15-mile span, trying to conduct the important 
research that EPA has been tasked by Congress to perform.
    When finished, this facility, which, of course, has already 
been planned and already been designed--this facility will 
provide many efficiencies through the consolidation of space, 
reduction in time wasted by researchers commuting to and 
communicating among various locations.
    The President has requested in his FY 98 budget submission 
the final installment of $122 million needed to complete the 
appropriation of $232 million authorized for this research 
facility.
    I would appreciate an update from you on the status of that 
EPA research facility in the Research Triangle Park. What point 
are you in the process? What is the expected time table for 
breaking ground and completing the construction?
    Ms. Browner. First of all, we want to thank the Chairman 
and the Committee members for their support. Having a state-of-
the-art science facility is very important to us. We appreciate 
the support that has been provided in prior years and look 
forward to completing funding in this appropriations cycle.
    The estimated construction cost is $232 million. We did go 
out on bid and the bids came in higher than anticipated. We 
made some modifications in the design, including such things as 
the computer center, what is called a high bay building which 
has rooms that allow us to put very tall equipment into it. 
Another modification was locating the child care center at an 
off-site location.
    With those changes, we have resolicited the bids, and I 
think we will complete that process----
    Mr. Pesachowitz. We expect the award in June.
    Ms. Browner. I think the bidding process closes this----
    Mr. Pesachowitz. It is in May.
    Ms. Browner. It closes in May, and then we will make the 
final decision and complete the----
    Mr. Lewis. Sir, could you identify yourself for the record?
    Ms. Browner. Al Pesachowitz.
    Mr. Pesachowitz. Al Pesachowitz, Acting Assistant 
Administrator.
    Mr. Lewis. Thank you.
    Ms. Browner. We would make the final determination on the 
contract in June.
    Mr. Price. The final determination in terms of the 
contract, and that would then lead to beginning construction.
    Ms. Browner. Right.
    Mr. Price. When?
    Mr. Pesachowitz. Probably at the end of this calendar year 
with completion in 2001.
    Mr. Price. Breaking ground before this calendar year is 
out. Is that correct?
    Ms. Browner. That is our goal.
    Mr. Pesachowitz. We would hope so.
    Ms. Browner. Yes.
    Mr. Price. I would hope so, too, lest the costs go even 
higher and we suffer from further delay.
    Well, the bids, as you say, did come in above the statutory 
limit of $232 million. That was the limit set some years ago at 
the conclusion of the planning and design process in which EPA 
and GSA collaborated. We were able to telescope that planning 
and design process from 5 years into 3 and to get it completed 
in an efficient way and, as you said, on a bipartisan basis 
with the help of this subcommittee. The initial appropriations 
for the actual construction have now been made, and we are 
hoping to complete that process this year.
    Those high construction costs, of course, are a concern. 
The $232 million is a statutory limit, and yet, when the bids 
come in high, we have to make some adjustments.
    You have referred to modifying the high bay, the child care 
center, and the computer center. Can you elaborate? What kind 
of changes are going to be required to adhere to this statutory 
limit, and what are your alternatives for performing these 
functions without them being included necessarily in this new 
facility?

                   RTP: NEW FACILITY BIDDING PROCESS

    Ms. Browner. We will have to continue in some leased space. 
I mean, that is just the reality of the cap. However, even with 
leased space and new building cost, we will still be able to 
see a cost savings over the life of the building. There is 
still a cost savings to the Federal budget by moving to a new 
building, but it is true we will have to now maintain some 
amount of leased space for both the high bay centers, the 
computers, and the day care.
    Mr. Price. The construction costs, of course, are due in 
part to the fact that we are in a booming area----
    Ms. Browner. You have got it.
    Mr. Price [continuing]. And we hope that a lot of that work 
can be performed by contractors nearby, but it is a boom area. 
We have had Hurricane Fran and a lot of construction 
necessitated by that, and so those bids have come in high.
    There has been a resubmission of some of those----
    Ms. Browner. Yes.
    Mr. Price [continuing]. Or a reletting of some of those 
bids. Is that right?
    Ms. Browner. That is correct. We made adjustments in the 
design and reopened the bidding process.
    Mr. Price. But you are still expecting it to be completed 
by late spring?
    Ms. Browner. Our goal is to complete the bidding process, 
make a decision, and to break ground by the end of the year. 
This is something we have wanted to do for a very long time.
    Part of doing quality science is allowing for the 
collegiality of the process, getting our people together so 
they can talk to each other and share in each other's work. It 
is important in the same way that you enjoy a collegiality with 
your colleagues that benefits the operations of this 
institution.
    We need, first of all, to have state-of-the-art space to do 
state-of-the-art science. We have people in 10 different 
facilities down there, and we have people in 10 different 
facilities up here. It is a problem that we are not co-located 
in our major locations. It is a challenge for us, and this will 
correct one part of the problem.
    Mr. Price. Thank you very much, Mr. Chairman.
    Ms. Browner. Thank you.
    Mr. Lewis. I didn't mean to cut off your time by any matter 
of means.
    Mr. Mollohan.

                     PM AND OZONE-STATUTORY MANDATE

    Mr. Mollohan. Thank you, Mr. Chairman.
    Ms. Browner, witnesses, I would like to join everybody in 
welcoming you to the hearing today.
    What is the statutory mandate that you are operating under 
with regard to both particulate and ozone?
    Ms. Browner. I just closed the book on the page.
    Mr. Mollohan. Well, you shouldn't close it before you get 
to me.
    Ms. Browner. Well, I closed it just to the statutory----
    Mr. Mollohan. Oh, okay. Just what is the--you don't have to 
read it. Just what is it? You have got to know.
    Ms. Browner. Yes, I do know. It is a section----
    Mr. Mollohan. I don't want to know the section. What is the 
requirement?
    Ms. Browner. The requirement is that on a 5-year basis, EPA 
review the current best-available science and determine whether 
or not the current public health standards for six of the most 
commonly found air pollutants provide a level of public health 
protection with a margin of safety.
    Mr. Mollohan. Okay. So that is both for particulates and 
for ozone?
    Ms. Browner. There are actually six of them. We have now 
completed----
    Mr. Mollohan. And ozone is one of the six? Is that right?
    Ms. Browner. Ozone is one of the six. Particulate is one of 
the six.
    We have completed review of five of the six.
    Mr. Mollohan. Right.
    Ms. Browner. We are not proposing to change three of them. 
We are retaining them at the current standard.
    The sixth one which we did not do, as I said earlier, is 
lead, and the reason we didn't even undertake a review is we 
have already addressed that.
    Mr. Mollohan. Okay.
    Ms. Browner. So it is only two of the six.
    Mr. Mollohan. I am not into lead here.
    Ms. Browner. But I think it is important for people to 
know, we do it broadly.
    Mr. Mollohan. Right, but I only have 10 minutes here, at 
most.
    What is the mandate from the Court with regard to 
particulate and ozone? Just really quickly. I want to get the 
status here.
    Ms. Browner. In the case of fine particles, the American 
Lung Association sought a Court order telling EPA to comply 
with its statutory requirements of a 5-year review. The Court 
not only said EPA has been told by Congress to do this and has 
not done it, but also gave a schedule on which EPA now has to 
comply.
    In the case of ozone, would you like me to answer that?
    Mr. Mollohan. The review. No, no.
    Ms. Browner. Okay.
    Mr. Mollohan. With regard to particulate, the Court order 
simply mandates a review in a certain time frame.
    Ms. Browner. It actually sets a date for when we must make 
a final decision and publish it in the Federal Register.
    Mr. Mollohan. A decision on your review. Whether you must 
or must not do something is the threshold question.
    Ms. Browner. The Court does not speak to that. The Court 
tells us to do the review.
    Mr. Mollohan. Statutorily, that is the threshold question, 
then. The Court is just telling you to do your 5-year review. 
So the threshold question is should you change it or should you 
not change it.
    Ms. Browner. Right.
    Mr. Mollohan. Okay.
    Ms. Browner. That is the statute that drives us.
    Mr. Mollohan. So the Court is simply telling you to do the 
review in a certain time frame.
    Ms. Browner. Correct.
    Mr. Mollohan. What is the time frame?
    Ms. Browner. We must now publish in the Federal Register by 
July 19th, which means we will deliver to the Federal Register 
earlier than that a final decision on our 5-year review of fine 
particles.
    Mr. Mollohan. So the first thing you would decide is 
whether you should change the standard, and then the second 
thing that you would have to report, if you decide to change 
it, by July 17th is the standard.
    All right. With regard to particulate, you have already 
proposed a rule, have you not? You have published a proposed 
rulemaking.
    Ms. Browner. That is what we are required to do under the 
statute.
    Mr. Mollohan. Now, I am just asking you, have you done 
that? You have published a proposed rulemaking with regard to 
particulate?
    Ms. Browner. We have published a----
    Mr. Mollohan. Proposed rulemaking with regard to 
particulates.

                   PM HEALTH STANDARD: PUBLIC COMMENT

    Ms. Browner. Yes. We are taking comment, right.
    Mr. Mollohan. All right. Yes, okay. So you are taking 
comment. All right.
    When is the date for the ending of comment on particulates?
    Ms. Browner. For both, the comment period closed on March 
12th.
    Mr. Mollohan. Okay.
    Ms. Browner. However, if I might?
    Mr. Mollohan. No, please.
    Ms. Browner. We have a longstanding procedure under my 
administration at EPA that if someone makes something else 
available, we consider it and docket it, and in fact, things 
have been docketed post-March 12th in this case.
    Mr. Mollohan. Okay. So your proposal with regard to 
particulate set this 2.5 particulate standard that you were 
going to regulate down to that size? And just tell me what you 
did propose, just really briefly. You can do it.
    Ms. Browner. We have, based on the science, proposed and 
taken comment on a concentration level for a fine particle of a 
size 2.5.
    Mr. Mollohan. Okay. Now, with regard to ozone, you have--
have you or have you not filed a proposed rulemaking yet?
    Ms. Browner. It has been following the same process in 
tandem.
    Mr. Mollohan. You have----
    Ms. Browner. Yes.
    Mr. Mollohan [continuing]. Filed an ozone?
    Ms. Browner. Those were made publicly available November 
24th.
    Mr. Mollohan. Okay. Yes, okay.
    You know, the problem that everybody has or a lot of people 
have with this, you are talking about the effect. The effect on 
the--with regard to particulate and ozone, of which I am not 
sure which it does, but it makes five additional of my 
counties--I have one county out of compliance right now. It 
makes--I think it is an additional five out of compliance. That 
is not significant, except to make my point that it does have a 
very dramatic impact here.
    So there is this natural concern that there is a very 
demonstrable economic impact. However, you are not able to 
substantiate with solid science a justification for your 
standard.

               PM and Ozone Standards: Scientific Review

    Ms. Browner. I would beg to differ with that statement.
    Mr. Mollohan. I know you would, and so I guess I want to 
ask you a little bit about that.
    In your filing, if I can find it here, in your EPA document 
summary, your '98 budget summary, you speak of funding of 
scientific research to reduce major uncertainties surrounding 
particulate matter.
    Ms. Browner. Right.
    Mr. Mollohan. Further evidence of uncertainties is EPA's 
acknowledgement on April the 2nd that you have over-estimated 
the health benefits of lower levels of particulate matter. That 
just goes to show that we are not definitive about these 
scientific issues, and so there is a natural concern that you 
are proposing specific standards which propose major economic 
obligations and have economic dislocation effects when there 
are all of these uncertainties, and you understand that ad 
nauseam, I am sure, but I guess we have to make the point ad 
nauseam because we are the ones that have to live with the 
economic consequences.
    So I guess, in addition to that, you have requested a 
significant amount of money to do further research, and I 
don't--you need to spend $27 million this year on research and 
even more on new monitoring costs. So aren't these scientific 
uncertainties real here, and aren't they sufficient to delay 
any kind of a rulemaking implementation or a publication of a 
final rule because your own documents are evidencing that there 
is considerable scientific--and your request before this 
committee--significant scientific uncertainty with regard to 
this issue?
    Ms. Browner. Three points. Number one, no final decision 
has been made.
    Mr. Mollohan. Well, let us just take that point. What is 
the significance of that, that no final decision has been made? 
You are in a rulemaking proceeding and you are moving toward a 
final rule, are you not?
    Ms. Browner. But we don't know what that final decision 
will be. We took public comment. We take that process 
seriously. We took comment on a range of scientific issues.
    Mr. Mollohan. I understand that, but you are reaching, you 
are coming--you could decide that, look, the science isn't 
enough, we need to do some more science.
    Ms. Browner. That is correct. You could.
    Mr. Mollohan. So you could withdraw that rule. That could 
be one result, which I think a lot of people would encourage, 
and there would be some bipartisan support for that, but you 
could also support the original rule----
    Ms. Browner. You could.
    Mr. Mollohan [continuing]. That you proposed.
    Ms. Browner. You could do either.
    Mr. Mollohan. So, when you say no final decision, I don't 
understand the significance.
    Ms. Browner. Well, I will be----
    Mr. Mollohan. Excuse me. Let me finish my question, and I 
will let you. I don't understand the significance to that 
because we are moving toward a rulemaking. It is a very tight 
process. You are moving toward publishing a rule, a final rule 
that industry and policy-makers are going to have to live with.
    So, when you say no final rule is out there, we are on the 
way to a final rule.

                        PM and Ozone Rule Making

    Ms. Browner. What I am saying, with all due respect, and 
this is very important because there are some in industry who 
have sought to remove my decision-making authority because they 
would suggest that somehow or another----
    Mr. Mollohan. All right. I am not trying to----
    Ms. Browner. I understand that, but please, with all due 
respect, I think I have a right to speak to the issue here.
    Mr. Mollohan. Well, with all due respect, I will give you 
your right. I am sorry. Go ahead.
    Ms. Browner. The----
    Mr. Lewis. And we strike everything with respect to the 
record when we have got to.
    Mr. Mollohan. No, no. Please.
    Ms. Browner. I have spent more than 4 years now being 
honest to the regulatory requirements of my agency. That means 
we make a proposal based on extensive analysis. We then 
honestly take public comment, and in some instances, we change 
our proposal based on that public comment because new facts are 
brought to light. In other instances, we adhere to our original 
proposal. In other instances, we make no decision because more 
work is done.
    Any of those options are available here. I do feel it is 
important for the public to understand that I have not reached 
a final decision. I am reviewing the extensive public comment 
with my staff, and I take that part of the process seriously.
    Moreover, back in November when we made these public 
proposals, I also think, to be fair and honest to the American 
people, if we at EPA thought the science at that time took us 
to a particular point, we had an obligation to be abundantly 
clear with the public what that point was.
    We took comment on points above it and below it, but we 
would have been dishonest in our regulatory process had we not 
considered the science and the comments from the American 
people, including industry.
    So that is why I keep coming back to the fact that we have 
not made a final decision. It is an important part of the 
process, and it is one I will continue to come back to until we 
do make a final decision.
    Mr. Mollohan. Okay. Point number two?
    Ms. Browner. Point number two is that the proposed public 
health standard and the public health standard-setting process 
does not inand of itself impose any requirement. It does not in 
and of itself deliver cleaner air to the American people.
    Mr. Mollohan. Okay.
    Ms. Browner. That flows out of a very lengthy 7-to-10-year 
process literally industry by industry with full public review, 
comment, congressional oversight. There will be many 
opportunities to say which industries can most cost-effectively 
reduce their PM ozone pollution. There is a process embodied in 
the Clean Air Act that we will absolutely, positively adhere 
to.
    Mr. Mollohan. Okay.

                           PM Budget Request

    Ms. Browner. The third point I make is a point I made in 
response to, Mr. Hobson, that we would not be doing our job if 
we weren't here today asking for additional money on PM. The 
bulk of the money we ask for on PM goes to two things. One is 
to help the States cover the cost of a monitoring network 
pursuant to the Clean Air Act. The fact that there is not now a 
Federal monitoring network in place as there is on ozone 
doesn't, however, mean that there aren't measurements for PM 
2.5.
    I think a lot of people confuse that--and I don't say that 
you have done this. There are, in fact, cities where they are 
measuring 2.5. Whether or not those pieces of equipment will be 
the right ones for the entire country is an issue that we have 
to resolve with the States and industry, and that is what part 
of the PM money would go to.
    The second part of the money, lion's share of the money, 
would go to understanding in great detail why it is that one 
person dies from 2.5 of fine particle in their lungs and 
another person doesn't.
    What we do know is that there are 15,000 premature deaths a 
year. That is a large number of people. That is what the 
science shows us, but it can't yet show us which person and why 
that person and not another, similar with lung cancer. There 
are lots of people who smoke who don't die of lung cancer. 
There are some that do. That didn't exclude us or prevent us 
from making a decision to label cigarettes as dangerous.
    Mr. Mollohan. Right. You are suggesting that there are a 
range of--going back to point number one, you are suggesting 
that there are a range of options in your decision-making 
process.
    Could you state here for the record that the option of 
withdrawing the rulemaking, terminating the rulemaking with no 
promulgation is an option?
    Ms. Browner. I just want to make sure I have the legal 
terminology correct for you. It is always an option in a 
rulemaking to conclude that rulemaking with a determination of 
no change.
    Mr. Mollohan. That is understood, and that is implicit in 
my question.
    Ms. Browner. Yes, I agree.
    Mr. Mollohan. I mean, that is an option under the law.
    Ms. Browner. Right.
    Mr. Mollohan. I am specifically asking you, in this 
particular rulemaking proceeding, are you prepared, which would 
mean that you would be responsive to a lot of the concerns you 
have heard here today, that the scientific evidence is 
sufficiently uncertain as to not support the specific 
rulemaking? Are you prepared to--if you would conclude that, is 
that one of your options that you see under this rulemaking, or 
do you intend to come out with a rule?
    Ms. Browner. I have not made a final decision.
    Mr. Mollohan. Okay. So it is possible?
    Mr. Chairman, there will be other rounds.
    Mr. Lewis. Thank you very much, Mr. Mollohan, and everybody 
is being patient with our schedule today.
    I know that Mr. Mollohan knows this subject in great 
detail, but I just want to mention this before I go to Ms. 
Kaptur, that I am very pleased to have you say on the record 
that you haven't established a rule yet, haven't completed the 
process, et cetera.
    A lot of people don't realize that the control mechanisms 
for a 2.5 standard would require a new and different set of 
regulations. We will still have to regulate to the PM 10 
standard, and that may involve the same set of mechanisms. It 
may not. It may be an entirely different set of mechanisms.
    So, regardless if she doesn't do anything with the 10 
standard, they will continue with that regulation, and I will 
continue to have problems as a result of PM 10 problems.
    In the meantime, it has been very valuable and helpful, and 
Ms. Kaptur, thank you for your patience.
    Mr. Mollohan. I don't understand your point, Mr. Chairman. 
I would just like to know what--you mean you disagree with the 
10?
    Mr. Lewis. My point really is that there are entirely a 
different set of mechanisms necessary for the 2.5. Those 
regulations could be entirely different than the PM 10, and 
yet, we will have to continue to regulate the PM 10.
    Also, I would just add, the Administrator has said on an 
ongoing basis that 2.5 in your lungs causes--can cause 
premature death, does cause. There is no question that PM 10 in 
the lung causes a death, premature death.
    You could make an argument about .01. A while ago, I was 
talking about maybe we should put signs up that say--like we do 
with cigarettes--in your county. You have to say be careful if 
you breath this air.
    Ms. Kaptur.
    Ms. Kaptur. In some counties, that might be appropriate, 
Mr. Chairman.
    Mr. Lewis. It is possible in my district.

                 Brownfields: Chrysler Plant in Toledo

    Ms. Kaptur. I want to welcome the Administrator and thank 
her for her service to our country, and certainly, whenever we 
have called the EPA, we have always gotten very timely 
responses, and we have got our hands full up in our area. We 
sure do appreciate the agency's responsiveness.
    I wanted to--before I get into two different questions, I 
want to ask here--ask the administrator's attention to what I 
am sure is not unique, but in our area, we are currently 
involved in working with Chrysler Jeep Corporation to build a 
replacement Jeep facility, which is the largest employer in our 
area, over 5,500 workers, and there are several attendant 
environmental issues related to that. Certainly, some of the 
EPA's initiatives in the Brownfields area have direct impact.
    I gave Chrysler our Golden Eagle Award for investing up in 
Detroit at the Jefferson Avenue plant. Well, this situation in 
Toledo is no different. We have an opportunity not to go 
Greenfields in the suburbs, but to build in the most 
pluralistic, racially and ethnically diverse part of our 
district.
    I guess what I wanted to ask is whether EPA has a--do you 
handle this kind of opportunity, sort of just as you are called 
by communities, or do you have a team of people at EPA at the 
regional or national level that work with mayors?
    Our mayor is so involved in our local officials in trying 
to make this happen. Is there some way EPA works with 
communities like this?
    Ms. Browner. We do both. We have a number of programs which 
communities apply for, Brownfields being one example. We make 
grants available, but also, we are more than happy to send a 
team in to sit down with your mayor, with others, to look at 
what are the universe of tools that may be available.
    Ms. Kaptur. We would love to do that.
    Ms. Browner. Great.
    Ms. Kaptur. We are at a critical point, and I know I called 
the other day. If there is anyone you could refer us to, we 
will fly them out there immediately.
    Ms. Browner. We will try and get some people up there in 
the next week or so.

                          NAAQS: Public Debate

    Ms. Kaptur. Thank you so very much.
    I wanted to just say something on this clean air standard 
promulgation of the rules here. The Federal Government every 
day promulgates rules, big books of--it seems like every month.
    What I find interesting about this issue, never in my 15 
years now, going on 15 years, service in the Congress have I 
seen our talk show hosts get involved in clean air to the 
extent that they have--now, I am not saying that as articulate 
as some members of this committee or you yourself, 
Administrator, but this has fascinated me, the politics of this 
issue in Toledo, Ohio.
    Now, I know where the center of the universe, or the people 
who live there, but why we have had some of our most notorious 
talk show hosts try to drum up this issue all on one side--I 
won't say on which side--and it is constant. It is like a 
battering ram. So I am real curious as to your view of what is 
happening.
    We had one of our highest-ranking State officials come in 
and say if the rule were adopted as proposed, why, the very 
company I just talked to you about, Jeep Corporation, will 
close its doors and move away, and so Toledo would become a 
wasteland. It has been very interesting.
    Could you enlighten me on how would these talk show hosts 
and some elected officials and others who may not have ever 
studied the issue--what is going on here? Why are they on the 
horse that they are on? Could you explain the atmospherics, the 
political atmosphere around this issue to me?
    Ms. Browner. I don't think it comes as a surprise that 
there are some in industry who would oppose strengthening the 
public health standards. We are taking their comments. We are 
reviewing them.
    Ms. Kaptur. But who would ever do that? Doesn't industry 
just pass on the--if it is industry, some in industry. What is 
curious to me about that is, in the companies that I have met 
with in my local community, even though there was a cost to 
prior investments, they are passed onto the public in higher 
prices, in the products that are produced. So why is this 
different?
    Ms. Browner. In your State, your governor has been quite 
outspoken in his opposition to any proposals made by EPA. There 
is a high level of interest in your State. We work with the 
governor on a number of issues. We happen to disagree on this 
one, but I think there are a number in your State who, quite 
frankly, are distorting what the effects of strengthening the 
public health protections may be.
    It is probably true, and we disclosed all of this in the 
documents we have released to the public, that there will be 
some industries, including utilities, which will have to do 
more to reduce the pollution they contribute to the public's 
air. That is probably true, and it is probably particularly 
true for some of the Midwest utilities. But again, setting a 
public health standard, which is the phase of the Clean Air Act 
we are under right now, doesn't require any individual utility 
to do anything in July, August, or September. In fact, they 
won't be required to do anything for several years, because 
there was a whole process to work through where you get common-
sense, cost-effective reductions of pollution.
    As I said before, this is the biggest issue I have been 
involved in at EPA, and I would say it is probably the biggest 
issue for the people of this country in terms of air quality 
for the better part of 20 years. Mr. Delay said we have done 
the easy things. He is exactly right. Now we are going to do 
some of the difficult things, and that is what we take comment 
on now.

                      Ozone Measurement Technology

    Ms. Kaptur. You haven't talked while I have been here about 
the measurement technology, the proposed standard on ozone and 
the change from 1 hour to 8 hours and in measuring that. How 
would this impact the attainment or non-attainment of a given 
area?
    Ms. Browner. The short answer is you get greater stability, 
which is good for cities and industry. An air quality standard 
has three variables. One is the type of pollution; in this 
case, ozone. Two is the amount of pollution, the concentration. 
In the case of ozone, we propose .08, and third is the number--
the period over which you measure it and the number of 
violations that then result in a non-attainment designation.
    Currently, ozone is measured on a 1-hour basis. What all of 
the scientists, industry environmentalists and, the States 
agree is that it will befar better for a variety of reasons to 
measure ozone on an 8-hour basis.
    Changing from a 1-hour to an 8-hour measurement does not 
change the amount of public health protections you provide, 
unless you make other changes in terms of the level or in terms 
of the number of exceedences. So it is not just one number we 
worry about.
    It is three numbers. We look at how, when taken together, 
they affects the public's health. But I think it is fair to say 
that everyone agrees that going to an 8-hour measurement gives 
greater stability, and greater predictability. That is good for 
industry. That is good for cities, and if combined with an 
appropriate concentration, it is good for the public's health, 
but in and of itself, simply going from our current standard of 
.12, which is the concentration level--right now we are at .12, 
hour standard. If you stayed at .12 and went to 8 hours, the 
effect when you extrapolate out is that far fewer people than 
are protected today would be protected. You would have more 
asthma and more respiratory illness with that change.
    So you can't just make one change and guarantee a level of 
public health protection. You have to look at all of them and 
see what the effect is.
    Maybe the other way to think about it is, I think most of 
the science shows that a .09, 8-hour standard, is roughly 
equivalent to a .12, 1-hour standard. It is completed.
    Ms. Kaptur. I thank you for that.
    I want to go back to the talk radio show host issue for a 
second because I think about our area. Now, how did they get 
all involved in this? Is this happening in other States besides 
Ohio?
    Ms. Browner. We seem to see more of it in your State than 
in other States. I think that is in part because your Governor 
has chosen to be something of a national leader on this issue.
    Ms. Kaptur. Well, I would like to invite you out to Ohio 
because I think, especially our area of Ohio and any others, if 
there is another side to this story, then we ought to hear it.
    Ms. Browner. Thank you.
    Ms. Kaptur. And we will personally make the calls to these 
hosts, and I will sit right there to make sure they give you 
the air time.
    Ms. Browner. Thank you.
    I do think it is important for the public to have the 
facts.
    Ms. Kaptur. I will tell you, the audiences in my district, 
because I have been--I was at a business audience the other day 
and talked about this and talked about--and they know they are 
hearing one side. They were laughing. They think it is 
ridiculous.
    So I think that people are waiting for the other shoe to 
fall, and we ought to at least discuss it. We think we have 
fairly intelligent voters in our areas, and I really do think 
it is time, and I extend that invitation to you or someone of 
your designation.
    Ms. Browner. Thank you.

                           Biosolids Disposal

    Ms. Kaptur. I wanted to just move for my final couple of 
minutes here to the issue of biowaste, which is very important 
to us because I represent the--agriculture is our biggest 
industry, and we have lots of people, obviously, that live in 
Ohio.
    The reuse of sludge material, in particular, and how it is 
disposed of, EPA current regulations for organic and mineral 
byproducts, you can have ocean dumping, incineration landfills, 
lagoons that can be put in those places, but at the same time 
as you do that, that can cause land, sea, and air pollution 
problems.
    So, for example, EPA encourages land use disposal of 
certain by products rather than utilization, but at the same 
time, EPA regulations for the landfill disposal of sludges, for 
example, have no requirements for disinfection, stabilization, 
and meadow levels, and what we are seeing just in northwest 
Ohio where you have got some communities that don't properly 
dispose of sludge, they put stuff in landfills in Michigan, 
what is happening is there are so many seagulls up in Michigan 
that are eating that stuff, and they are defecating in Lake 
Erie.
    We had our beaches closed last summer and will again 
because of the fact that these landfills don't have the same 
standard as other disposal methods.
    So I guess what I am interested in is how can EPA justify 
this in light of the fact that safe technologies for the 
recycling and reuse of sludges exist. Why isn't there as much 
attention on promoting the reuse of those rather than the type 
of landfill that is going on in our part of the country where 
you get the same kind of pollution problems?
    There isn't an equal emphasis at EPA, and I want to know 
why.
    Ms. Browner. There are a couple of things that can happen 
with sludge, the byproduct of a wastewater treatment facility. 
It can be beneficially reused, which is something we have 
encouraged and worked on with a number of communities. You can 
buy certain cities' sludge at Hechinger's and apply it on your 
lawn if you choose to. So one possibility is beneficial reuse 
including agriculture, commercial, and residential use.
    Another possiblity is land application. If it is being 
landfilled, which is a little bit different than land 
application, and goes to a place where household garbage may 
also be going, that landfill has to operate in accordance with 
all of the requirements, which are standardized across the 
country.
    So I am concerned about this. We will take the time to 
understand if there is a landfill accepting sludge that is not 
in accordance with requirements of daily cover, so that you 
don't have problems of waste being moved by animals.
    Ms. Kaptur. But EPA requirements currently don't require 
disinfection, stabilization, and certain metal levels for those 
landfills, do they? You have no requirements for sludges?

                           Biosolids Program

    Ms. Browner. If I might ask Bob Perciasepe from our Office 
of Water to speak to that.
    Mr. Lewis. Mr. Perciasepe, would you identify yourself for 
the record.
    Mr. Perciasepe. Yes, sir. My name is Bob Perciasepe, the 
Assistant Administrator for Water at EPA.
    Congresswoman, the EPA water program has a biosolids 
program and regulations that govern the quality of biosolids at 
a wastewater treatment plant before it can be beneficially used 
or moved off the site. That includes rendering microbial 
activity inactive through line stabilization and other 
approaches, including digestion. I think the Administrator 
pointed out that if amunicipality decides to landfill 
biosolids, which we discourage because we think the pretreatment 
program is appropriate. That program is designed to reduce the 
pollution from industrial and other sources going into the sewage 
system before it gets to the plant. Then the next step is to reduce 
metals and other organisms, so that the sludge or biosolids that result 
at a sewage treatment plant can be made available for beneficial reuse. 
But if a community decides that it doesn't meet those reuse 
requirements, and they have to landfill it, the landfill regulations 
then require daily cover and management to minimize pests and other 
problems. Those regulations take hold and require a daily cover over 
that to keep seagulls and rats and other things off of the top of it. I 
want to be real clear.
    Our policy and all of our regulations are driven toward 
improving the quality of biosolids at wastewater treatment 
plants so they can be beneficially used. More than half the 
States in the country, and over 80 percent of their biosolids 
are now being----
    Ms. Kaptur. Is Michigan?
    Mr. Perciasepe. I don't know the specifics.
    Ms. Browner. We can try to get that for you.
    Mr. Perciasepe. We certainly can find out if they are 
beneficially reusing their biosolids either in reclamation 
projects or agriculture and home use.
    [The information follows:]

    Landfill Regulatons and Biosolids Disposal: Michigan Compliance

    As of 1996 the state of Michigan recycled about 402,000 dry 
tons of biosolids for agricultural purposes while incinerating 
230,000 dry tons.

    Ms. Kaptur. I know my time is up, but I just want to state 
for the record that I believe very much in the reuse of 
organics, and in our own community, we are using 
pasteurization, not sterilization, and using that material, 
then, back on the land, and it is working very, very well, but 
what we are concerned about is that other communities don't 
have that same commitment, and that our community is being 
affected by those that don't, and I wanted to particularly 
direct your attention toward some of these landfills and how 
other communities, even though they are supposed to be 
disposing of their sludge in a particular way, may not be.
    Ms. Browner. We are more than happy to take a look at the 
management of those landfills.
    Ms. Kaptur. Thank you.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Ms. Kaptur.
    I might mention, Ms. Kaptur, it was the lack of other 
communities' concerns about air quality and its moving around 
that got me in this business in the first place, but in the 
meantime, I appreciate very much the panel's participation 
today.
    We will be coming back at 2 o'clock. We will proceed in 
regular order at that point, and hopefully, we will get our 
work done reasonably tomorrow.
    Ms. Browner. Thank you very much.
    Mr. Lewis. Thank you very much.
    Wait, just one moment. The committee is going to be 
adjourned until 2:00, but in the meantime, the audience, if you 
would like, can leave your materials here if you would like. We 
will be reopening the room at 1:45. It is secured.
    Ms. Browner. Thank you.
    [Recess.]

                           Afternoon Session

    Mr. Lewis. If the Committee will come to order, I hope that 
lunch has made you all sleepy. [Laughter.]
    Ms. Browner. Likewise. [Laughter.]
    Mr. Lewis. We will see.
    Welcome back, Administrator Browner. I would like to 
mention that I do have a number of specific budget questions 
that relate to the NAAQS standards that we discussed this 
morning that I will be submitting for the record.
    Ms. Browner. Right.

                 safe drinking water information system

    Mr. Lewis. At least for me, we are going to move on to 
other subjects. I am not sure about my colleagues as they come 
along.
    In the area of drinking water, I would like to discuss for 
a while that whole subject of clean or safe drinking water. It 
would appear to be a common public perception that public water 
systems in the United States do not provide safe drinking water 
to their customers. Certain reports have cited water systems as 
being in a constant or chronic state of violation of the health 
standards set forth in the Safe Drinking Water Act and these 
reports are supposedly based on data compiled and maintained in 
EPA's Safe Drinking Water Information System, the SDWIS.
    The SDWIS contains basic information on each public water 
system. There are over 197,000 such community and non-community 
public water systems in the United States, as I understand it. 
The SDWIS includes items relating to population size served, 
the water source, any Safe Drinking Water Act violations.
    While this data is obviously valuable for finding patterns 
of violations and assessing problems, interpreting facts or 
drawing conclusions about the condition of these public water 
systems, it also, like most statistical information, is subject 
to misinterpretation, or worse, purposeful misuse, leading to 
what some would call, this is a term that I would never use, 
for it certainly would not apply to any government agency, 
``fearmongering''.
    It is my concern that the SDWIS data has, in fact, been 
used in an excessive fashion, as illustrated by statement such 
as that of the Natural Resources Defense Council that, and I 
quote, ``Fifty-three million Americans drank water that 
violated EPA's safety standards.'' Even Assistant 
Administrator, and I must say that have difficulty with some of 
our names but not all of them----
    Ms. Browner. Bob.
    Mr. Lewis. Bob, that is right. I had that down cold this 
morning, Bob, but----
    Ms. Browner. You did well.
    Mr. Lewis. I was doing it phonetically this morning.
    As the Administrator stated in his recent memorandum 
concerning the 1997-98 National Water Program agenda, ``Almost 
20 percent of the population is served by drinking water 
systems in violation of health-based requirements and we have 
new protections to establish.''
    Perhaps, to add insult to injury, EPA recently released its 
drinking water survey which indicated our drinking water 
systems are in such bad shape that nearly $70 billion today and 
$140 billion over the next 20 years is necessary to make them 
safe.
    How could this do anything but scare the public into 
believing that they are drinking bad water? I do not question 
that systems need to be constantly maintained, repaired, and 
upgraded. The point I am really trying to make by this 
discussion is that you and groups such as the NRDC appear to 
be, at best, misinforming people by the way that the data is 
used, instead of using it in a positive way to bring and keep 
these public water systems into regular compliance.
    To bring this point into better focus, it is, perhaps, 
worthwhile to show how the SDWIS data has been misused. The 
data bank lists a number of violation types. The most serious 
are those listed as maximum containment level, or MCL 
violations. Of the 154,316 nationwide violations listed for 
1996, which I note is, on average, less than one for each of 
the 197,000 water systems, just 1,611--that is a lot, but just 
1,611, or 1.04 percent, were Type 21 acute violations. Some 
7,500, or 4.91 percent, are listed as Type 21 monthly 
violations, with 363, or 0.24 percent, single sample and 743, 
or 0.48 percent, average violations are reported.
    In other words, just 6.67 of all violations are considered 
among the most serious and just one percent are considered to 
be acute. I hasten to add that each of these violations has 
been acted upon by local authorities the minute they were 
detected. I suppose you can draw your own conclusions, but I 
hope that you will not tell me that your own data in this 
connection is faulty.
    I have similar data all over the United States, and I would 
note that in California, 222 of the 961 Statewide violations 
took place in my district. Of these, some 196, or 88 percent, 
are essentially clerical reporting violations. Among the over 
10,000 California water systems, there are just 14 Type 21 
acute violations in 1996.
    My friends, Mr. Stokes and Mr. Hobson and Ms. Kaptur, might 
be interested to know that Ohio had the most Type 21 acute 
violations in the nation, some 568 reported out of over 9,700 
Statewide.
    As I said at the outset, the facts do not seem to back up 
the rhetoric here. The facts seem to clearly point out that 
there are very few serious drinking water violations nationwide 
and that very few, if any, such systems have such serious 
problems. The facts seem to clearly point out that most 
Americans, in fact, drink clean water and that most violations 
are not serious at all but are of a clerical reporting variety.
    First, Madam Administrator, I want to tell you that if you 
think I have reached erroneous conclusions, I have been using 
your own data. Then I would like to have you tell me what you 
plan to do to send a positive message regarding drinking water 
to those people we each want to serve.
    At this moment, I would like to kind of conclude my remarks 
by saying that I hope the rhetoric has not been designed to 
promote the sale of bottled water, for that seems to be 
skyrocketing across the country. But in the meantime, I would 
be very interested in your input.
    I want to say as an aside that this piece of my discussion 
was really designed--and if I could go off the record.
    [Off the record.]

                         drinking water safety

    Ms. Browner. Mr. Chairman, you raise several points.
    Mr. Lewis. Yes.
    Ms. Browner. First, what I want to say is that in the 
United States, we have the safest drinking water of any country 
in the world. However, there are some troubling indicators. 
Many of the systems have an aging infrastructure. We see 
emerging threats, such as giardia and cryptosporidium, which 
caused the problem in Wisconsin and Milwaukee and other places.
    It is important, I think we would all agree, and Congress 
certainly agreed in passing the new drinking water law, that 
the States should make available a system of checks and 
balances for drinking water information about violations and 
exceedances. That way the public will feel better about their 
drinking water. Hopefully we can move away from bottled water--
this is what they have in your cafeteria--and to return to----
    Mr. Lewis. Because D.C.'s water is not safe. We all know 
that.
    Ms. Browner. Well, actually, I was going to use D.C. as a 
good example. You raise the number of----
    Mr. Lewis. It is not a good example for very much.
    Ms. Browner. Well, it is an example of this. This is 
something every city can learn a lesson from. D.C. is an 
example of what happens if you are not vigilant each and every 
day. A lot of maintenance goes into delivering safe drinking 
water. There is a lot of flushing of the system, particularly 
in an older city with older transmission lines.
    I consider those acute numbers to be an indication that we 
failed in some way. We should never see an acute violation. By 
the time you get to acute, you are facing very real public 
health consequences. It is the tip of the iceberg. Underneath 
acute are all kinds of other things which, if not attended to 
on a daily basis, can result in adverse impacts.
    Congress, working with the Administration, made a very 
sensible decision over the last couple of years: one, you 
provided Federal dollars to upgrade these systems, to allow for 
the maintenance and the infrastructure; and two, you 
strengthened the drinking water law. Part of that law requires 
one of those reports that you seem to have a question about. We 
were required to do that by Congress and we complied with our 
Congressional mandate to report by the directed.
    Mr. Lewis. I am never concerned about the reports that we 
mandated. I am concerned about the results.
    Ms. Browner. Well, it is a straight-forward report. Cities 
and States were told to figure out what kind of funding they 
needed to upgrade their drinking water systems in light of 
history and in light of emerging threats. They were asked to 
provide that information to us. We, then, have a mechanism for 
checking that information and for ensuring that there is 
quality across the board. Then we make the information publicly 
available.

                 Drinking Water: Cost Benefit Analysis

    Mr. Lewis. If I could just interpose, this morning's 
discussion, a lot of the members' concerns relative to PM-10, 
PM-2.5 was relative to what the cost implications might be at 
the other end as it relates to a health risk that we maybe have 
not been able to measure very well yet, at least in the mind's 
eye of those asking the questions, and what one member 
described as a $4 billion cost.
    Similarly, here, we are talking about pretty sizeable costs 
in areas that are important. We are concerned about the public 
health. But, indeed, the kind of cost-benefit analysis that 
needs to be done, at least some of us would wonder when that 
ever gets done.
    Ms. Browner. The opportunities given us by a cost-benefit 
analysis in the case of drinking water are two-fold. First, 
when we set a public health standard, the analysis of 
technologies that are available to prevent the contamination of 
the water or to remove the contamination of the water, includes 
a consideration of the cost requiring applications of certain 
technologies. That is something we supported in the law and it 
is something we think is valuable in the new law.
    Again, we are told to err on the side of public health. We 
think that is equally important. But certainly, the knowledge 
of what it would cost a city to reduce its level of 
cryptosporidium or giardia is something we should all know.
    Mr. Lewis. Yes. It strikes me that so far in this 
discussion this afternoon, unlike some of the discussion this 
morning, you and I seem to be in almost 100 percent agreement.
    Ms. Browner. The second place that you made a very smart 
decision, and we encouraged Congress to do this in the 
reauthorization of the Drinking Water Act, is to allow States 
to manage the new Federal dollars. Each of your States is about 
to get new drinking water Federal dollars. They have never 
gotten a dime from the Federal Government before. Thanks to 
your good work, you are now going to see your local communities 
get new Federal dollars to enhance the safety of their drinking 
water systems.
    When each State will do in receives that money they do an 
analysis of where that money is best spent and where it is most 
cost beneficial. They will look at where the greatest problems 
are and where, for the amount of dollars available, they can 
get the greatest public health improvement. That will be done 
on a State-by-State basis, as it well should be.
    [The information follows:]

[Pages 256 - 258--The official Committee record contains additional material here.]


    Mr. Lewis. I have probably used up more than my allotment 
of time, since we are going to try to do regular order this 
afternoon.
    Mr. Stokes.

                              brownfields

    Mr. Stokes. Thank you very much, Mr. Chairman.
    Madam Administrator, this morning, we talked about 
Brownfields and when we had HUD before our Subcommittee, we 
talked to them about their new effort in terms of utilizing $25 
million for competitive economic development grants as part of 
a new Brownfields initiative. Can you tell us how your agency 
intends to work with HUD relative to Brownfields?
    Ms. Browner. We have been working with HUD over the last 
two years on a, site-by-site basis as a community comes forward 
and makes an application. We have sought in the last several 
months to formalize that relationship on the front end, to work 
with HUD to see what tools they would make available in our 
Brownfields program.
    As I said earlier, we have also worked with a number of 
other agencies and they, as I understand it in their budget 
requests, are seeking a dollar amount for economic development 
initiative grants and set-asides. We think those will be 
extremely important to build on the success of our Brownfields 
program in terms of actual on-the-ground activities in 
communities such as cleanups and redevelopment.
    We have one set of tools, they have another, and what we 
are going to finally do is put them together on the front end. 
Until now have been putting them together on the back end on a 
site-specific basis.
    Mr. Stokes. Right.
    Ms. Browner. We want to put them together on the front end.
    Mr. Stokes. I note that although total funding for 
Brownfields increases from roughly $10 million in 1996 to $37 
million in 1997 to a requested $87 million in 1998. In the 
Environmental Protection Management account, full-time 
equivalent personnel devoted to the program remains constant at 
three in each year and funding remains even at $1,020,000 from 
1997 to 1998. Are personnel and funds in the EPM account 
adequate to handle this large increase in program activity 
requested in 1998?
    Ms. Browner. The numbers that I show are an active level 
for 1997 in Brownfields of $37 million and 35 FTE. The increase 
we are seeking would take that to a total of $87 million, which 
is the $37 million plus $50 million, and a total of 60 FTE, or 
an increase of 25. So we may have a slightly different set of 
numbers. Oh, is it in EPM Superfund?
    Do you know what the issue is? We carry our FTE in two 
different accounts for this program. One is in our EPM account 
and the other is in the Superfund trust fund account. So I 
think you are seeing a snapshot of just the EPM account----
    Mr. Stokes. It is, yes.
    Ms. Browner [continuing]. And to get the full picture, you 
have to also look at the Superfund allotment.
    Mr. Stokes. I see.
    Ms. Browner. So, actually, we are adding. We are 
recommending to Congress an increase, between the two accounts, 
a total of 25 FTE for the Brownfields program, which, I think, 
is in keeping with the $50 million increase in funding we are 
seeking.
    Mr. Stokes. That is between the two accounts?
    Ms. Browner. Right. You have to look at both.

                   Assessing Health Risks to Children

    Mr. Stokes. All right. Let us turn now to EPA's activities 
assessing the health risk to children. There was a new effort 
begun in 1995. The funding has increased from $3 million in 
1996 to $7.5 million last year to a requested $15.5 million in 
this year's budget. In 1998, a small part of the funding will 
be made available to help combat lead poisoning in children.
    And, of course, as you know, lead paint poisoning 
abatement, especially in children, has been one of my top 
priorities. In fact, I might mention, my Labor, Health and 
Human Services, and Education Subcommittee yesterday went to 
the Centers for Disease Control in Atlanta. We toured there and 
they were very excited about showing me a new meter type of 
estimate----
    Ms. Browner. Oh, yes. I have seen that. Yes.
    Mr. Stokes [continuing]. Where they could go out in the 
field and measure lead poisoning right on the spot----
    Ms. Browner. Right. Yes.
    Mr. Stokes [continuing]. Which is the latest development. 
It was very interesting. But I would appreciate it if you would 
tell the Committee the emphasis and accomplishments in the 
children's health initiative thus far and what you plan with 
the 1998 increase, paying special attention to the lead effort.
    Ms. Browner. The funding for our Office of Children's 
Health is a redirection. It is not part of the budget increase. 
We are taking it from other activities where, quite frankly, we 
believe we have either completed work or the risks have been 
minimized. We are focusing it on the risks to our children in 
terms of their environmental exposures and the effect on their 
health. That would include a number of issues with lead, 
obviously, being important.
    What this consolidated office will do is provide the 
leadership across the agency in three ways. One, to ensure that 
when we set a public health standard, we do so with our 
children in mind, that we take into account their special 
vulnerabilities. They breathe more per pound, they eat more per 
pound, they drink more per pound of body weight which makes 
them very different from adults. We are using the best 
available information we have on effects to children when we 
set an air, water, waste, or food standard.
    Secondly, we should review those standards on the books 
which may have been adopted at a time when the science was not 
yet available in terms of our children. We should make sure 
that those standards are, in fact, protecting our children, and 
if need be, make adjustments through the public comment 
process.
    And finally, we should undertake the kind of research that 
will allow us to prevent health effects in our children from 
future environmental hazards. The function of the children's 
office is to provide that coordination.
    Each individual programmatic office, research and 
development, air, water, pesticides, toxic substances, 
continues a set of activities focusing on children. Lead, 
obviously, is one of the important ones. I think we should be 
proud as a country of the kind of progress we have made on 
reducing of lead poisoning. We have made some real progress, 
but the job is not done. We still have a million children in 
this country who suffer elevated lead levels.
    You can go to two different hospitals in Baltimore and see 
children whose lives have been permanently changed because of 
lead poisoning. That is happening today. Seventy percent of the 
housing stock in Baltimore City has elevated levels of lead, 
which puts children at risk.
    We have recently completed implementation of Title X, which 
now requires or allows a buyer or renter of a home to determine 
whether or not that house or apartment has lead paint in it and 
to take steps to minimize the exposure to their children. It is 
one of the programs. We developed it in concert with the 
American Association of Realtors, which endorses the program. 
They think it is a very important tool for home buyers and 
renters across the country, and that is one of many things we 
have been involved in. We can provide you a full list.

                            Urban Livability

    Mr. Stokes. Ms. Browner, one of EPA's new initiatives this 
year is the Urban Livability Program, for which $1 million is 
proposed for reprogramming in 1997 and $5.5 million requested 
in 1998. Then, of course, you described for us how the program 
is designed, to provide cities with tools and information to 
develop community-based solutions on pressing environmental 
issues and bring together other Federal agencies, local 
governmental, and private sector partners, to foster clean 
urban environments and so forth. Tell us precisely how this 
initiative is different or why it needs a separate program 
element.
    Ms. Browner. Increasingly, what we find is that you cannot 
approach environmental problems case by case, dilemma by 
dilemma. If you make a decision on how to manage an air 
pollution problem, you need to be careful that you do not 
create a water pollution problem or awaste pollution problem.
    If we can work together, with pilot cities, and step back 
and think broadly about how to manage air, water, waste 
challenges across the board, then we should be able to make 
much better decisions in a coordinated manner than on an 
isolated basis.
    An example might be that in looking at how to reduce air 
pollution, a city might want to make a set of choices which 
should be considered in terms of their impact on water quality, 
on stormwater. The city should not simply shift the pollution 
from one place to another but should make it coordinated.
    It is a modest project. It is so that we can work in four 
study cities to see how to bring together all of the 
stakeholders to design a blueprint for that city to manage 
pollution and public health challenges across the board.
    Mr. Stokes. Does this new initiative have or require 
authorization?
    Ms. Browner. No. We do not believe it requires 
authorization. What we are doing is a common sense thing. We 
have these 13 different statutes we operate under and we tend 
to say to people, okay, under this statute, go do this, and now 
under this statute, go do something else, and they may be in 
direct conflict. We are going to force ourselves to bring 
together all of the pieces and then to have a community show us 
how they would apply that in a coordinated manner.
    What we are trying to do is not going to be easy, but we 
think if we go out to these study cities and actually implement 
the changes in a real place, that we should be able to figure 
out how to do it on a broader scale. We have also committed to 
coordinate with other Federal agencies. Transportation and HUD 
need to be an important part of this effort in the study 
cities.
    Mr. Stokes. Mr. Chairman, is my time expired or do I have 
time for one more question?
    Mr. Lewis. I am never going to be rigid with my ranking 
member.

                          air toxics strategy

    Mr. Stokes. Let me just squeeze this one more question in, 
if I can. Can you tell us how the Urban Livability Initiative 
relates to the Office of Air and Radiation's effort to produce 
an integrated urban air toxic strategy?
    Ms. Browner. That is one of the things that we think we 
can----
    Mr. Lewis. In 25 words or less. [Laughter.]
    Ms. Browner [continuing]. Pilot test, and the Air Office, 
in fact, will provide the primary leadership on the Urban 
Livability Initiative.
    Mr. Stokes. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you.
    Mr. Frelinghuysen.

                  new york-new jersey harbor: dredging

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    I wanted to visit, Administrator, an issue that is critical 
to the New York-New Jersey area. This is the issue of dredging. 
The White House initiative which was announced by the Vice 
President in July of last year included a provision that after 
September of this year, I believe it is September 1, Category 2 
sediments would no longer be permitted at what is known as the 
mud dump site. Is that correct?
    Ms. Browner. That is correct.
    Mr. Frelinghuysen. What is your agency doing to facilitate 
the issuance of the Army Corps' dredging permits in the port so 
that dredging can take place as soon as possible and the port 
community can fully use the estimated one million cubic yards 
of Category 2 capacity remaining at that site?
    Ms. Browner. As you are well aware, this is literally a 
daily activity for us in terms of the dialogue, the outreach 
that we have been engaged in. I would like to ask Bob 
Perciasepe, who is dealing with this on a daily basis, to 
briefly talk about exactly where we are at this time. He is the 
Assistant Administrator for the Office of Water.
    Mr. Perciasepe. My name is Bob Perciasepe, Assistant 
Administrator for Water.
    Congressman, we have an interagency team with the Corps of 
Engineers including the New York-New Jersey District and our 
regional office. They meet daily to review the permit material. 
We meet with the permit applicants in one form or another 
almost daily on the phone. We now have publicly noticed most of 
the permits. There are a few left that need to be publicly 
noticed, but we have publicly noticed most of the permits so 
that we would anticipate using that one million cubic yards of 
capacity out there by September.
    So we are managing the permit part of the plan to use up 
that capacity, as the Administrator said, on a daily basis. We 
have a team in the region, between the two primary agencies, 
the Corps of Engineers and EPA. To expedite things they are 
actually located in the same place and talk to each other 
across the table rather than sending memos. There is also a 
coordinating team here in Washington, including Martin 
Lancaster, who is the Assistant Secretary of the Army for Civil 
Works and me.
    Mr. Frelinghuysen. What are your plans and your position 
regarding what is called the Historic Area Remediation Site, 
the mud dump? What are your future plans for the dredge 
material?
    Ms. Browner. At this time, we intend to publish a proposed 
rule and take public comment beginning, I think, in the early 
part of May on that issue. So we are concluding the agency work 
and then we will go out to the public and hear what they have 
to say about what should be done with respect to the Historic 
Area Remediation Site.
    Mr. Frelinghuysen. After the dump is closed, will Category 
1 be allowed at the site?
    Mr. Perciasepe. Yes, Congressman. The multi-party agreement 
that we all came to was that we would simultaneously close the 
mud dump site to the Category 2 material and redesignate it, as 
you mentioned, as the Historic Area Remediation Site, where we 
would use Category 1 material that does not bio-accumulate in 
any harmful way. That was the commitment between the port 
community, the environmental community, the New Jersey shore 
folks, EPA and the Corps as well as the State of New York.
    Mr. Frelinghuysen. When will the plans be available for 
comment?
    Ms. Browner. The proposal, I think, is going to be released 
May 9.
    Mr. Perciasepe. Yes. We are doing the Environmental Impact 
Statement which includes dealing with the material and use of 
the site.
    Mr. Frelinghuysen. Is the Historic Area Remediation Site to 
be remediated with materials that include clean dredged 
materials, that is to say, Category 1 dredge sediments?
    Mr. Perciasepe. Yes.
    Mr. Frelinghuysen. By your own definition?
    Mr. Perciasepe. Yes. The cleaner it is, the less problem 
there would be in deciding whether it could go there. But the 
agreement is that the current Category 1 standard, will be 
applied with the proviso that there is not any bio-accumulation 
of material harmful to the bethos or the organisms that live on 
the bottom.
    Mr. Frelinghuysen. So what is it going to be restored to, 
the pre-disposal conditions?
    Mr. Perciasepe. Yes. That is, it would be rendered in a way 
that there is no environmental degradation from the historic 
material that had been placed there.

               new york-new jersey harbor: mud dump site

    Mr. Frelinghuysen. Is there any evidence that the ocean 
disposal activity at the mud dump has resulted in the 
degradation of New York and New Jersey's shores?
    Mr. Perciasepe. I do not have a proper answer for that at 
this time. I certainly could provide something for the record. 
The way we try to judge the material is the impact on the 
organisms in that general area. If contaminants are bio-
accumulating, or the organisms there have a chance to bio-
accumulate into fish and shellfish in the area, that could have 
an impact on the shore, particularly on the shellfishing and 
other activities that go on around there.
    [The information follows:]

               Dredging N.Y./N.J. Harbor: Impact on Shore

    The ``Supplement to the Environment Impact Statement on the 
New York Dredged Material Disposal Site Designation for the 
Designation of the Historic Area Remediation Site (HARS) in the 
New York Bight Apex'' contains a detailed environmental 
analysis of the Mud Dump Site (MDS) and its surrounding area, 
and describes how some benthic areas in the vicinity of the MDS 
are degraded and need to be remediated. As you are aware, the 
proposed HARS area encompasses the current MDS. This document 
and the proposal to de-designate the MDS and designate the HARS 
are now available for public comment until June 30, 1997. EPA 
has seen no evidence indicating that the dredged material 
disposal activity at the MDS is degrading New York and New 
Jersey beaches, nor does available information indicate a 
potential for this to occur.

    Mr. Frelinghuysen. So you say there may have been harm to 
marine resources?
    Mr. Perciasepe. Before we had ocean disposal regulations, I 
think that is correct.
    Mr. Frelinghuysen. What is the status of the Environmental 
Protection Agency's approval of the pending permits for the 
dredging of the ten high-priority channels? This is both New 
York and New Jersey.
    Mr. Perciasepe. We are working very hard on those. I do not 
have an answer for you off the top of my head. We can certainly 
provide that for the record.
    [The information follows:)

                   Dredging Permits: Approval Status

    The Corps of Engineers is the permit issuing authority for 
dredged material. EPA's role is to concur on disposal 
determinations proposed by the Corps of Engineers. EPA has 
concurred on all of the 10 identified priority channel projects 
that are suitable for ocean dumping. The status of the 10 
priority Federal dredging projects as of May 1, 1997 is as 
follows:
    Of the ten projects, six involve dredged materials that are 
acceptable for ocean disposal; two of these six have already 
been completed and four are currently in contract 
solicitations. Of the remaining four projects, three are 
pursuing upland disposal (including the Newark Bay Channels 
project), and one project will be reprofiled. In summary, the 
status of the ten listed priority channels as of May 1, 1997, 
is as follows:
    a. Two (2) dredging projects have been completed;
    b. Four (4) dredging projects are in contract 
solicitations;
    c. Three (3) projects were proposed for upland disposal;
    d. One (1) project will be ``reprofiled.''
    Both the Agency and the Crops of Engineers believe that 
permits for the dredging of the high priority channels will 
take place prior to the 1997 deadline.

    Mr. Frelinghuysen. It is pretty important. The public 
perception is out there that this thing is being bogged down.
    Mr. Perciasepe. No. I think the----
    Mr. Frelinghuysen. The players that signed on the dotted 
lines are now throwing up roadblocks and that, basically, you 
are listening to those roadblocks, and as a result, things are 
just slowing down into semi-paralysis. I need not go over the 
number of jobs that are at stake here. There is, obviously, 
bipartisan interest of members of Congress from both New York 
and New Jersey and we are at a critical point here.
    If people have signed on the dotted line as a result of the 
Vice President's visit and not all parties are playing by the 
same rules, then I think that it needs to be said and I think 
the Environmental Protection Agency ought to come out and say 
it, because once September 1 comes around, you can forget about 
anything. You might as well close up the port.
    Mr. Perciasepe. We can provide for the record where we are 
on each one of those permits. I think the permits on some of 
those critical channels may have already been publicly noticed.
    Mr. Frelinghuysen. But you would agree with me that, I 
assume, there has been a flow of correspondence from some 
groups, even those groups that were a party to the agreement, 
slowing down the process?
    Ms. Browner. We have committed to a schedule----
    Mr. Frelinghuysen. And for the public record, would you 
make that correspondence available?
    Ms. Browner. We are more than happy to make any 
correspondence we have received in this matter available. Mr. 
Congressman, as you well know, this is an issue with lots of 
people and lots of points of view, including the States, the 
governors, mayors, environmentalists, business. We committed 
with the Vice President's leadership to a Federal Government-
wide recognition of the need to work in a coordinated manner. 
That had not been happening previously. We are the first to say 
that, but it is now happening. We are on a schedule to put 
forward our views, to take public comment and reach a final 
decision.
    Any decision that is reached is going to be a difficult 
decision because you have a set of people there who believe 
that putting any dredged material anywhere from that harbor is 
problematic. You have another set of people who believe that it 
is far too costly under any circumstances, regardless of the 
level of pollution in that dredged material, to take it out of 
the harbor. That is what we are seeking to grapple with to come 
forward with the recommendation.
    Mr. Frelinghuysen. But the bottom line was, correct me if I 
am wrong, that there would be a period of time for these 
practices to go on----
    Ms. Browner. Right. That is what is going on.
    Mr. Frelinghuysen [continuing]. Which would give those who 
desire to dredge those channels an opportunity to move towards 
some greater productivity and possible economic survival. But I 
get the definite feeling, and I talked with my colleagues about 
this, that there are people deliberately throwing roadblocks in 
the way of that agreement moving forward and that September 1 
comes upon us, and it will come upon us pretty quickly, you 
might as well forget about any of these channels being dredged.
    Ms. Browner. We have made a public statement and we will 
make it here again today that we intend to put in the Federal 
Register in the first full week of May the notice of 
availability for the supplemental Environmental Impact 
Statement and the proposed rule for the Historic Area 
Remediation Site. We will go into the public process at that 
point. You have our absolute commitment.
    Mr. Frelinghuysen. Thank you, and I want to thank you, Mr. 
Chairman. It appears to be somewhat of a provincial issue----
    Ms. Browner. It is not.
    Mr. Frelinghuysen [continuing]. But in terms of the New 
York-New Jersey metropolitan area, we are talking about tens of 
millions of people and businesses that count on these channels 
being open. Thank you very much, Administrator.
    Ms. Browner. We would actually go even further, Mr. 
Chairman, to say we do not in any way think it is a provincial 
issue. It involves large numbers of people in that area, but it 
also involves almost every port in the United States now. The 
question of dredging contaminated materials and disposing 
safely is an issue from the Miami River to New York-New Jersey 
Harbor to Oakland.
    Mr. Frelinghuysen. I used the term provincial in the sense 
that this is a critical point on the East Coast----
    Ms. Browner. Oh, I know.
    Mr. Frelinghuysen [continuing]. And unlike other port 
facilities, this is one whose, I think, time is running out 
unless we can get some action. Thank you.
    Mr. Lewis. For someone who is as attentive as you are to 
this Subcommittee, you can bring up even provincial matters, so 
long as they affect millions of people. [Laughter.]
    Mrs. Meek.

                         HBCUs: RESEARCH GRANTS

    Mrs. Meek. Thank you, Mr. Chairman.
    To Ms. Browner, I agree with the people who are proponents 
who are saying that research and development is a very 
important area in EPA. I agree with that. Without new research, 
you could not make the decisions you are making or find out 
what the health problems are or whatever.
    I notice that you also give research grants and that in 
fiscal year 1997, you awarded $196.8 million in research 
grants, but of those research grants, only about $8.7 million, 
or about four percent, went to Historically Black College and 
Universities. I want to have your comment on that.
    I also saw a decided correlation between your mentioning 
the fact that asthma is causing quite a bit of problems in 
school children, and I do know that asthma has a very 
highincidence among African-American children.
    Ms. Browner. That is true.
    Mrs. Meek. Research reveals that that is true. I am 
wondering, there should be a connect somewhere there between 
the rendering of your research grants and this high incidence 
of asthma to HBCUs in terms of trying to really find out some 
more information regarding that and what this research reveals 
to you in terms of EPA. I wish you would look into that, as 
well, in terms of the children's factor. That is important to 
us all, certainly.
    Ms. Browner. We do provide funding to a number of 
Historically Black Colleges and Universities. The proposal 
before you today is an $8.8 million plan.
    In addition to that, which is in some ways reserved for 
HBCUs, we also have a number of other programs which are 
competitive. We have our Science To Achieve Results Program, 
which allows for the best and the brightest scientists in the 
country to apply and receive funding for environmental 
research. We encourage the applicants from all universities and 
backgrounds to be a part of that process and we strive for 
diversity in making those choices.
    The funding request for that program is $115 million in 
this budget request.

                        ASTHMA AND AIR POLLUTION

    In terms of asthma, Mr. Stokes mentioned there had been a 
trip to the Centers for Disease Control by another Subcommittee 
yesterday. The Centers for Disease Control and EPA for the 
first time ever have signed a Memorandum of Understanding. We 
believe there is such a tremendous need for coordination 
between the two agencies, whether it be drinking water or 
asthma. In my meetings most recently with the CDC, one of the 
topics that was first on both of our lists was the topic of 
asthma. We were concerned with what research we were doing and 
what research they might be doing to develop an even better 
understanding.
    No scientist in this country can tell you why one child is 
an asthmatic and another is not. What we can tell you is that 
under certain environmental conditions an asthmatic child is 
more likely to have an attack, or the attack is more likely to 
become severe, in other words, to require more medication or 
even a hospital visit. I think all of us agree that there is a 
strong need to understand why is it that one child is an 
asthmatic and another one is not, but the science does not yet 
show us.
    Mrs. Meek. If I may go a bit farther on that, I think that 
incidence of asthma in African-American children, and that has 
been firmly documented, and the fact that you are giving 
research grants to HBCUs, do you think, or at least I think 
that you could improve the propensity of your agency in finding 
out exactly whatever connection there is between asthma and 
African-American children if you were to think about the 
importance of the Historically Black Colleges and Universities 
in doing this kind of research. I think that you would find 
some answers that might suit some of the guidelines that you 
have.
    Ms. Browner. We try and allow the universities to look at 
what they think they are best qualified to do in applying for 
these dollars, but we can certainly provide direction to them 
on where we might find a partnership beyond what already 
exists.
    Mrs. Meek. Why could you not do more than that? Why could 
you not earmark or look for researchers in HBCUs and earmark 
that so that they could do that kind of research?
    Ms. Browner. We do.
    Mrs. Meek. I do not think so many of them--you do that 
already?
    Ms. Browner. We earmark the dollars that are available in 
terms of the grant program for the HBCUs----
    Mrs. Meek. But not for asthma research.
    Ms. Browner. Not specifically. In the case of asthma, we 
have grant dollars that we make available broadly. We would 
look very kindly at the applications for those grant dollars 
from HBCUs, and we would be happy to work with them in 
developing those.
    Mrs. Meek. I guess what I am looking for is some clear 
direction to reaching a goal and that is trying to help to 
overcome asthma in African-American children, and I think there 
has to be a certain way that you get there. If you want to get 
somewhere, then you have to set up some milestones to get 
there.
    Ms. Browner. Right.
    Mrs. Meek. I do not think it is going to just happen in the 
regular order of things, and because you are giving out 
research grants, they could be given to a majority institution 
as long as you have it earmarked to find out what comparison 
there is there and what facts remain there.
    Ms. Browner. I agree. We have targeted resources to air 
quality research related to asthma and other respiratory 
illnesses due to certain levels of pollution in the air. This 
is a growing area of interest because of the very dramatic 
public health consequences. Hardly anybody does not now know a 
child who experiences on a weekly, if not a daily basis, the 
consequences of asthma. We received 183 applications for 
research in this area in 1996. That was more than in any other 
area of applications we received because there is such a 
tremendous public health impact and a desire to know.

                         OZONE: HEALTH EFFECTS

    Mrs. Meek. I just know that having had a lot of experience 
with children, African-American children, and the African-
American community in terms of public health that I do not know 
whether it is an asthmatic kind of thing that causes this, but 
there is a large prevalence, a big prevalence of asthma, even 
in adults. And if you study the mortality rates, it is there in 
adults. So I think it does need further study.
    Ms. Browner. We absolutely agree. In proposing and taking 
public comment on strengthening the ozone standard, not the 
fine particles standard, one of the issues that we sought 
comment on is the issue of asthma. There are a number of 
extremely important studies involving young children which 
studies at camps in New Jersey measure what happened to their 
asthma and other respiratory responses when the ozone hit a 
certain level.
    In the case of ozone and asthma, you can get people to 
volunteer to go into what are called inhalation chambers where 
they pump in certain levels of pollution. We do not do this for 
fine particles because death is one of the consequences. What 
the inhalation studies show is, unfortunately, there arecurrent 
levels of pollution that result in aggravated asthma attacks in large 
numbers of people.

                      greenlights and energy star

    Mrs. Meek. According to your listing of partners in 1997, 
your listing of partners in your Green Lights and your Energy 
Star Building Programs, at least 86 organizations in my State 
of Florida are partners in that program. Just a few of those 
include the State of Florida, itself, and that is Dade County, 
the University of Miami, Blockbuster Entertainment, Gulf Power, 
Okeechobee, Walt Disney and many other companies and local 
governments all across-the-board.
    So, I would like for Florida to get some kind of 
significance in this program because they are doing quite a bit 
in that regard.
    Ms. Browner. I like to pride myself on the fact that when I 
was in Florida my agency was the first State agency to sign up 
for the Green Lights Program. One of my colleagues, Mr. 
Perciasepe, who was then the Director of Maryland's 
Environmental Department likes to claim he was the first. EPA 
apparently told us we were both the first. Not just the 
government of Florida, but also the universities and the 
private sector, have been tremendous participants in what we 
think is a very successful program.
    The Green Lights Program, for those of you who are not 
familiar with it, it is a voluntary program. It is not a 
regulatory program and it is designed to secure reductions, 
largely in greenhouse gases. Obviously when you reduce your 
energy use you also are reducing the levels of air pollution.
    Mrs. Meek. Yes. And Floridians are happy to applaud you and 
your agency for all of your voluntary programs and consumer 
action as well because you saved about $750 million on the 
energy bills of your CCAP Programs. In Florida, alone, these 
companies and local governments, they prevent over 220 million 
pounds of CO2 annually and that is a savings of about $12 
million in energy. So, there is a reciprocal kind of innovation 
from these kinds of voluntary programs and I want to applaud 
your agency for doing that.
    Ms. Browner. Thank you. We think if you applied a 
traditional cost benefit analysis to the use of these dollars, 
you would see a tremendous return on the investment, both in 
savings in energy bills, and also in the amount of pollution 
reduced. What we are able to generate per dollar spent in terms 
of pollution reduction is quite significant.
    Mr. Lewis. Thank you, Mrs. Meek.
    Mrs. Meek. Thank you. I will finish next year.
    Mr. Lewis. Mr. Walsh.
    Mr. Walsh. Thank you, Mr. Chairman.
    Thank you, Administrator Browner, for your comments and 
your testimony today. I have some questions regarding clean 
air, however, I have something else I would like to talk more 
about at the time but I would like to submit those questions 
for the record.
    Ms. Browner. That would be fine.
    Mr. Walsh. And if I can get to them later today or perhaps 
tomorrow, then I will return to those.
    Ms. Browner. All right, that would be great.

                             onondaga lake

    Mr. Walsh. Thank you.
    What I would like to talk about is Onondaga Lake, which is 
a lake in my district that is listed on the Superfund site.
    Mr. Lewis. Not a traditional lake.
    Mr. Walsh. Well, I have prevailed upon this Subcommittee so 
many times to help me with this project that I really feel 
indebted to them and, certainly, to the Environmental 
Protection Agency and I am just afraid things are slipping away 
a little bit and I wanted to address that with the 
Administrator.
    This, as you know, has been a project of major concern 
regionally and it is a national priority now because of what 
this Committee has been able to do. And it is a tragedy that 
the lake got to the point that it is at but it is savable and 
it is renewable and we need to do that. But we need to do it 
soon and we need to have a plan.
    And my concern, quite frankly, is that the cooperation that 
we have had between EPA, DEC in New York, the County and the 
other litigants in what now is a pending court order, the 
cooperation has been very good up until just recently. And 
there has been some communication from the Senior Senator in 
New York to EPA that I think has really changed the direction 
at least of the cooperative effort.
    And there has been a change in New York State directorship 
or leadership of EPA and I am not sure whether there has just 
been something lost in the shuffle or there is a new philosophy 
involved here but my concern is that the EPA and the DEC and 
the local agencies have cooperatively worked toward what 
seemingly was a goal within reach, a plan to abate the problem.
    And based on what I have heard lately, the EPA is now 
looking beyond that plan and based on what the Senior Senator 
has said that the plan that has been, for all intents and 
purposes, approved is no longer viable.
    And we are within 10 days of a court order, the court 
coming down and saying, either, well, if you do not have a 
plan, I am going to put in place a master and I do not think 
that serves anyone's purposes.
    I have been fairly vague. I can be a lot more specific if 
you would like.
    Ms. Browner. If I might just say something and then ask Bob 
Perciasepe to elaborate. We feel like we have been good 
partners with you and all of the people concerned with Onondaga 
Lake.
    Mr. Walsh. It is a Iroquois name.
    Ms. Browner. Right, I know. I am very familiar with this. 
We did work with you and provided through your leadership $13 
million in just the last fiscal year for the lake. That is a 
sizable investment. It is almost half of the total amount that 
has been provided to address the problem there.
    There are two issues. The wastewater discharge to the lake 
presents significant challenges. You also have a Superfund 
problem specifically on the discharge and the agreement in 
terms of how to reduce the levels of pollution in the 
discharge. I think that is what you are most interested in 
right now.
    Mr. Walsh. Yes. This issue really involves the nitrogen, 
phosphorous issue.
    Ms. Browner. Right. Bob, do you want to explain where we 
are?
    Mr. Perciasepe. Once again, Bob Perciasepe, Assistant 
Administrator for Water.
    Mr. Lewis. We just call him ``Bob.''

                   onondaga lake: nitrogen discharge

    Mr. Perciasepe. That ``Bob'' guy. Congressman, the 
Administrator is correct and I think your assessment is correct 
that there has been a very good cooperative effort here. The 
plan has been produced, the EPA did approve theplan when it was 
produced. On the water side: I am not talking about the Superfund site 
part of it, which is still ongoing. Tim Fields may want to say 
something if you need him to talk about that.
    Mr. Walsh. I have no problem with that part of it.
    Mr. Perciasepe. But on the water part, the plan always 
talked about meeting the water quality standards in the lake.
    Mr. Walsh. Correct.
    Mr. Perciasepe. The technical analysis that is being done 
by the State of New York Department of Environmental 
Conservation is looking at where the discharge point will be 
for the metropolitan plant for the City of Syracuse. That is 
one of the key components of how to meet the water quality 
standards in the lake.
    Information has been developed during the course of the 
implementation phase of the plan as to whether or not the 
discharge ought to be to the lake or to Seneca River or Creek--
--
    Mr. Walsh. It is a river, right.
    Mr. Perciasepe [continuing]. River, down at the other end 
of the----
    Mr. Walsh. Six miles to the north.
    Mr. Perciasepe. Right, six miles to the north.
    Both of those alternatives require, difficult choices. We 
expect that the State of New York should be making that 
recommendation one way or the other by the end of April, and 
then we will have to review it with them. But the objective is 
to meet the water quality standards and if neither one of those 
alternatives are going to do it, then we will have to look at 
other ways to augment the plan.
    I guess that might be what you were talking about in terms 
of going beyond the plan.
    Mr. Walsh. Yes. The plan, the one that we really have come 
a long way with, was an in-lake solution. Now, the idea of 
taking that effluent and putting it in a pipeline and running 
it six miles north and dumping it into the Seneca River does 
absolutely nothing for the environment. It may help Onondaga 
Lake meet clean water standards but it does nothing for the 
environment, in effect.
    We have got a combined sewer over-flow problem that has to 
be a part of this and that will be a part of this, it has to 
be. In my mind that is the major part, at least of the 
effluent.
    But to build a pipeline six miles long and move the problem 
six miles to the north is bizarre at best. And I cannot imagine 
how any master, judge or administrator would accept that 
solution. And it seems to me that the pressure now is being 
brought to bear to agree to that plan. It adds about $350 
million to the project, by the way.
    Ms. Browner. Our position has been and continues to be that 
the discharge has to meet the water quality standards. It is 
incumbent upon the State and the local government to bring a 
plan forward that does just that. On the face of it, I do not 
disagree with what you are saying, which is, does it make sense 
to merely move a problem when you have technologies available 
today to actually reduce or, perhaps, even solve the problem?
    Mr. Walsh. Exactly. Which is you deal with the point of the 
pollution, you know.
    Ms. Browner. The solution to pollution cannot just be to 
either dilute it or to move it.
    Mr. Walsh. Not any more.
    Ms. Browner. Right. So, what I would like to suggest, 
because I know there are a series of meetings being set up on 
this issue--
    Mr. Walsh. Yes. As a matter of fact, there was one last 
week that we were not invited to where the opponents of the 
plan met with EPA and there was no opposite point of view and I 
do not think that is a proper way to proceed.
    Ms. Browner. What we frequently do in these situations and 
what we are doing in this situation is allow both sides 
sometimes, or if there are more than two----
    Mr. Walsh. Yes, right.
    Ms. Browner [continuing]. Which I think may be the case 
here. We allow all of the points of view to be heard. And we 
frequently do them one-on-one, just because otherwise when we 
try to do everyone together they start screaming at each other 
and we do not make any progress.
    And, so, I think there is now actually another one 
scheduled to make sure that another point of view is heard. But 
I think there has also been a request from Senator D'Amato and 
perhaps yourself----
    Mr. Walsh. Yes.
    Ms. Browner [continuing]. For a meeting with all of the 
members' offices. We are more than happy to accommodate that 
and to go through the technical details.
    Mr. Walsh. Yes, that would be a good thing to do.
    But, you are right, we do not want a plan, I do not want to 
waste this Committee or the taxpayers' time or dollars on a 
plan that does not end up meeting clean water standards. More 
than anyone else, I want that lake to be clean. I am an avid 
outdoorsman and it has intrinsic beauty, it has real value in 
terms of real estate and development and we cannot develop our 
county, literally, we cannot develop our county further until 
we deal with that problem. That is sort of at the bottom of the 
food chain. I mean everything runs downhill and we have got to 
deal with it.
    But I want to make sure that we make a wise decision here 
and to accept any solution that literally takes the problem and 
moves it six miles to the north is not acceptable.
    Ms. Browner. I really appreciate your point of view on this 
and we will certainly keep it in mind. Since this is an issue 
that first involved the State, they have to work with the local 
communities to develop the plan.
    Mr. Walsh. Right.
    Ms. Browner. If it is----
    Mr. Walsh. Just if you would lay out for me what----
    Ms. Browner. We can share with them your point of view.
    Mr. Walsh [continuing]. And maybe Bob can help, too. In 
order for the judge to agree or--in other words, for a plan to 
be presented to the judge, what has to happen between now and 
then?
    Ms. Browner. You have to be sure it meets water quality 
standards.
    Mr. Walsh. And who will decide upon that?

                 onondaga lake: clean water act waivers

    Ms. Browner. The way it generally works is the State would 
certify that, in fact, the plan meets water quality standards. 
If it does not meet water quality standards there is a 
mechanism in the Clean Water Act for a waiver. That would 
involve any number of parties determining whether or not a 
waiver is appropriate. I think everyone, and what I hear you 
saying--I do not want to put words in your mouth--but what I 
hear you saying is that we've to meet water quality standards.
    Mr. Walsh. Yes, we do.
    Ms. Browner. That is what this has to be about. Once again 
failing to address the problem is not going to serve any of us 
well.
    Let me explain the procedure. Let us say the State were to 
certify a plan that required a waiver because it did not meet 
whatever the State and the local government agreed to--it did 
not meet water quality standards. Under the Clean Water Act, we 
have an ability to review that waiver and oppose it or approve 
it.
    Mr. Walsh. But before we get to the waiver this issue of 
the opinion of DEC, EPA or whoever it is, is going to be based 
upon models, I would presume.
    Ms. Browner. Exactly.
    Mr. Walsh. Who's models?
    Ms. Browner. It would probably be the State and local 
government models.
    Mr. Walsh. Is it----
    Ms. Browner. We can verify them.
    Mr. Walsh [continuing]. Is it Dr. Effler's models, do you 
know about?
    Mr. Perciasepe. I do not believe so.
    Mr. Walsh. I mean I think that is key to the conclusion 
that is found.
    Ms. Browner. We could find out for you.
    Mr. Walsh. That would be very helpful.
    Mr. Perciasepe. I do not know what models the DEC is using, 
but they are the ones that have to do the first certification 
as the Administrator said.
    [The information follows:]

                      Onondaga Lake: NY DEC Model

                              models used

    In the Judgement of Consent of January 1989 between 
Onondaga County, Atlantic States Legal Foundation and the State 
of New York, The Upstate Freshwater Institute (Dr. Steven 
Effler, Director) was designated to develop water quality 
models to be used to determine Waste Load Allocations (WLAs) 
and Load Allocations (LAs) loadings that are established in the 
Total Maximum Daily Load (TMDL) process. On October 13, 1995, 
the State of New York certified to the Court that the 
evaluation of the models was complete and they could be used to 
evaluate different scenarios for meeting water quality 
standards in Onondaga Lake. The water quality data used in the 
models were also collected by The Upstate Freshwater Institute.

                  state's submittal to epa for review

    The State of New York submitted to EPA Region II for review 
and comment the State's draft Onondaga County Metropolitan 
Syracuse Sewage Treatment Plant (METRO) /Combined Sewer 
Overflow (CSO) Abatement Plan. The Abatement Plan involves the 
CSO abatement program; simultaneous, staged implementation of 
necessary upgrades and pilot studies at METRO; further water 
quality monitoring; establishment of TMDLs for phosphorus and 
ammonia; and the provision for an alternative discharge 
location, to which METRO's discharge would be diverted if 
necessary for the achievement of water quality standards. In 
addition, the State submitted draft TMDLs for phosphorus and 
ammonia. The State used Dr. Effler's model to establish the 
WLAs/LAs proposed in the draft TMDLs. The model used by the 
State is the one that was certified to the Court in October 
1995, pursuant to the 1989 Judgement of Consent. Dr. Effler has 
since modified these models. Since these modifications have not 
been evaluated and certified to the Court, these modified 
models were not used in establishing the WLAs/LAs in the draft 
TMDLs.

    Ms. Browner. They do it.
    Mr. Perciasepe. I think that they are going to designate 
meeting water quality standards, the discharge in the lake.
    Ms. Browner. Without a waiver.
    Mr. Perciasepe. That is what I think the DEC is going to 
come up with. But, again, I do not want to prejudge what that 
commissioner is going to decide. But I think that is where they 
are going.
    Ms. Browner. Right.
    Mr. Walsh. Just for the comfort level, I will cease and 
desist but for the comfort level of my colleagues here, the 
State is going to put up $150 million, minimum, on this 
project.
    Ms. Browner. I think there is a bond, is that correct?
    Mr. Walsh. Yes. The Environmental Quality Bond Act passed 
last fall and there are also some revolving funds that they are 
going to make available. So, we have a good partner, several 
good partners in this.
    And I, again, thank my colleagues for their help and thank 
the Administrator for her cooperation.
    Ms. Browner. Thank you. We will and make sure that we get 
the member meeting set up. I think we all share the goal of a 
certification of water quality standards being met without a 
waiver.
    Mr. Walsh. Thank you.
    Mr. Lewis. Thank you, Mr. Walsh.
    Mr. Knollenberg, thank you for your patience. You are 
recognized.

                  NAAQS Health Effects Studies: Access

    Mr. Knollenberg. Thank you, Mr. Chairman.
    Ms. Browner, thank you for the phone numbers. I do not know 
whether it was your suggestion or your staff's, we have 
initiated initial contact and we will continue to follow 
through with those individuals.
    Ms. Browner. Mr. Chairman, if I might, we have provided to 
the Congressman the phone numbers in terms of the data bases 
that there were questions about. We will also, obviously, 
provide them to any member of the Committee who would like to 
make that contact.
    Mr. Knollenberg. One of the phone numbers was close to the 
mark. We had to jump a little bit but we got it and I 
appreciate that information. We will advise you of which number 
it is, the staff has it. It was just a couple of numbers off.
    Ms. Browner. Close?
    Mr. Knollenberg. It was just a couple of numbers off but 
that is----[Laughter.]

            PM and Ozone Standards: Other Agencies' Comments

    But we pursued it, so, we got it.
    I just want to make a comment, this does not require a 
response, but I want to just visit with you for a moment on the 
issue we discussed this morning and this will be very quick. 
But I noticed that you corrected me when I said, decisions. It 
is not a decision, it is a proposal. It is a program, it is not 
a standard either, it is a proposal.
    I also know that while this may not be a decision or a 
standard set, it is not being done for drill. It is not 
something that is an exercise, it is serious. There is an 
ultimate hope, I believe, this member believes--and I do not 
know about the rest of us--that that is exactly what the EPA 
wants.
    One of the things that makes me add to that is the fact 
that the interagency comments on the proposed PM and Ozone, the 
National Ambient Air Quality Standards, from some of the other 
prominent departments in the Executive Branch, raised some of 
the concerns that I have. And you are familiar with these, but 
let me just repeat three or four.
    The DOT communicates it is incomprehensible to tighten PM 
standards given the dearth of information and uncertain 
solutions. The Commerce Department says that the EPA should 
estimate the full cost of compliance with each proposed 
standard, not just partial; the SBA--I think Mr. Vallet touched 
on this--most expensive regulation for small business in ten or 
more years. The DOE says consider retaining current Ozone 
standards.
    Now, these are some of the----
    Ms. Browner. And we are doing that. We did take comment on 
that.
    Mr. Knollenberg. Yes. And I would just tell you that it is 
a frustration for us and that is why we come directly to you 
with some direct questions about what is out there because we 
have some concerns about that.
    Let me go on, though, to something else that----
    Ms. Browner. Are you going to move off of the air issue 
or----
    Mr. Knollenberg. I am sorry?
    Ms. Browner. Are you switching issues?
    Mr. Knollenberg. I am getting off of the----
    Ms. Browner. Can I say something, Mr. Chairman, about the 
air issue? I reflected on the conversation of this morning over 
lunch and I----
    Mr. Lewis. With Mr. Knollenberg's leave.
    Ms. Browner. I apologize.
    Mr. Knollenberg. Well, if you can do it in a moment or two. 
I do not want to sacrifice any time here because I do have 
something else to ask.
    Ms. Browner. Can I have some time at the end to make an 
offer to the Committee?
    Mr. Lewis. You might be surprised how much time I will give 
you. [Laughter.]
    Ms. Browner. I do not want to take up Mr. Knollenberg's 
time. Go ahead.
    Mr. Knollenberg. I will yield to you if you will just take 
up a little bit of my time.
    Ms. Browner. I wanted to make two offers to the Committee. 
First, is recognizing both the magnitude and the technical 
nature of this air quality standards issue, to set aside time, 
however much, to go through it. We would suggest that we 
provide an overview. We can do it at the staff level. I would 
appreciate Members who would like to spend the time and really 
go through this. This is tough. I am the first to admit it. It 
is not easy. The science and the body of science that is taken 
into account is complicated.
    So, we would like to make that offer in whatever form you, 
Mr. Chairman, would like to arrange. We will come back up with 
charts and documents to show you just what the lay of the land 
is and then, give you the benefit of the process we went 
through.
    Secondly, Mr. Chairman, given the technical and complex 
nature of this, a lot of these questions do not lend themselves 
to a yes-or-no, or a one-word, two-word, three-word answer. I 
was hoping with your leave that we could elaborate in the 
record on questions raised at this hearing, where appropriate, 
and as future air questions come up. If I cannot answer them in 
two or three words given the technical nature, would request 
that we might answer them for the record. If that is, in terms 
of the time constraints, acceptable. I am more than happy to do 
this any way but I really feel like, people want to keep their 
time in line and it is hard to do it on a technical issue of 
this nature.
    Mr. Lewis. I am appreciative of your concern about 
technical understanding and we certainly will take that into 
consideration here and discuss it with the Members.
    Ms. Browner. Okay.
    Mr. Lewis. But beyond, essentially you are asking to revise 
and extend and while we can add addendum to----
    Ms. Browner. I am not asking to change anything from this 
morning.
    Mr. Lewis. Yes. Well, it is important that our rules do not 
allow that.
    Ms. Browner. I am not asking to do that.
    Mr. Lewis. But, indeed, we would allow you to add 
additional material.
    Ms. Browner. Right. I am not asking to change anything I 
have said. I am just asking if we could add additional material 
as we get more questions because I do not think the time may 
allow for the kinds of in depth answer that are required.
    Mr. Lewis. That is fine.
    Ms. Browner. Thank you.

                                  WIPP

    Mr. Knollenberg. Let me go into another matter and it has 
to do with WIPP. And I appreciate, by the way also, the fact 
that your people visited with my staff yesterday in regard to 
WIPP and my belief is that this is the first geologic 
repository for radioactive waste in this country and maybe in 
the world. I am not convinced about the latter.
    But I want to talk about EPA's role in the WIPP commitment 
and just starting up the WIPP. I understand that what we are 
waiting for here is a key step that still is outstanding that 
is authorizing this facility to start up. In the compliance 
certification application or in approving that certification 
which I believe falls under the purview of your agency, does it 
not?
    Ms. Browner. Yes, it does. We have to certify that WIPP 
will comply with radioactive waste disposal standards.
    Mr. Knollenberg. And, as you can probably guess, I am very 
interested in the regulatory morass, not just as it applies to 
WIPP but to other DOE activities, because the success of this 
effort paves the way for waste disposal activities at Yucca, 
namely, spent fuel and others.
    I am very interested in understanding your commitment to 
getting this facility started up and one of the concerns I have 
is this: Recently, it is my understanding that the DOE 
announced that the start-up of the facility would slip from the 
end of 1997 to May of 1998.
    Ms. Browner. Right.
    Mr. Knollenberg. Because it has taken that much time to 
declare the application to be complete, is that true?
    Ms. Browner. No. If I might just explain the process. First 
of all, WIPP----
    Mr. Knollenberg. Well, it is May of 1998 now, though, is it 
not?
    Ms. Browner. But that is not for a completeness 
determination. That is for a final decision which is a very 
different thing than a completeness determination.
    Mr. Knollenberg. Yes, I know. Well, that is my next 
question, but go ahead and answer, maybe you can answer both of 
them.
    Ms. Browner. Okay. It is very important to understand, I 
think, just one thing. Yucca Mountain and WIPP are two 
absolutely separate things. They are not related.
    Mr. Knollenberg. I know. Do not tell me about that. I know 
that.
    Ms. Browner. Oh, I am sorry, I thought you said that it 
would provide for use of Yucca. I apologize.
    Mr. Knollenberg. I just mentioned Yucca as it would pave 
the way for. In other words, if you got one going, maybe the 
other will loosen up.
    Ms. Browner. Oh.
    Mr. Knollenberg. If you want to delete that from 
consideration of answering the question, fine, do so.
    Ms. Browner. Okay. I met with Secretary Pena just last week 
on this issue--we have repeatedly said that once the DOE 
application is completed, it will take a year for us to make 
our final determination because of public comment, notice and 
all of that. We hope that the application will be complete in 
May.
    The outstanding issue----
    Mr. Knollenberg. May of this year?

                        WIPP: Schedule of Review

    Ms. Browner. May of this year, right. The outstanding issue 
has to do with a peer review process that the Department of 
Energy is involved in on one of their models. If their peer 
review panel certifies that it is all okay and in accordance 
with that process, then things can move along very quickly. If 
the peer review panel says the model does not meet scientific 
standards, then--and I do not want to speak for the Department 
of Energy----
    Mr. Knollenberg. Right.
    Ms. Browner. I think you better ask them how much longer it 
is going to take them to fix their model.
    Mr. Knollenberg. I know you have met with Secretary Pena 
more recently and I think that is positive and I commend you 
for opening those lines up. I presume you will be continuing 
those meetings with him?
    Ms. Browner. Yes.
    Mr. Knollenberg. I understand that he is going to be down 
tomorrow----
    Ms. Browner. Yes, he is going to visit.
    Mr. Knollenberg [continuing]. Rather Thursday and Friday, 
is it?
    Ms. Browner. Yes, I think that is correct.
    Mr. Knollenberg. Have you been there, yourself?
    Ms. Browner. No, I have not. We would like to receive the 
application, at which point then it would be appropriate to 
visit. I know Mary Nichols has visited there. A lot of people 
have visited.
    Mr. Knollenberg. Now, EPA has the responsibility for 
administering both RCRA and CERCLA.
    Ms. Browner. Yes.
    Mr. Knollenberg. That is a function of yours. I am trying 
to think of a way that maybe we could help you in some fashion. 
I do not know if it is legislation or whatever, but is there 
any way to keep these processes ongoing from your perspective 
or DOE's perspective in a tandem way, without compromising or 
sacrificing the quality of your investigation?
    Ms. Browner. We are, in fact, moving forward. As DOE 
provides things to us we do the analysis, we get back to them 
with any questions. We have to make the completeness 
determination. That then triggers a clock that defines the 
timeframe for public notice and public comment. I think it is 
in everyone's interest to ensure that when we make that 
determination that, in fact, it is complete, because this will 
be litigated and we all want to be able to defend the final 
decision.
    Mr. Knollenberg. Well, I would just encourage you to find 
ways to do it in tandem, if that is possible.
    Ms. Browner. Yes, we are.
    Mr. Knollenberg. I do not expect you to compromise the 
integrity of what you are doing.
    Ms. Browner. We appreciate that.
    Mr. Knollenberg. But I do think that every--to compress the 
schedule in some way, we get a little gun shy when they set 
dates and the dates keep sliding. And I recognize the huge 
forces out there that are----
    Ms. Browner. We have not gotten the information from DOE 
and that is what Secretary Pena and I visited about. We also 
discussed compressing the schedule once we get it. Right now, 
it is being reviewed by a peer review panel. If it is a 
positive, if it is a ``go'', then I think we will go very 
quickly. If it is a ``no'' then the Department of Energy has to 
revisit why their modeling did not meet the scientific 
protocols.
    Mr. Knollenberg. All this true waste. I have been to Rocky 
Flats, for example, stacked up in 55-gallon drums, six drums up 
to the ceiling and it is ready to go if there is just a place 
to put it. So, we would sure like to see that happen. That 
would be fruition. I think that would be one monumental step in 
this whole process of getting rid of, not just true waste, but 
I likened it to paving the way for the situation in Yucca. But 
this is a step I think is doable. I think we ought to move in 
that direction. If we can help in some way we would like to.
    Ms. Browner. Okay.
    Mr. Knollenberg. Suggest that, if you will.
    Thank you.
    Ms. Browner. Thank you.
    Mr. Knollenberg. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Knollenberg.
    Mr. Wicker.
    Mr. Wicker. Thank you, Mr. Chairman.
    First, a question to Chairman Lewis for clarification. You 
mentioned Mr. Freylinghuysen's great contribution on behalf of 
the Subcommittee and that he would be given leeway. Even though 
I am new to the Subcommittee, would I be allowed to ask 
provincial questions also, Mr. Chairman? [Laughter.]
    Mr. Lewis. Well, as long as you asked before asking the 
question, no. [Laughter.]
    Just proceed in your time, Mr. Wicker.

                  gulf of mexico: oil and gas permits

    Mr. Wicker. First, I want to ask about permits for oil and 
gas operations in the Gulf of Mexico.
    And I would point out to you that the entire Mississippi 
Delegation, House and Senate, Republican and Democrat alike, 
wrote you, Ms. Browner, on March 12, 1997. The letter raises 
our concern about Region IV's proposal in this regard which 
would require an individual rather than general permit for 
operations in water depths of 20 meters or less in the Gulf of 
Mexico.
    Our concern is that this proposal will cause additional 
costs and delays in acquiring the individual permits. But also, 
we are concerned that there is no scientific basis for this 
requirement and, particularly in light of the fact as pointed 
out in our letter, that this regulation seems to apply only to 
Region IV. For example, Region VI, which also includes some 
Gulf of Mexico areas, does not have a depth restriction for oil 
and gas activities and, in addition, other regions on the west 
coast do not have such a requirement.
    So, I am wondering when are you planning to respond to the 
letter? And what can you say with regard to the disparity 
between the regions?
    Ms. Browner. First of all, I believe we are still in a 
public comment period, so we are hearing from people in the 
industry and States as to what they think is the best course of 
action. We will provide that to you. I may be wrong, it may 
have recently closed. At any given time we have hundreds of 
public comments going on so that we can hear from people. And I 
think that one is still in a public comment stage.
    It is extremely important for us, in this area or in any 
area, to recognize that ecosystems in different parts of the 
country are fundamentally different and what might be right for 
a portion of the Gulf of Mexico might not be right for another 
portion. Certainly the Gulf of Mexico is not identical to the 
west coast, the east coast, the Great Lakes.
    We have a program at EPA for evaluating impacts of certain 
kinds of activities below certain thresholds. If we determine 
that the impacts are negligible, then a general permit is the 
vehicle for allowing those activities to go forward. In other 
words, rather than making an individual permit application, the 
company says, we meet these requirements and it is automatic 
that they have a general permit.
    We revisit those general permit guidelines on a regular 
basis because facts change and the science changes. The number 
of activities in an area also changes and, therefore, the 
cumulative impact of effects in an area may change. That is 
what we are taking comment on in this case, which is whether or 
not a general permit, given the impacts of these kind of 
activities in this precise area, is still warranted. We have 
not made a final decision. We are taking comment on it and will 
review all the comments we receive before making a final 
decision.
    Mr. Wicker. Okay. Well, I appreciate that. And I would just 
simply point out that the letter asked you to address the 
science. And what you are telling me is that maybe part of the 
Gulf of Mexico needs 200 meters or less and another part of the 
Gulf of Mexico does not. We would be very, very interested in 
the specifics on it.
    Ms. Browner. Science is a word that can be used to mean a 
lot of things. One of the things it addresses here is the 
impact on the health of the Gulf of Mexico. Science shows us 
the cumulative impact of certain types of activities in terms 
of the water quality and marine life. The science helps to 
inform whether you would make different decisions for different 
parts of the Gulf.
    As you know, the Gulf is not one unified system. The 
shoreline of Florida is dramatically different from Louisiana, 
Mississippi, Texas, not to mention Mexico. So, that is what we 
are trying to take into account.
    Mr. Wicker. Okay. So, it is a proposal and we await your 
letter.
    Ms. Browner. Okay.

               methylene chloride: scientific peer review

    Mr. Wicker. Let me ask you, if I can, about actually an 
issue that deals also with OSHA and it deals with the substance 
known as methylene chloride. On January 10 of this year, OSHA 
published a new regulation on the exposure level of methylene 
chloride in the workplace. Now, my question, Ms. Browner, is 
going----
    Ms. Browner. You are talking about the stuff--I just want 
to make sure I have the chemical right--that they use to put 
pipes together? No.
    Mr. Wicker. No.
    It is used in----
    Ms. Browner. Oh, I apologize, I am sorry, I know what you 
mean.
    Mr. Wicker [continuing]. Some cleaning operations, it is 
also used in making foam which is very important in the 
furniture business.
    Ms. Browner. I apologize, right.
    Mr. Wicker. Okay. And my question is going to be with 
regard to EPA's peer review of OSHA's methodology. But let me 
place this question in the record. OSHA claims to have the best 
and most innovative science, but this new proposal has caused 
quite a controversy. In developing the regulation, OSHA based 
its scientific conclusions on a study of mice in 1985. However, 
several more recent human studies show that methylene chloride, 
when used appropriately as it is intended, does not lead to an 
increased risk of cancer.
    The human studies also have concluded that the mice study 
cannot be used to estimate the risk of human exposure. Just 
yesterday I discussed this science with environmental health 
specialist at the Centers for Disease Control. I was on the 
same delegation as Mr. Stokes. And based on my conversation 
with these specialists, I am even more skeptical now than 
before about the scientific methodology of OSHA's approach.
    Having described the situation, I would like to ask about 
EPA's peer review of OSHA's methodology concerning methylene 
chloride. Considering the controversy surrounding OSHA's unique 
methodology, I would like to know what the EPA study yielded?
    Ms. Browner. If we might respond for the record? I do know 
that we are assessing the methodology that was used. I do not 
think we have completed that. We would like to respond for the 
record on the status of that and our participation in any other 
related peer review process.
    Mr. Wicker. Good. In addition, when you do that, would you 
forward to me the documentation that accompanied the peer 
review.
    Ms. Browner. I am sorry, what documentation? We will give 
you any documents we have. I want to make sure I understand 
what you want.
    Mr. Wicker. Okay, great.
    Ms. Browner. Is it documents that OSHA gave us? We are more 
than happy to give them to you.
    Mr. Wicker. Fine. Any documentation that you have.
    Ms. Browner. You want everything we have on this, okay, 
fine.
    Mr. Wicker. Yes.
    Mr. Lewis. Short of a truck.
    Ms. Browner. You do not want it, he wants it, right? 
[Laughter.]
    Mr. Wicker. If it is going to be a problem publishing it 
all in the record of this hearing, then perhaps my staff can 
work with yours on that.
    Ms. Browner. Yes, we will provide it. That is no trouble.
    [The information follows:]

[Pages 283 - 287--The official Committee record contains additional material here.]


    Mr. Wicker. I simply say, you know, we have a study of mice 
in 1985. It shows that you can give mice enough methylene 
chloride to cause cancerous tumors. The study of the rats seems 
to indicate that even the rats would not get cancer with 
methylene chloride. But beyond that, we have two very scholarly 
studies, one in 1987 and another one in 1990, involving over 
1,000 human beings who worked with methylene chloride in the 
work place. And those two studies concluded that there was no 
risk for cancer and the information which I received at CDC 
yesterday is that when you can do an epidemiological study with 
humans that is almost always a better indication of the effect 
in the work place.
    Ms. Browner. I would not want to stake my reputation on 
whether one study is always going to be better than another 
study. There are a lot of factors that go into studies. 
Certainly epidemiological studies are an important part of how 
decisions are made on public health protection, but so are 
animal studies.
    The real issue here is the risk assessment methodology and 
the weight of the science. We are more than happy to provide 
you with everything we have in that respect.
    Mr. Wicker. Fine. I very much appreciate that.
    Now, do I have time for a few more questions? Do I have the 
rest of the afternoon?
    Mr. Lewis. You have very limited time at this point.
    Mr. Wicker. All right. Well, perhaps, I can----
    Mr. Lewis. We will be getting back to you shortly. We are 
going to have more than one round.
    Mr. Wicker. That is very good. I might take another round.
    Thank you so much, Mr. Chairman.
    Mr. Lewis. But, please, you want a couple of minutes?
    Mr. Wicker. If you do not mind?
    Mr. Lewis. Go ahead.

                            pm 2.5 monitors

    Mr. Wicker. Let me get back to a subject that I understand 
was addressed this morning with regard to PM 2.5. Specifically, 
let me ask you this: How many PM 2.5 monitors does your agency 
currently have in operation?
    Ms. Browner. There are 50 cities that were measuring 2.5 
levels, the concentration levels of PM 2.5. There is not a 
Federal reference methodology for a national monitoring network 
because there never has been a standard for PM 2.5 in the way 
there is, for example, for Ozone.
    In the public comments that we have solicited since 
November we have asked for comments on how such a network 
should be put in place.
    Mr. Wicker. It just seems to me that at first blush we 
should put more monitors in place. Find out how much of PM 2.5 
is actually there in the atmosphere and how it actually affects 
the population where they live and where they breathe before 
implementing new rules.
    Ms. Browner. There is a large amount of information, 
scientific information about what happens to individuals when 
PM 2.5, which is a different pollutant than anything else, 
reaches a certain level in the air. Data collected includes 
health records, death certificates, hospital admissions, 
medical records.
    I appreciate the question and think I understand the thrust 
of it. It is a question we have been asked many times in the 
course of the last year, which is, how can you propose--we have 
not made a final decision--to set a standard for 2.5 if there 
is not currently in place a Federal reference methodology in 
terms of which monitors? Before any steps are taken to reduce 
the concentration levels of this pollution of 2.5 pollution, 
there has to be a system in place. That is what the law 
envisions and it is what the law provides for. The budget 
before you seeks money to do exactly that.
    The fact that there is not a Federal reference methodology 
currently in place does not exclude the fact that there is a 
large amount of information about human health effects in the 
population, not mice. This information was obtained from 
measurements of 2.5 from monitors in cities across the country.
    Mr. Wicker. And one quick, final follow-up question, and 
then I will be through.
    Mr. Lewis. Go ahead, as long as you stay for the rest of 
the afternoon. [Laughter.]

                  pm 2.5 peer reviewed health studies

    Mr. Wicker. Apparently, there is a Harvard study which has 
just been released, upon which you based much of your 
conclusions. Is that correct?
    Ms. Browner. No, that is not correct. The Harvard study you 
may be referring to was, I think, released 3 years ago. It is a 
peer-reviewed, published study. It is one of 86 PM studies that 
were subsequently peer-reviewed by our external panel. These 
are not EPA studies. These are studies done at institutions 
across the United States. They are all peer-reviewed, published 
studies. Harvard is one of 86 studies.
    Mr. Wicker. I will just point out that there was a National 
Institute of Statistical Sciences, NISS, study in North 
Carolina which challenged the Harvard study as flawed because 
it did not factor in the differences in humidity and its effect 
on PM 2.5. I would just like to ask you to comment on that. Are 
you familiar with it?
    Ms. Browner. Mary Nichols believes that that study was 
considered by the peer review panel. What I would like to do, 
Mr. Chairman, is provide to this committee the bibliography of 
these 5,000 studies that were reviewed in the course of a 4-
year period, the 250-plus studies that then formed the basis 
for the CASAC ongoing review.
    The threshold is peer-reviewed and published. I think the 
study you may be referring to, while it was discussed, is not a 
peer-reviewed or published study, but we will check that fact 
for you.
    Again, every study that was ultimately considered that 
became part of the very detailed process was published and 
peer-reviewed, not by EPA, but by other organizations. These 
are largely not EPA studies, but studies done by experts around 
the country.
    Mr. Wicker. Well, Mr. Chairman, that may be helpful to you. 
I am not asking for a bibliography, but I would ask that they 
comment on whether they considered this factor of humidity as 
affecting different localities.
    Mr. Lewis. Maybe I could help you just a little bit, Mr. 
Wicker.
    Ms. Browner. We do not think that is a peer-reviewed or 
public report, but we will check that for you.
    Mr. Lewis. Maybe this would help. The study that you 
referred at the beginning of your comment to try to get to your 
study had to do with a Harvard study, and the question really 
was not whether the results had been published, for the results 
had, but the people who are affected potentially by any 
rulemaking that is based upon such a study have never had the 
opportunity to evaluate the data and the pros and cons and so 
on that went into that study.
    It is easy to say that, well, that often happens, but in 
this case, it is a very, very important driver behind the 
rulemaking process, and I am concerned about that. So if you do 
not want a bibliography, and others may want one, if you would 
like to have the backup material besides just----
    Mr. Wicker. I appreciate that.
    Ms. Browner. It is available. That is the number we gave 
Mr. Knollenberg.
    Mr. Lewis. Mr. Wicker, thank you very much.
    Mr. DeLay.
    Mr. DeLay. I would like the bibliography, particularly on 
the 1986 studies that you based your decision on, and if you 
could, since you looked at those 1986 studies, I would like to 
know whether they supported the agency position or whether they 
used PM 2.5 data.
    Ms. Browner. We have a summary of what the focus of each of 
the studies was. We are more than happy to give you any or all 
of them.
    Mr. DeLay. Okay. That would be really good to look at.
    Ms. Browner. Good.
    [The information follows:]

[Pages 291 - 300--The official Committee record contains additional material here.]


    Mr. DeLay. Again, I do not want to beat a dead horse, but 
some of the statements that you make--and probably some of the 
statements I make do not exactly thrill, you, either--but I 
just want to pursue some of them.
    We were talking about--you said there is a large body of 
science that says that PM 2.5 is a causality of all these 
things that are happening when the diversity of opinion 
amongCASAC members underscores that there are many unanswered 
questions--and I am quoting, by the way, from Mr. Wolf--``and 
uncertainties associated with establishing causality between 2.5 and 
premature death. For the PM, there is no agreement among the members as 
to what exactly the science says,'' says Mr. Wolf.
    And then, you keep talking about there is no decision yet, 
but in your speeches and in your comments to this committee and 
others, it is as if the decision has been made as to what is 
going on.
    You said here in this room that this is not about barbecue 
or lawnmowers, kind of dismissing the fact--you did not do it, 
but some people have laughed at the fact that people are 
looking at barbecues and lawnmowers, how ridiculous.

                      ozone: notice of rulemaking

    But Ms. Browner, you have argued vehemently that the new 
clean air standards are not about barbecues and lawnmowers. You 
have said that those who argue otherwise are simply engaging in 
scare tactics. But if that is the case, how do you explain an 
Advanced Notice of Proposed Rulemaking in the March 25th 
Federal Register aimed at reducing ozone emissions by 
regulating, and I quote, ``hand-held equipment such as leaf 
blowers, saws and trimmers, non-hand-held equipment such as 
lawnmowers, and generation sets''?
    Ms. Browner. We have had a wonderful, positive working 
relationship with the small engine manufacturers in the United 
States. In fact, I just met with some of the lawnmower 
manufacturers. Together, we have been able to design cleaner 
small engines. Small engines are a source of air pollution in 
this country. The small engine manufacturers recognize that. 
Today, because of the partnership between EPA and lawnmower 
manufacturers, you can go to your local hardware store and buy 
a cleaner lawnmower that is good for your family, good for your 
community, and good for the country. This is what I think is 
the really proud history.
    No one is required to buy a cleaner lawnmower. There is no 
requirement anywhere in the country that anyone replace his 
lawnmower.
    Mr. DeLay. You are not answering my question again. What 
about the Notice of Proposed Rulemaking published in the 
Federal Register?
    Ms. Browner. We are now working with those small engine 
manufacturers to design a cleaner engine for other types of 
small engines.
    Mr. DeLay. The point is that you are having to look at 
regulating such things as lawnmowers in order to meet the 
standards that are already in place--already in place--PM 10 
and ozone. If you make the standards even tougher, which will 
push hundreds of counties into non-attainment, you will be 
forced to look at the items that the public use in their 
everyday lives. And I do not believe you are being very honest 
when you deny that the public will not have to sacrifice their 
lawnmowers and their barbecues and what they have come to--and 
I know you are going to call that scare tactics, but----
    Mr. Lewis. Would the gentleman yield on that point?
    Mr. DeLay. Yes.
    Mr. Lewis. Just to help this nonscientific layman out, 
unless I am mistaken, PM 2.5 involves a pollutant that relates 
to burning of organic material----
    Ms. Browner. Generally correct.
    Mr. DeLay. Generally correct. And if that is the case, then 
I can see cleaning establishments, I can see restaurants, in a 
State's interpretation of their SIP, requiring all kinds of 
questions. And yet even for this layman, theoretically, the 
burning of organic material by way of barbecues--some State or 
some region might decide that, look, we are against the wall. I 
mean, it seems wild, but----
    Ms. Browner. What Governor is going to decide that, with 
all due respect?
    Mr. DeLay. I can tell you one right now, if I can reclaim 
my time. Right here in Alexandria--now, for a different 
reason--Alexandria decided to ban barbecues.
    Ms. Browner. But what was the reason?
    Mr. DeLay. Do you know how long that last--for fires. But 
it does not matter. If you are publishing a rulemaking on 
barbecues--I mean, on lawnmowers----
    Ms. Browner. There is no rulemaking on barbecues.
    Mr. DeLay [continuing]. On lawnmowers--the point is that 
thousands of barbecues--and I do not want to belabor barbecue--
the point here is they tried it in Alexandria, and it lasted 3 
months, and the entire government almost got thrown out on 
their ear--not for ozone, but for burning barbecue within 10 
feet of a building. Do you know what those buildings are down 
there? They are all condos, and everyone has a barbecue on his 
balcony. So they were banning--governments do that, you know. 
It is not ridiculous. And I just want to quote from----
    Mr. Lewis. If you would yield for just a moment, I know 
that it is sensitive to carry these things to this point, 
because the public reacts if they think you might--but what 
Governor would do ``x''--the response to that is that if the 
State and the Governor are against the wall, and they have no 
more room, they will be suggested by--it is conceivable--I can 
imagine there might be some people with the Lung Association in 
California who might even suggest some of these crazy things.
    Mr. DeLay. They have in their articles, and some of the 
people that you give grants to have suggested such things.
    I want to quote from an article by Alan Krutnik that was 
written last year, a Senior Future in the Resources for the 
Future Quality of the Environment division and co-chair of the 
Ozone Federal Advisory Committee Act Subcommittee for Ozone 
Particulate Matter, formerly a senior economist on President 
Clinton's Council on Economic Advisors. I quote: ``Most of the 
gains to date have been achieved by imposing very effective but 
costly regulations on big companies, utilities, oil refineries, 
auto manufacturers, steel producers and the rest. Achieving 
further large reductions in emissions would be both difficult 
and even more expensive. More promising targets for reductions 
now involve people's travel, their recreation and their lawns. 
The City of Baltimore has calculated that motorboats and 
lawnmowers alone currently contribute more ozone to its air 
than all of its industry put together.''
    This is a gentleman who was in the Clinton administration 
and is very concerned about the approaches and the comments 
that have been taken.

                        PM 2.5: Premature Death

    Quickly, on number of deaths, last May, the NRDC told the 
American public that 64,000 lives per year were at stake 
because of PM 2.5. You just said a large body of thought 
relates 2.5 to many problems--in fact, I wrote it down here 
somewhere, but I cannot find it. Anyway, your first 
announcement of the new rules proclaimed 40,000 premature 
deaths would be prevented, only to back off to 20,000 because 
20,000 deaths would already be prevented whether or not a new 
standard was set. Then, last week, you announced that you had 
made a mistake, that the estimate of preventable deaths was not 
20,000, but is now 15,000.
    Why should we believe that number?
    Ms. Browner. We have never said that setting a PM 2.5 
standard would prevent 40,000 premature deaths. We have always 
pointed out that the acid rain program is resulting in 
reductions of 2.5 and protecting public health.
    From the moment we announced this, we have always been very 
clear that this proposal addressed a subset of the total number 
of human lives affected by----
    Mr. DeLay. What is your number now?
    Ms. Browner. The total number of people affected----
    Mr. DeLay. No--total number of deaths that is your number.
    Ms. Browner. I apologize.
    Mr. Lewis. Premature deaths.
    Mr. DeLay. Premature deaths.
    Ms. Browner. Premature deaths is a range, based on the best 
available science. The range is between 35,000 and 55,000 
premature deaths, total numbers not deaths avoided. Some deaths 
are prevented by reducing acid rain. There are two ways in 
which you provide the protection.
    Mr. DeLay. Avoided deaths.
    Ms. Browner. The total number of deaths----
    Mr. Lewis. Premature deaths.
    Ms. Browner [continuing]. Premature deaths--from fine 
particles range between 35,000 and 55,000 a year. Approximately 
20,000 of those can be avoided and will be avoided through the 
work we are all doing on acid rain. We project, based on the 
scientific studies that approximately 15,000 will be avoided by 
setting a 2.5 standard.
    There are two ways in which you address the problem. In 
proposing and taking comment on a standard we took into account 
the progress being made through the acid rain program.
    Mr. DeLay. But my point is--and I am glad you admit to the 
now 15,000--but it is my understanding that you admitted to a 
mistake after 3 years of review of this body of thought. Four 
of the five studies that you list in your briefing documents 
under the heading, ``Particular Matter: The Science Calls for 
Action,'' contain data that has not been independently 
verified.
    You have said that this data has been peer-reviewed upon 
peer-reviewed upon peer-reviewed, so it does not matter that it 
is being kept secret, but we find that peer review did not work 
in this case, after 3 years. Nobody caught this mistake. People 
needed to manipulate the data to learn what it means, and when 
you are about to impose a huge regulatory cost on society, the 
more people who analyze the data, the better. That is the point 
we have been trying to make all day today----
    Ms. Browner. We agree, we agree.

                      PM 2.5: CASAC Recommendation

    Mr. DeLay [continuing]. Is the more people who have the 
data--but your own people say there is not enough data to make 
this kind of decision--CASAC.
    Ms. Browner. No, I disagree that that is what CASAC said. 
We may just disagree----
    Mr. DeLay. Well, I do not want to go back and review that 
again, but I have got to tell you, you are trying to--I do not 
know what you are trying to do, but 19 out of 21 said something 
ought to be done with PM 2.5. We will set that aside and agree 
with that, right?
    Ms. Browner. That is not insignificant.
    Mr. DeLay. Well, but you are trying to equate that to the 
standards. The standards, only two people said there was enough 
data to----
    Ms. Browner. No. I disagree.
    Mr. DeLay. Well, I am not going to argue the fact. It is 
the case, and we can prove it, Mr. Chairman, with the stuff 
available to us.
    I think I probably--I wanted to go to self-audits, but I 
will wait until you get there, Mr. Chairman.
    Mr. Lewis. I think we probably ought to try to move 
forward.
    Mr. DeLay. Okay.
    Mr. Lewis. Ms. Kaptur.

                       PM 2.5: Effet on Industry

    Ms. Kaptur. Thank you, Mr. Chairman.
    Administrator Browner, I wanted to comment that as you are 
asked about the clean air standards for particulate matter, the 
issue is being framed as an either/or--we either have health, 
or we have jobs--and if we have health, it is going to cost 
industry too much to pay the cost of that.
    I wanted to ask you if you view these two goals as mutually 
exclusive, and assuming the standards that Mr. DeLay was 
objecting to were in fact to be the final standard, how do 
communities position for that post-July 13th or 15th or 
whatever the date was? I have several oil refineries in my 
region, I have many heavy manufacturing plants, and frankly, I 
think the people who work there and live in our community want 
both clean air and jobs.
    So what are the options that are available to communities 
down the road, assuming that standard is adopted to have both?
    Ms. Browner. I think there is a long history under the 
Clean Air Act of finding cost-effective solutions forreducing 
the pollution. Every time we have tried as a country to set a tough 
public health air standard, there have been some in industry who have 
said, ``No way, life as we know it will come to an end.'' What we have 
found is that by setting tough public health air standards, benefits 
have flowed to the American public in the level of public health 
protection. The costs have been far less than industry and EPA 
projected on the front end.
    On the acid rain program, when Congress first debated the 
acid rain program, industry projected that the per-ton 
reduction would exceed $1,000 per ton. EPA itself projected 
that it would be $600 per ton. Today, at the Chicago Board of 
Trade, a credit sells for less than $100 a ton. It just shows 
you what happens when we put our minds together, Government and 
industry, to find solutions. We can have both a healthy economy 
and a healthy environment. That is the challenge that, if we 
make this final decision, we will all be accepting. There is no 
doubt in my mind that we will once again rise to that occasion.
    For the companies in your district and your State, what is 
important for everyone to understand is that this is just the 
public health phase. When a final decision is made about the 
public health phase in July, if it is to strengthen the 
standards, any steps that any individual industry or facility 
would be required to take to reduce its pollution to benefit 
the public health, would be subject to public notice, comment, 
debate, and discussion. Those steps are spread out over a 7-to 
10-year period. This is hardly a rush to judgment on where you 
go to find the cost-effective, common sense solutions for 
reducing pollution.

                       NAAQS: Industry Compliance

    Ms. Kaptur. So that, for example, if there are four 
refineries in Ohio that would be affected, what process would 
they enter in--let us say one of them today is saying to me, 
``It is going to cost me $100 million to meet this new 
standard, and therefore, we would probably close in your 
area''--where do I take that company now or in July to try to 
say no, it is not going to be that burdensome? what 
alternatives are there?
    Ms. Browner. There are two places. One is that we at EPA 
will have a responsibility for looking nationally at where we 
can get the greatest, most cost-effective reduction. So we will 
be meeting with industry representatives and creating processes 
such as negotiated rulemaking, and engaging the industry in the 
process. If that particular facility is a part of an industry, 
they would be eligible to participate.
    It may well be that they are doing everything we would do 
to comply with a national standard already, and that they may 
want to work with their State government for additional 
reductions in the level of pollution. So the process two-fold.
    When we and the States get together, we agree on who is 
going to do which piece of the puzzle, and then we work with 
industry and the States. The States take primary leadership for 
one aspect of it.
    Ms. Kaptur. Has the Federal Government ever proposed tax 
credits to some industries that would be particularly hard-hit 
because of either their geographic location or their particular 
industrial category?
    Ms. Browner. During the Clean Air Act debate of 1990, in 
fact, there were amendments offered along those lines. I know 
there was an amendment debated in the Senate--I think it 
ultimately failed by one vote--that would have provided some 
relief to some of the coal mining industry that people thought 
might be particularly hard-hit by reductions in air pollution. 
So these things have certainly been the subject of a lot of 
public discussion and debate previously.
    Ms. Kaptur. Do you or staff have any available information 
if we have industries that would want to ``game'' their 
potential cost, or if they have estimates themselves, are there 
people they can talk to today so that we can better understand 
what the likely impacts might be?
    Ms. Browner. Absolutely. Again, we have not made a final 
decision. We have taken comment on a range of concentration 
levels. What we are more than happy to do is work with anybody 
who might be affected. This plays out over a very long period 
of time. We cannot tell you with any certainty today which 
industries might make what reductions because there is a whole 
public process to be gone through. What we can do is tell them 
from an historical perspective what might occur. That is all we 
can do. The Clean Air Act, I think, was very effective in 
saying first you protect the public's health; then, you have a 
very rigorous process of determining where you get the 
pollution reductions to meet the public health standards.
    We are only in the public health phase at this time.
    Mr. Lewis. Ms. Kaptur, would you yield to Mr. Knollenberg 
for just a moment?
    Ms. Kaptur. I would be happy to, absolutely--my neighbor.
    Mr. Knollenberg. Thank you, Mr. Chairman, for yielding to 
me.
    I just wanted to indicate that I will submit some 
additional questions for the record.
    Ms. Browner. Certainly.
    Mr. Knollenberg. I also want to submit a summary of the 
CASAC panel members' recommendations that I would like to have 
included in the record as well.
    With that, I thank you.
    Mr. Lewis. Thank you.
    [The information follows:]

[Page 307--The official Committee record contains additional material here.]


    Ms. Browner. If we might also have a copy of that?
    Mr. Knollenberg. You may, absolutely.
    Ms. Browner. Thank you.
    Mr. Lewis. Thank you.
    Ms. Kaptur.

                     NAAQS: Industry Participation

    Ms. Kaptur. Thank you, Mr. Chairman.
    I would just say to the Administrator that if I were to 
gather four or five industries in my area soon, where we might 
work this through, at the point where it is proper to do so in 
the rulemaking context, I would really enjoy doing that. I have 
some manufacturers and some refiners, and I think it would help 
me when faced with potential votes on this down the road.
    Ms. Browner. We would welcome that opportunity. We are 
using what is called a Federal advisory committee made up of 
industry representatives, small and large businesses, and state 
and local governments. They have been engaged in a very 
detailed discussion about what the steps toward future 
implementation might be, because even though we have not made a 
final decision, we thought it would be helpful for people to 
have that kind of discussion regardless of where that might 
end. If there are additional parties who want to participate in 
this process, we would be more than happy to facilitate that.
    Ms. Kaptur. Thank you very much.
    Ms. Browner. These meetings are huge. There are 40 or 50 
people just at the table and about 100 in the room. They are 
having intense discussions about just how do you actually do 
something like this if that is where this ultimately leads.

                      BIOSOLIDS: BENEFICIAL REUSE

    Ms. Kaptur. Mr. Chairman, I jut have one brief final 
question in a totally different area which we addressed a 
little earlier, and that is the reuse of organic material, 
biomass. We have at least ten times as much animal waste on the 
agricultural side as we have human waste that we are trying to 
reprocess and reuse in a world that is starving for organics.
    My question is to what extent is EPA proactively involved 
on the animal waste side?
    Mr. Lewis. Brother Bob. [Laughter.]
    Mr. Perciasepe. Thank you. Again, I am Bob Perciasepe, 
Assistant Administrator of Water.
    EPA has regulated animal waste from agricultural activities 
in the form of concentrated animal feeding operations where 
there are large numbers of cattle or chickens or hogs. The 
standards for controlling pollution from those activities were 
developed quite a while ago, and many of these practices and 
concentrated animal feeding operations have changed 
substantially over the last 10 to 15 years. We are once again 
working with the industry, the different producer groups such 
as, pork producers, to consider revising some of our standards 
in this regard. They are doing the technical engineering work.
    When we do that--and we are starting to do that this year 
as part of our ongoing effluent guidelines program--we will be 
looking very hard at the reuse issue. Over the long haul, as we 
get more and more concentrated animal feeding operations, the 
use of that material and the treatment of it are going to be 
driven by ways to recycle and reuse, both in the operation 
itself and in other beneficial uses. That will be very much 
part of our program.
    Ms. Browner. I think it presents a challenge when you have 
these very large operations with a lot of animal waste being 
produced on a daily basis. A dairy cow, for example, produces 
80 pounds a day of waste. It is a challenge because of the 
large amount of waste produced, but it also may provide an 
opportunity for the kinds of things that you are talking about. 
You do not have to go out and find it; it is there. You can 
make easy reuse decisions.
    Ms. Kaptur. That is right, and it is a good export 
opportunity, too, if it is properly handled.
    Ms. Browner. Yes, we agree.
    Ms. Kaptur. All right. I will submit some additional 
questions for the record on that particular point. As the 
ranking member on the agriculture subcommittee, we are very, 
very interested in that, looking at the way in which we have 
harmed our soils because of the use of pesticides over the 
years and very much interested in restoring organic complements 
to the soil.
    Ms. Browner. Absolutely.
    Ms. Kaptur. Thank you, Mr. Chairman.

                  SDWA: FY 1997 FUNDING FOR COMPLIANCE

    Mr. Lewis. Thank you very much, Ms. Kaptur.
    Now, Madam Administrator, returning for a little while to 
the Clean Drinking Water and pursuing a piece of the line that 
we were on before, for 1997, we provide just under $63 million 
for drinking water activities in the EPM account, an increase 
of almost $20 million over the 1996 level. This was in part due 
to the signing into law of the Safe Drinking Water Act 
Amendments last summer. For 1998, you have requested nearly $74 
million for the overall EPM drinking water program, and if we 
fund your budget request, you will have gone from 239 to 370 
FTE in this program in just 2 years.
    How much of the 1997 funds do you plan to use to make sure 
that those systems we were discussing earlier are the ones that 
are going to be either brought into compliance or assisted to 
meet compliance by this time next year?
    Administrator Perciasepe would you like to provide that for 
the record.
    Mr. Perciasepe. Yes, that would be fine. We are in the 
process of meeting a lot of new deadlines and aggressively 
moving ahead, and we can provide that for the record.
    Mr. Lewis. We appreciate that, and we will get 
``Perciasepe'' correct before we are through.
    Mr. Perciasepe. Perfect. My 12-year-old daughter is just 
getting it. [Laughter.]
    [The information follows:]

                SDWA Implementation: FY 1997 Obligations

    Under the implementation structure of the Safe Drinking 
Water Act (SDWA), States with primary enforcement authority 
(``primacy'') have the direct responsibility for dealing with 
public water systems and ensuring those systems' compliance 
with national primary drinking water standards. Wyoming is the 
only State that does not have primacy for the Public Water 
System Supervision (PWSS) program. In Wyoming, EPA works 
directly with individual public water systems and provides 
compliance assistance. Even in those few other States which 
lack primacy for one specific drinking water standard(s), EPA 
considers the State as the lead in working directly with their 
own public water systems to ensure compliance with all 
standards. EPA's budget includes $90 million in FY 1997 and 
$93.8 million in FY 1998 for state and tribal PWSS grants. 
Also, $1.275 billion is budgeted in FY 1997 and $725 million is 
requested in FY 1998 for the Drinking Water State Revolving 
Fund (DWSRF). Both the PWSS grants and the DWSRF monies provide 
a critical source of funding for state and facility compliance 
efforts.
    EPA Regions play a key role in compliance assistance, 
supporting primacy States in working with individual systems to 
ensure compliance. Except for the participation of EPA Regional 
drinking water staff in Agency work groups for the development 
of new drinking water regulations, EPA would classify all of 
the relevant Regional resources as integral to compliance 
efforts.
    In FY 1997, the enacted budget includes 310.5 FTE and $62.9 
million in the EPM account for drinking water activities. Of 
this amount, 224.0 FTE and $31.6 million directly support state 
and facility efforts to meet the requirements of SDWA. In FY 
1998, 369.7 FTE and $73.9 million are requested in the EPM 
account for drinking water activities. Of this amount, 262.6 
FTE and $38.7 million directly support a wide range of 
activities that assist state and individual system efforts to 
achieve compliance. In FY 1997 and FY 1998, compliance 
assistance efforts include:
    Identifying specific technologies that can be used to meet 
a standard or obtain a variance and that are affordable for 
their size of system (when none were available under the 
previous law);
    Assisting States with information on capacity development 
that they can use to set priorities for technical assistance 
and to develop affordable compliance or variance options for 
small systems;
    Ensuring that all public water systems (specified by the 
law) have a State-certified operator with the appropriate 
knowledge and training to operate their system, including any 
applicable treatment technologies necessary to meet standards;
    Developing and administering guidance for a Drinking Water 
State Revolving Fund that States can use to carry out 
compliance programs in all of the areas just listed, and to 
provide systems with subsidized loans to undertake needed water 
treatment or system rehabilitation that likely would not 
otherwise be affordable.
    The remaining FY 1997 and FY 1998 resources within the 
drinking water program component support standard setting and 
associated scientific and data collection efforts as required 
by SDWA.

    Mr. Lewis. Bob, that reminds me, I have twin sons who were 
born on the 4th of July, and they were 12 years old before they 
realized the celebration was for somebody else. [Laughter.]
    Mr. DeLay. How old are they?
    Mr. Lewis. They are considerably older than that. They are 
37-year-old liberal, young, Democratic college professors. 
[Laughter.]

                               SUPERFUND

    May the record note that Mary Nichols said, ``Yea.''
    I think perhaps the balance of these questions can be 
responded to for the record, so moving quickly then to 
Superfund, Ms. Browner, I mentioned in my earlier remarks your 
plan to increase the Superfund budget by some $700 million, 
approximately $630 million of which would be used to accelerate 
Superfund's construction activities.
    I have to tell you that I share your expressed desire to 
get all Superfund sites into cleanup as quickly as possible. 
Getting these tail-end sites cleaned up is the primary purpose 
of the Superfund program, and I frankly would be inclined to 
support fewer new initiatives, conferences, research, 
administrative oversight, press releases, and a whole variety 
of non-cleanup actions the agency takes in the name of 
Superfund if I thought you would really use the funds for 
cleanup actions.
    As I indicated earlier, though, I have real doubts that 
your plans to accelerate cleanup so as to achieve 900 
completions by the year 2000 is anything more than a wonderful, 
though impossible, campaign promise.
    Let me outline the facts as I see them. First, EPA comments 
to the contrary, there is no real evidence that the pace of 
cleanup has or will decrease. GAO has in fact testified that 
the growing complexity of cleanup of more difficult sites may 
in fact lengthen the average cleanup time beyond what is now 
10.6 years.
    I have a chart which I will include for the record--I will 
be glad to give you a copy of it as well--which is based on 
EPA's own data, which clearly indicates that the 
accomplishments of the overall Superfund program, including 
completion, have remained flat between 1991 and 1996. Nothing 
that has happened in the last year would seem to have changed 
this reality.
    Moving on, for 1997, EPA requested and the Congress 
provided $1.4 billion for Superfund. In that time, EPA 
projected a Superfund budget of $1.4 billion through the year 
2000. There was literally no evidence provided at any time that 
EPA would possibly accelerate cleanup in the manner that you 
are now suggesting.
    While we have been provided a list of candidate sites from 
which you plan to reach this magic 900 number, these lists are 
in fact little or nothing more than names on pieces of paper. 
You have provided no supplemental evidence associated with 
these names that indicates how far along any of the sites are 
in the construction process, whether the sites have multiple 
operable units, whether they are fund lead sites or Potentially 
Responsible Party, PRP, sites, or how much money has been 
obligated to date.
    I might add that we are personally familiar with a number 
of sites on your candidate list which would not be completed by 
the year 2000 even if you spent the entire request on their 
cleanup.
    Further, on pages 6-61 of your justification, you indicate 
that at the end of FY98, you plan to have 555 sites completed. 
To reach your goal of 900 will require 345 completions during 
one fiscal year--a seemingly impossible task.
    Currently law requires States to provide 10 percent of 
cleanup costs, yet to date, not one State to my knowledge has 
come forward to say they can and will pay their accelerated 
share.
    Although your budget justification states flatly that, and 
I quote, ``The cleanup of sites will be prioritized in order to 
assure that the worst sites are addressed first,'' how you can 
accomplish such prioritization cleanups during an acceleration 
exercise defies at least our imagination.
    It is our understanding that while your justification 
indicated an additional 130 FTEs will go to the Superfund 
program, the actual budget is adequate to fund just 44 FTEs. It 
is difficult to see how 44 people could be enough to oversee a 
2-year doubling of the program.
    In February of this year, GAO reported that Superfund was a 
high-risk program, vulnerable to mismanagement, waste, fraud 
and abuse. In light of this high-risk designation, we obviously 
have very little confidence that the funds you are requesting 
would be spent prudently and effectively.
    Finally, despite comments made by some at EPA to the 
contrary, every bit of evidence we have seen, including 
statistics coming out of your agency, indicates that the 
liability scheme that you operate under today actually delays 
cleanup. We have said for 2 years that it makes no sense to 
dump additional funds into a program that is running on four of 
its eight cylinders, and there is no evidence that your 
administration reforms have done any more than fix maybe one of 
the bad parts.
    Very frankly, we would like to make sure that sites which 
enter the Superfund pipeline today do not have to wait 12 to 15 
years to be cleaned up. Once again, Ms. Browner, you are asking 
us to accept as an article of faith that we should grossly 
increase funds for this program to do what it hasnever before 
done, at least in its 17-year history.
    I truly wish a campaign promise and a few administrative 
reforms could make it happen; unfortunately, I find it 
difficult to recommend spending so much of someone else's money 
on this kind of program. I do have a number of questions 
relative to the Superfund program that I will go into in 
detail, but I think that that commentary has taken up most of 
my time, so if you would like to take up the rest of my time, 
at least, to respond, I would be happy to have you do so.
    [Mr. Lewis' written questions on Superfund follow:]

[Pages 313 - 334--The official Committee record contains additional material here.]


                       Superfund: Candidate Sites

    Ms. Browner. We would be more than happy to give you a 
detailed summary statement on each of the candidate sites in 
terms of the questions you asked. We can make that available to 
you.
    Ms. Browner. I hear you saying this is nothing but a 
campaign promise. Quite frankly, if we were going to make a 
campaign promise, why wouldn't we have said we would do all 
1,300 remaining sites?
    Mr. Lewis. I do not know the answer to that question, but 
maybe it was not on the priority list.
    Ms. Browner. No, no. Our goal is based on where we have 
moved the programs today. What you will find out if we do not 
provide dollars is that there will be an increasing number of 
sites ready to go to the final phase with no money to do it. It 
is just that simple.
    There is good news for Superfund at this time. I am the 
first to say that Superfund is a program that was riddled with 
problems. I have said that for 4 years. You can say that I did 
not do anything administratively if you want to; I would beg to 
differ, but you can say that. You can say that it is not 
actually delivering for people. But the truth is there are a 
lot of sites that are entering their final phase. That will 
cost a certain amount of money, whether you give it to us this 
year, next year or the year after. When you give funding it 
means that communities get cleanups done. It is simple math at 
this time. We have a list of 629 sites from which 500 can be 
cleaned up with the appropriate levels of funding. It is that 
simple. If you do not want us to do 500, if you want us to do 
400, if you want us to do 300, you can do that by adjusting the 
money.
    I would suggest to you that if you have a candidate list of 
623 out of which you have promised to get 500 done at a certain 
level of funding, that is what we should do. Why not give these 
communities back these sites? Say whatever you want about this, 
but these communities have been promised something, and we can 
get it done, finally, together.
    Mr. Lewis. Let me interpose.
    Mr. Frelinghuysen. Would the gentleman yield?
    Mr. Lewis. Let me interpose for just a moment. The 
difficulty with that commentary--and I appreciate where you are 
coming from--is that if you take a list of 600 or 500 or 
otherwise, just give us the money, we are asking very serious 
questions about the priorities and what their real impact is on 
those communities. There are some that are very high priority; 
we are suggesting that there are an awful lot of them that are 
not high priority and thereby are diverting funds that could be 
used for other things that certainly have a higher priority in 
our minds.

                        Superfund: Risk Ranking

    Ms. Browner. Every site in the candidate list of 629 is a 
site that is on the national priority list. Each site has 
already come across one threshold. That means it is the worst 
of the worst.
    Mr. Lewis. Yes, but isn't it true that that would be the 
case, or otherwise they could not use Superfund money?
    Ms. Browner. Oh, absolutely. Then there is a second 
threshold, which is the ranking system which you all have 
encouraged us to develop and which we did in response to that 
encouragement. Within a given year the ranking system 
prioritizes which sites get the investment first. We now do 
that on an annual basis to address the very issue you referred 
to, which is that there may not always be enough resources in 
one year to do all of the candidate sites. So we have a risk-
based system for making that resource allocation decision.
    I am more than happy to give you the information on every 
one of these candidate sites, and I think it is fair to ask how 
many sites today, with money, we could start construction on 
and be done with; how many are in what part of the design phase 
and what will that design phase cost. We can give you all of 
that. We spent a lot of time looking at this, and a large 
number of sites are now ready to go into that final, mostly 2-
year process to get it done. It is now just a question of 
dollars.
    Tim, how many sites do we have ready to go this year?
    Mr. Fields. Fifty-eight.
    Ms. Browner. How many that we will not fund?
    Mr. Fields. Fifty-five sites.
    Ms. Browner. This fiscal year we have 58 sites ready to 
begin the final phase of construction, but there will not be 
money to fund 55 of them. We have obviously had a difficult 
situation in the case of methyl-parathion and its illegal 
application. That has required some emergency funds. You are 
familiar with that.
    But there are 55 sites that are ready to go, with no money, 
and that will happen again next year. Every year we do not 
provide the funding, the number of sites ready to go to the 
final phase grows.
    Mr. Frelinghuysen. Mr. Chairman.
    Mr. Lewis. Mr. Frelinghuysen wants to get into this.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    We have given you money, but I have sites in my district 
where we are still stuck in the design phase, and there have 
been total screw-ups, and we cannot get construction going.
    In New Jersey, you brought nine sites to closure, spending 
$1 billion--nine sites to closure, $1 billion that has been 
spent. I invited you somewhat informally, but let me do it 
formally----
    Ms. Browner. I would love to.
    Mr. Frelinghuysen. I invite you to New Jersey. There have 
been a lot of promises. We have given you money for these 
sites--as a matter of fact, I can cite the record last year, 
where you said that such and such percentage of this would be 
moving forward, and this has not occurred, and it has not 
occurred at some of these sites--Pepe Field, Billington 
asbestos site. There is no reason why we cannot move ahead with 
these projects.
    Ms. Browner. I think there are 10 New Jersey sites 
currently in the queue of 58 that we agree we are ready to go 
on; We can give you the list of them.
    Mr. Lewis. Mr. Frelinghuysen and my colleagues, those who 
remain, we have a vote on the floor, and it will be followed by 
a 5-minute vote. That is clearly, with the time frame on the 
floor, going to take us to 4:45. It occurs to me that we might 
have great difficulty getting attendance following that, so--I 
know you will be sorry to hear this--but we will come back to 
Superfund tomorrow with a number of questions. We are scheduled 
to come into session at one o'clock, and we will go from there 
until we finish--and I know our recorder is very unhappy to 
hear me say that because of all of that, for now, we are 
adjourned.
    Ms. Browner. Thank you.
                                         Wednesday, April 16, 1997.
    Mr. Lewis. The meeting will come to order.
    Because of a conflict and a little time problem, and 
because of his serious attention to this committee by regular 
attendance, the chair is pleased to recognize Mr. Knollenberg 
for his allotted time.

                   naaqs: access to health study data

    Mr. Knollenberg. Mr. Chairman, thank you very kindly. And 
welcome again, Ms. Browner.
    This goes back to yesterday's discussion. I'm not bringing 
up those same issues again, but if you recall, we had a 
conversation and you were fairly adamant about the fact--and 
the record will show this--that the EPA has gone to great 
lengths to let the sun shine in, to be open----
    Ms. Browner. Yes.
    Mr. Knollenberg [continuing]. And to provide a thorough 
process. In fact, you stated that the Harvard study was 
available and that there shouldn't be any problem. You were 
kind enough to give us the phone numbers, and as I told you 
yesterday, we did call. We had one little minor experience, but 
we took care of that.
    The number for the HEI, which we placed yesterday, was 
returned this morning. In fact, frankly, I was somewhat 
startled by the response from them and I wanted to share that 
with you. Perhaps you can clear this irregularity up.
    This morning, Mr. Robert O'Keefe from HEI contacted the 
staff, and the long and short of that conversation was, it 
sounds to me, that the information is not available, and it 
sounds as if it may not be available.
    Now, let me go on. I know we talked yesterday about some 
information--not just information, but some of the studies that 
were taking place. In the letter sent to Dan Greenbaum by the 
Harvard School of Public Health, by a James Ware, one of the 
paragraphs therein states, ``While the EPA cites hundreds of 
studies in support of its rulemaking for the proposed 
standards, special attention is being given to just those two 
studies which differ in methods from most of the other studies 
underlying the EPA's proposal.''
    In this letter, there are three reasons why Harvard has 
some concerns and, thus, is not being forthcoming with the 
information. Number one is confidentiality, which is a thing we 
talked about--maybe we didn't talk about it in this setting, 
but we talked about it, I believe, with your staff.
    Ms. Browner. That may be. We didn't talk about it 
yesterday.
    Mr. Knollenberg. We did not. I think you're right.
    Ms. Browner. We are happy to talk about it.
    Mr. Knollenberg. And then in the data base and what they 
would let loose, and then there's the possible--and I 
understand this third one--the possible discredit of scientific 
data for the wrong purpose. I certainly wouldn't want anybody 
to have to face that situation.
    The understanding I have, too, is that while EPA may have 
that data, I understand----
    Ms. Browner. We don't. There are privacy issues, as you 
know, personal health records, including reproductive history 
and other issues.
    Mr. Knollenberg. I understand that a dual track approach is 
being made by the Commerce Department, where they have also 
made inquiry, and they haven't gotten a response, either. In 
other words, what you said yesterday, as to the information 
being available, is not the case.
    Ms. Browner. Well, I will explain--I'm not familiar with 
the letter that you cite.
    Mr. Knollenberg. I would be glad to submit it for the 
record.
    Ms. Browner. Okay. We would be more than happy to take a 
look at it.
    [The information follows:]

[Pages 340 - 342--The official Committee record contains additional material here.]


                health effects institute: access to data

    Ms. Browner. We have written to Harvard, and the American 
Cancer Society, and we have encouraged both of them to make 
their databases available.
    The American Cancer Society has a written protocol for how 
people can access their data base. That has been their policy 
for an extended period of time. Any scientist from industry who 
goes to Atlanta and presents a scientific project can access 
the data.
    In the case of Harvard, we similarly encouraged them to 
make the data available. They did raise that in the data base 
there are issues of confidentiality. These involve individuals' 
personal health records over an extended period of time. I 
think they also heard from the Commerce Committee, and they may 
have heard from other Members of Congress.
    They have made that database available to an independent 
third party, HEI, which has a protocol for anyone who has a 
legitimate scientific research question to access it. I think 
HEI has written protocols on how you access it. Is that right, 
Mary? We can make that available to you.
    Mr. Knollenberg. Before she makes a comment--and this has 
been reported in the press--50 percent of the funding for HEI 
is from EPA----
    Ms. Browner. And 50 percent comes from Detroit, 
theautomobile manufacturers. Certainly not someone who always looks 
favorably upon our requirements.
    Mr. Knollenberg. I understand. My point is that EPA, if 
they're going to be making that kind of investment, probably 
has some control over HEI.
    Ms. Browner. We make investments in a number of 
organizations, pursuant to congressional direction and other 
reasons.
    In the case of HEI, we believe that they can facilitate 
work with the automobile industry that is important to the 
people of this country. The fact that we make an investment or 
a contribution to an organization does not necessarily entitle 
us to tell them how to do their business. I would imagine if we 
did in the ways some would suggest, you would have me up in a 
hearing wanting to know why we had told someone what to do.
    This organization has independence, and they receive money 
from industry. They are very careful not to take more than 50 
percent from government because they believe their independence 
is so important.
    Ms. Nichols. Thank you, Mr. Knollenberg. Mary Nichols, the 
Assistant Administrator for Air and Radiation.
    Dr. Robert Huggett is the person from research and 
development whose budget the Health Effects Institute has been 
primarily funded through. They have been receiving an annual 
appropriation of about $3 million to do specified kinds of 
research. However, we are not funding them in connection with 
this project.
    I do want to clarify the response to this issue about the 
availability through HEI. The Health Effects Institute has not, 
at this point, announced the protocol that they will be using 
to deal with the Harvard data.
    The Health Effects Institute has strong requirements on 
their own ability to control any process that they would be 
involved in. They have an independent board of academics, who 
do not work for either industry or EPA, for that matter. They 
are reviewing this request from Harvard and are in the process 
of setting up a process which they have indicated will be open 
and fair to all with any legitimate scientific inquiry. But I 
did just want to make it clear that it's not a matter that you 
can just call them up and they'll ship you over the health 
diaries. That is the database that's in question here.
    [The information follows:]

[Pages 345 - 348--The official Committee record contains additional material here.]


    Mr. Knollenberg. Let me just say that yesterday I got the 
impression that the reason you gave me those phone numbers was 
because it was something we could do, that we could call and 
get some information.
    By the way, it's the Harvard School of Public Health that 
is raising these concerns about confidentiality, about the 
data, and the possible discredit of scientific data by a 
wrongful user.
    Another interesting point that I observe here, when you 
mention that you haven't looked over--I understand there is 
probably boxes and boxes of data on this very subject--that you 
folks haven't looked it over. I get that impression. If that is 
the case, then you made your judgment on the basis of what?
    Ms. Browner. This is standard operating procedure in the 
scientific community. Data is collected----
    Mr. Knollenberg. Is it standard operating procedure with 
EPA?
    Ms. Browner. We follow the best scientific protocols. This 
is standard operating procedure for industry. When industry 
provides information to us, scientific analysis, they do not 
provide us with the raw data. What they provide us with is the 
analysis and the methodology. That is what we and the 
scientific community say is appropriately considered.
    Raw data doesn't mean anything to anybody, quite frankly. 
You have to pose a question, a hypothesis, and you have to look 
within the data to see if that supports or rejects your 
hypothesis. You have to analyze and draw conclusions.
    Every single one of the 250 studies were subjected to that 
kind of rigorous scientific process, and----
    Mr. Knollenberg. Let me interrupt, because I understand 
what you're saying. But what you're saying is what you could 
have said yesterday, that the data is not available. You could 
have given me a phone number, but you could have said you may 
not get anywhere. But you didn't say that----
    Ms. Browner. No.
    Mr. Knollenberg. You said, ``Here's the phone numbers. If 
you want to call, the information will be available.''
    Ms. Browner. Right.
    Mr. Knollenberg. That's what you implied. I'm getting the 
impression now that that wasn't the case at all.
    Ms. Browner. HEI has the information----
    Mr. Knollenberg. Frankly, I'll tell you something else. I 
don't appreciate what you said yesterday and what you're saying 
today, because you're talking out of two different corners. I 
truly mean that.
    What I'm getting is this information is not available, 
period. And yet, EPA made a decision on the basis of 25 boxes 
of information that they never saw.
    Ms. Browner. With all due respect, that is absolutely, 
positively not accurate.
    Mr. Knollenberg. Well, I would tell you, from this Member's 
perspective, it is, and I don't appreciate it.
    Thank you.
    Mr. Lewis. Are you through?
    Mr. Knollenberg. I'm through, for now.
    Mr. Lewis. For now. Thank you very much, Mr. Knollenberg.
    The chair would recognize Mr. Frelinghuysen for questions.
    Mr. Frelinghuysen. Mr. Chairman, if you will forgive my 
prefacing my questions with a little bit of tongue in cheek 
reflections on what I learned from yesterday's hearing, I guess 
it's best in New Jersey to stay indoors most of the summer, 
because of particulate matter, and ozone is definitely going to 
be oppressive. I need to chase away the Canadian geese because 
they all foul the water. I shouldn't be feeding my cows because 
they may produce more waste, and from what you told me, 
Administrator, I need to send my children out of state to camp.
    Ms. Browner. I didn't suggest that anyone send their child 
anywhere.

                      Superfund: Pace of Cleanups

    Mr. Frelinghuysen. Tongue in cheek. Take it in the spirit 
in which I give it. [Laughter.]
    You did invoke the fact that there was a study of New 
Jersey, children in New Jersey, camps where there appeared to 
be higher than statistical averages relative to asthma--and 
correct me if I'm wrong.
    May I just say for the record that I live within a few 
miles of a Superfund site, as do most New Jerseyans. But take 
it in the spirit in which I say it.
    I would like your reaction to some of the chair's comments 
that he made in the afternoon relative to Superfund. I would 
like to requote those.
    ``The Environmental Protection comments to the contrary, 
there is no real evidence that the pace of cleanups has or will 
increase. The General Accounting Office has, in fact, testified 
that the growing complexity of cleaning up the more difficult 
sites may, in fact, lengthen the average cleanup time beyond 
what is now 10.6 years.''
    ``I have provided a chart which is based on EPA's own data, 
which clearly indicates that the accomplishments of the overall 
Superfund program, including completions, has remained flat 
from 1991 through 1996.''
    ``Nothing that has happened in the past year would seem to 
have changed this year. For 1997, the EPA requested and the 
Congress provided $1.4 billion for Superfund. At that time, the 
Environmental Protection Agency projected a Superfund budget of 
$1.4 billion through the year 2000. There was literally no 
evidence provided at any time that the EPA could possibly 
accelerate cleanups in the manner you are now suggesting.''
    You didn't have an opportunity, because of the nature of 
the end of our hearing yesterday afternoon, because we were 
somewhat rushed, to respond to the chair's remarks. I would 
like to give you an opportunity to briefly respond to those 
contentions, because those contentions basically reflect what I 
consider to be the New Jersey experience. Certainly I can 
invoke a few sites where certainly the evidence shows that 
there has not been action and, for the foreseeable future, 
there may not be.
    I was just wondering if you would react to the chair's 
statement, because I thought it was rather telling, and I 
think, if it's inaccurate in some ways, it deserves to be 
rebutted.
    Ms. Browner. The quotes come from a draft GAO report. We 
have supplied to GAO extensive comments. We raised serious 
questions with the methodology utilized by GAO. Unless the 
committee knows otherwise, we do not have a final GAO report 
from that review. So I don't think at this time I can comment 
specifically on the GAO report, other than to tell you we do 
have concerns about their methodology. We have met with them to 
register those significant concerns.
    On the question of whether or not we are getting sites 
cleaned up more quickly, I think the most compelling statistic 
I can offer--and we can give this to you in great detail--is 
the fact that, in four years, we completed more cleanups than 
in the prior 12 years taken together.
    Mr. Frelinghuysen. And some would say--and I don't mean 
this in any partisan sense--that a lot of groundwork for those 
cleanups was basically accomplished----
    Ms. Browner. I agree.
    Mr. Frelinghuysen [continuing]. Was basically accomplished 
in the previous administration. So it's obviously fair game to 
take credit for whatever is accomplished.
    Ms. Browner. I would be the first to agree that there were 
both good things about Superfund in the first 12 years and, 
unfortunately, bad things. I think we all agree that this is a 
program with a complicated history, an unfortunate history in 
far too many instances.
    But the truth of the matter is, regardless of whether your 
numbers show it will now take seven years from start to finish, 
eight years from start to finish, twelve years from start to 
finish, the truth of the matter is, for a variety of reasons, 
there are in excess of 600 sites ready to go into the final 
phase. It is just a question of whether or not the money will 
be there for the final phase. It is just that simple.
    You know, we can----

                         Superfund: Pepe Field

    Mr. Frelinghuysen. You see, I don't think it is just that 
simple. I mean, the argument is put forward that the money 
isn't there. You have carryover money, but in reality, the 
money doesn't get out into the field for these projects 
because, with all due respect, people are monkeying around with 
changes of design, each site is different.
    The site that I mentioned, Pepe Field, at one point they 
were going to do the remediation on site. Then, maybe because I 
visited the site and raised some hell, they're trying to find 
environmentally proper ways to remove whatever is on that 
baseball field and remove it off-site.
    Even last year, when I asked you this question--I checked 
the record--you testified, when I asked you about the specific 
site in Boonton, NJ, known as Pepe Field, which is a ball field 
that has been out of commission for 20 years, to a very small 
community, you testified that that particular location would be 
at 90 percent design phase by the summer of 1996, and that 
construction will start in fiscal year '97.
    Because of your commitment, I included language, through 
the generosity of the chairman, in last year's bill directing 
you to begin construction immediately.
    Well, where we are now is still at the 30 percent design 
phase and no construction will start at this important site. 
This sort of illustrates the frustration.
    I'm telling you, with all due respect, it is mirrored in a 
lot of sites in New Jersey. I don't know about the ones outside 
of New Jersey. Only nine sites have actually been closed since 
the start of the program in the mid-Eighties, and we spent a 
billion dollars doing it.
    Ms. Browner. Pepe Field, I think, is a good example of what 
happens at sites across the country. You're absolutely right. 
Local communities need to have a voice in the cleanup plan. 
There is an unfortunate history in Superfund of local 
communities being brought in too late and excluded on the front 
end. You make a very valid argument, and I think you would 
fault us if we didn't give the cleanup plan serious 
consideration. Leaving some of the waste on site might not be 
best for that community.
    Part of what has happened is a review of the community's 
concerns about the cleanup plan. I think that's what you want 
us to do and it is what we are trying to do. We are now on a 
schedule--with community participation, and obviously with your 
leadership, which has been extremely important--to complete the 
design phase for Pepe Field this summer.
    We are all well served by a policy we have now at EPA of 
bringing the communities in on the front end rather than the 
back end. This ensures that we don't get far down the road and 
have to revisit questions or issues that we thought had been 
resolved because the community brings a valid point of view to 
the discussion.
    Mr. Frelinghuysen. While it may not have been under your 
watch, but certainly under the general watch of the department 
prior to your arrival, that particular community had been--and 
I can't speak for others--had been most vociferous about the 
total removal of these toxic wastes off site.
    But more importantly than a small town problem is the 
issue, which you have really made, that it is more than money. 
It is more than the pot of money that you're asking for, the 
increased amount. It is the process, that money is going to 
speed the process.

                      Superfund: Pace of Cleanups

    What is going to speed the process is the department 
staying on every responsible party, every polluter, where that 
polluter is known, and pulling into the overall scheme of 
things the Army Corps, where it's responsible--and in many ways 
they have a better track record of managing these sites.
    Ms. Browner. They have managed most of them for us. They 
have a good record. That's what the money, in part, goes to.
    Mr. Frelinghuysen. Yeah, but in reality, you've made my 
point better than I could. It's that the process is cumbersome, 
doesn't have a hell of a lot of credibility, and it's not a 
question of just adding more money into the pot.
    Ms. Browner. There are two issues and I think we should try 
and sort them out. I hope, Mr. Chairman, this is helpful, 
because I think this is obviously one of the primary issues 
raised by the EPA budget submission.
    One is how fast a site moves through the process. We can 
show you how we're doing it more quickly. But if you don't 
believe that, that doesn't change the fact that we can clearly 
demonstrate to you in excess of 600 sites that will be ready to 
go to the final phase. Whether it took those sites eight years 
to get to that final phase, ten years, twelve years, is not the 
issue. The issue is how much money it will take to address the 
needs of these communities----
    Mr. Frelinghuysen. So it's not only money?
    Ms. Browner. No. I'm sorry, but I'm trying to sort out two 
different issues here. One is how fast something happens at a 
site. We believe and can document that it is happening faster 
today than it was five years ago. You obviously don't believe 
that. That's fine.
    Mr. Frelinghuysen. Administrator, if you look at this 
chart--and I assume this is the one the Chairman was referring 
to----
    Ms. Browner. We have not seen this chart.
    Mr. Frelinghuysen. In 1991, you had 61 sites nationally 
that were closed. In 1992, 88; in 1993, 68; in 1994, 61; in 
1995, 68; and in 1996, 64.
    I think it's a pretty even number. If it isn't already 
submitted for the record, I certainly would like to have your 
reaction to it, because----
    Ms. Browner. We would love to respond, and we will 
certainly respond for the record.
    [The information follows:]

             Superfund: Chart on Progress, Agency Response

    The Agency response to the referenced chart is that over 
the past several years, we have been able to contribute 
dramatically to the total number of Superfund projects that 
have completed construction. In 1992, we were at 149 site 
completions, and today we are well over 400 even though our 
annual budget authority has slightly decreased. This has been 
as a result of more sites entering the final phase of cleanup 
and several focused efforts on speeding up the Superfund 
process. By increasing our working efficiency and maximizing 
the application of knowledge we have accumulated about 
hazardous waste sites over the last 15 plus years and an 
increase in our budget authority in FYs 1998 and 1999, we will 
be in a position to increase the rate of delivery so that we 
will achieve 900 construction completions by the year 2000.

    Ms. Browner. Again, if I can just go back to my suggestion 
that there are two separate issues here, even if we have 
disagreements on both of them. One question is whether it takes 
five, six, seven, eight, nine, ten years. We believe we can 
document for you that we are reducing the number of years.
    But let's say we never find common ground on that. Let's 
just say you always believe that I'm wrong, and I believe that 
my analysis shows that I'm right. Let's set that issue aside 
just for a moment, please.

                    superfund: community involvement

    I think the issue that we're all going to have to grapple 
with is the fact that despite all of our concerns about how 
Superfund may have been managed, and due to a lot of people's 
good work--not the least of which are communities across the 
country--there are now more sites than ever before ready to go 
into the final phase. The construction phase for most sites is 
approximately two years--not all but, on average, it is two 
years.
    All I am suggesting to the committee is that we work with 
you to determine how best to provide the resources, which 
include PRP dollars. This is not purely a trust fund and 
appropriations issue. The lion's share of money will actually 
come from the responsible parties, those who cause the 
pollution.
    But even where their money goes to the cleanup, we still 
provide an oversight function for the community. There is still 
the need for resources. There are 600-plus sites that will be 
available, some of which are already available and do not have 
funding to begin work this year. We will have 55 sites where we 
could start this year, if we had the money but we do not have 
the money.
    There will be more sites coming on to the list, and that is 
why we have asked you for that final, on average, two-year 
phase. The dollars will be spent over a four-year period, to 
get 500 as opposed to 250 sites done in four years.
    Mr. Frelinghuysen. You told us basically the same thing 
last year, that----
    Ms. Browner. No, we did not promise to get 500 sites done, 
absolutely not.
    Mr. Frelinghuysen. No, but you certainly said this 
particular site, as an example, would be in construction this 
summer.
    Ms. Browner. And the reason this site is not in 
construction is because we listened to the community, at your 
request, in part. I'll be very honest with you. You and the 
community raised a very valid question. We wanted to be 
responsive to the community in a way that we hadn't been on the 
front end, which was a mistake. I was not there at the time. 
But we all can agree it was a mistake not to involve the 
community earlier.
    But now we've done it. You've asked us to and we did it, 
and that takes time. If we're honestly going to engage 
communities and we're going to give them access to information, 
it takes time.
    Mr. Frelinghuysen. I know the chair wants to regain the 
time, but it is not just an issue, as important as it is to 
engage the community, in these decisions. There are other 
factors that are causing----
    Ms. Browner. I'm not suggesting it's not.

                  superfund: carryover and obligations

    Mr. Frelinghuysen [continuing]. Causing these types of 
delays. There are some of us who feel there is enough money in 
the pipeline, a lot of money that has gone unexpended that 
could, in fact, be directed, if there was the will to do it.
    Thank you, Mr. Chairman.
    Ms. Browner. There are two left over pots of money. One is 
the carryover.
    Mr. Frelinghuysen. Which is about $138 million?
    Ms. Browner. Approximately. And then there is what I refer 
to as ``escrow'' accounts. That's not the technical term, but I 
think that's the easiest term to use for this purpose.
    We carry an escrow account because we have obligations to 
contractors that we have to honor, and they play out over time. 
We have a plan coordinated the committee with which we will be 
more than happy to give to you, as to both the carryover funds 
and a portion of the escrow funds which can appropriately be 
deobligated. We can take those funds out of the escrow account 
because the contracts are closing out, and direct them into the 
field. All that money is accounted for and it will go to clean 
up sites.
    [The information follows:]

                      Superfund: FY 1997 Carryover

    The Agency's FY 1997 carryover of approximately $130 
million and an additional $50 million, estimated recovery from 
prior year deobligations, will be applied against ongoing 
contaminated site work. However, these resources are not 
sufficient to meet all the cleanup needs of FY 1997. For 
example, the estimated needs of Methyl Parathion activities is 
$65 million in FY 97 and may increase as we assess new areas. 
In addition, our new starts construction needs by the end of 
this fiscal year is approximately $400 million.

    The problem is we still do not have enough money to address 
500 sites. Under the current funding levels, if you carry those 
out, which is an option we do not support, we can deliver you 
250 sites in four years. If you give us the request, we can do 
500----
    Mr. Frelinghuysen. Not given the cumbersome process that 
you have to go through--and I know the chair wants to regain 
the time--the process needs to be cleaned up.

                    superfund: risk ranking of sites

    Mr. Lewis. Madam Administrator, maybe it would help if, 
instead of just giving him a list of 600, you could give him a 
list of those that are in line, that are in order----
    Mr. Frelinghuysen. If the Chairman would yield, the phase 
in which they are as well. I think that's important.
    Ms. Browner. Mr. Chairman, let me explain, because I want 
to be abundantly clear about what we have and what we will give 
you, which is everything.
    We will give you the status on each of what we refer to as 
the ``candidate'' list, the 600-plus sites that are available 
for final action in the next four years, out of which 500 would 
be selected.
    Every year, in August, in part because of the direction of 
Congress and the appropriators, we look at the work plan for 
the coming fiscal year and, based on a risk prioritization, 
line up which site goes first, which site goes second, and 
which site goes third. You have directed us to do that. So we 
do that.
    At this point because it is not yet August, we don't have a 
risk ranked list for the next calendar year. We can tell you 
the pool, but when you do something on a risk basis, 
unfortunately, you may not like the consequences of it, but 
things move around. Some things move higher; and some things 
move lower.

                       superfund: status of sites

    Mr. Lewis. If I could ask the gentleman to yield further, I 
think you're aware that somewhere around a couple of months ago 
we asked for such a list, and we were very interested in 
beginning to try to measure, where we thought there might be 
some request for funds. At this point there's a request for 
some $600 million without our having that information.
    Ms. Browner. We will certainly get that to you.
    Mr. Frelinghuysen. If the Chairman will yield, can we 
specifically get a list of the sites outlined and the current 
phase they are in, and when they were placed on the national 
priorities list?
    Ms. Browner. Yes, we can do that, absolutely. We will get 
that for you. I think we gave you a master list and did not 
give you the status, is that correct? We will give you the 
status report, certainly.
    Mr. Lewis. You did understand that he was asking not just 
for the priority list but the status ranking?
    Ms. Browner. For the 600-plus is what he wants, correct?
    Mr. Lewis. Including the priority list, like the 55 that 
you keep using.
    Ms. Browner. There are 55 that won't be funded. When we do 
the risk prioritization that you directed us to do, which we 
support just because something is on the list this year and 
didn't get money doesn't mean it keeps its same status when it 
is prioritized against everything else that has become 
available. That is what a risk prioritization does. It moves 
things a round. That's how it works.
    Mr. Lewis. Also how it works around here, if we're going to 
appropriate money, we have to know whether that money is of 
lesser priority than maybe taking care of children, you know.
    Ms. Browner. An individual site may move in the course of a 
year because a more risky site comes in higher. We can show you 
how this is done.
    Mr. Lewis. We'll try to deal with that.
    Do you want to add one more comment?
    Mr. Frelinghuysen. The Millington site, which is where this 
family has been virtually crucified, is one of those on that 55 
list. We had some thought that maybe, because it was on a 
priority list, it might move. In fact, it isn't going anywhere, 
for the reasons you described.
    Ms. Browner. We are working diligently to try to resolve 
that with the family. It has not been easy.
    Mr. Lewis. I wouldn't want to suggest that Mr. 
Frelinghuysen is any less frustrated than Mr. Knollenberg 
because he didn't leave earlier, but you can see that all of us 
have questions.
    Mr. Wicker.

                  gulf of mexico: oil and gas permits

    Mr. Wicker. Thank you, Mr. Chairman.
    I have just a few questions following up on our discussion 
yesterday, Ms. Browner, about EPA Region IV and the proposal 
concerning permits for oil and gas operations. I appreciate the 
fact that you're going to provide more details for the record.
    Yesterday you mentioned that even though it's off the Gulf 
of Mexico, we have two regions there and the environment is 
different in certain sections of the Gulf of Mexico. I 
understand that when EPA issues a general permit, the agency 
can carve out certain environmentally sensitive areas and 
require special procedures for those areas, and that you have a 
lot of flexibility in this regard.
    With that kind of flexibility, why do you need to require 
individual permits for the entire region, and couldn't you take 
measures to protect certain locations rather than the proposal 
which you have issued?
    Ms. Browner. Again, to the best of my knowledge, we are in 
a notice and comment phase, so we have not made a final 
decision. We are happy to share with you the public notice on 
this so that you can understand what kind of information we 
sought. It is possible that in presenting this to the public 
that that kind of option may be on the table and may be 
appropriate for a final decision.
    I'm not familiar with this particular notice. The way the 
law works is we tell the public what we're thinking of doing, 
we ask them to comment on what we're thinking of doing, and 
then, based on their comments on what we might do, we make a 
decision.
    If something emerges in the comment period which we had not 
considered, then we can renotice what we're thinking and take 
additional comments before we make a final decision.
    What you describe is certainly an option, generally, under 
the Clean Water Act. I don't know whether or not we noticed 
that possible outcome in this. We could respond for the record.
    Mr. Wicker. I would appreciate that.
    [The information follows:]

[Pages 358 - 389--The official Committee record contains additional material here.]


                           regional structure

    Mr. Wicker. Can you tell me, do you know when the regions 
were established, Region IV and Region VI, there in the Gulf of 
Mexico?
    Ms. Browner. The ten EPA regions follow the same lines as 
many of the newer federal agencies and departments, such as 
HUD. We're all divided into ten government regions, which date 
back to approximately the inception of EPA. We follow the same 
lines as many other government agencies lots of other people. 
It's probably 25 years old.
    Mr. Wicker. I think that strengthens my point. I have a map 
here, and there's a line right down the middle of the Gulf of 
Mexico, and to the west is Region VI and to the east is 
essentially Region IV. That can't be based on environment.
    Ms. Browner. No, it wasn't.
    Mr. Wicker. It's got to be an administrative line drawn.
    Ms. Browner. Over the years, Congressman Wicker, there has 
been a lot of discussion about whether EPA's regions should 
actually be divided on an ecosystem basis, or a watershed 
basis. People have put forward various proposals.
    One of the reasons for this discussion, as you detailed, is 
that you end up with a situation like the Gulf of Mexico which 
is a huge resource with responsibility shared between two 
regions and headquarters.
    There is a lot of attention paid to the question you raise, 
in terms of doing it that way. However, no one has ever been 
able to, quite frankly, figure out the politics of how you 
would redraw all these lines successfully.
    Mr. Wicker. Would it take a congressional act, or could 
that be done administratively?
    Ms. Browner. No. I think if we were going to step outside 
of the government-wide lines, it would take an Act of Congress. 
In fact, I'm almost sure it would.
    My counsel is reminding me that because EPA was established 
by Executive Order, you could use an Executive Order to change 
something like this, we would suppose. But I think, quite 
frankly, given a 25-year history, and the magnitude of the 
political, small ``p'', interest in the various regions, it 
would probably have to be done by Congress.
    Mr. Wicker. I appreciate that you have said this is just a 
proposal, that we're in the comment stage and that you're going 
to consider the approach that I've suggested about carving out 
environmentally sensitive areas.
    Ms. Browner. We're going to look at whether we noticed that 
and we'll get back with you.
    Mr. Wicker. Good.
    Let me just make one more point. It happens that the line 
is drawn right there with Mississippi and Alabama on the east 
side of the line, with Louisiana on the west side of the line. 
That's sort of the area where the Mississippi River and Mobile 
Bay enter the Gulf of Mexico.
    It just seems to me that, unless we're careful, we're going 
to end up with one set of regulations and one set of 
requirements for those people on the Mississippi and Alabama 
side, and another on the Louisiana side, which is not based on 
anything scientific. So I just want to stress to you my concern 
about that.
    Ms. Browner. I certainly understand your concern. I'm sure 
you know this, but let me state it for the record.
    It is not as if Region IV and Region VI aren't working 
together. They work together on shared resources, so there is a 
dialogue that takes place. But within a shared resource like 
the Gulf of Mexico, the impacts, as we talked about yesterday, 
can vary dramatically from one part to another. That's what 
we're trying to take into account here.

                 drinking water SRF: State applications

    Mr. Wicker. And certainly the impact of requiring 
individual permits on the Mississippi side and not requiring 
that in depths of 200 meters or less on the Louisiana side, 
that would seem to me to be arbitrary. So I appreciate the fact 
that you're going to get back to me on that.
    Just one other quick area, Mr. Chairman. I think, Ms. 
Browner, you spoke in your testimony yesterday concerning the 
drinking water state revolving fund. Let me just follow up on 
that.
    $1.275 billion was appropriated for fiscal year 1997. Your 
budget includes $725 million for fiscal year 1998, am I right 
so far?
    Ms. Browner. Except that two years got added together. 
That's why that larger number appears, thanks to the leadership 
of the Chairman. It's a complicated history.
    Mr. Wicker. You're going to carry over, I understand, a 
large portion of your 1997 funds to 1998?
    Ms. Browner. Yes. There's a very simple reason why. The 
states have to pass legislation before they receive funds. All 
this money goes to the states. The EPA doesn't get this money. 
It goes to the states.
    Mr. Wicker. I understand.
    Ms. Browner. In order for the states to receive it, many of 
them had to go into their state legislatures and get laws 
passed. They're just completing their state legislative 
sessions, so they only recently have laws and the accounts set 
up for them to start receiving funding. In fact, we will soon 
be moving the first round out and we've already made one 
deposit. It is starting to go. It's just that the states had to 
do something first. Wedidn't have to do it. They had to do it.
    Mr. Wicker. We've made an award to one state?
    Ms. Browner. Yes. Because that state got through their 
legislative process. I know of at least a half-a-dozen 
legislatures that just ended last week, and I know of another 
half-a-dozen that are in this week. So that is part of it. 
We're monitoring all of this activity. But the states have to 
set up the account to receive the dollars. We need somewhere to 
send it.
    Mr. Wicker. Statistically, where are we on that? How many 
states have yet to apply and how many have applied?
    Ms. Browner. We can answer that.
    Mr. Perciasepe. For the record, Bob Perciasepe, Assistant 
Administrator for Water.
    Mr. Wicker, the schedule for each state is something that 
we're keeping track of. We have been moving aggressively on 
getting this fund obligated. The guidance for how to develop 
legislation was put out in advance of the State legislative 
sessions back in November. We have made an arrangement with the 
National Conference of State Legislatures, with model 
legislation, so that we could get all the legislatures to act 
this year.
    Our belief is that they all will, and we're anticipating 
about 40--I can't say precisely--but about 40 states to be able 
to be completed by the end of this fiscal year, with the 
remainder of them in the first quarter of next year, which is 
pretty substantial.
    Mr. Wicker. The awards will be completed?
    Mr. Perciasepe. Yes, that's correct.
    Ms. Browner. Mr. Chairman, we have a chart that we would be 
more than happy to provide for the record and to the members, 
showing you which states we anticipate having their setup ready 
to go, and the timeframe when the funds would be awarded.
    [The information follows:]

[Page 393--The official Committee record contains additional material here.]


    Mr. Lewis. If I could just add to that, Mr. Wicker, it is 
also my understanding that the projects must be qualified 
projects.
    Ms. Browner. Right.
    Mr. Perciasepe. Right. Getting the funds obligated to the 
states is the first step, and then they can start working with 
mayors and county executives, who will then have the confidence 
that they've gotten the federal obligation to bid the 
contracts. They're not going to be bidding construction 
contracts unless the states have gotten their obligation.
    Of course, this first year we had to get the legislation. 
We're beating the schedule on creating the clean water SRF by 
almost two years in getting this thing going.
    Mr. Lewis. But just one more time. The projects would have 
to be qualified in terms of our guidelines----
    Mr. Perciasepe. That's right.
    Mr. Lewis [continuing]. And beyond that, the money goes out 
by formula, does it not, so they don't technically lose the 
money----
    Ms. Browner. No, the money is there. No money is lost.
    As we saw, Mr. Chairman, yesterday in your statement, the 
needs that the states have projected are quite large, in excess 
of what has been appropriated.
    Mr. Wicker. How much do you think will be carried over into 
1998? Do you have an estimate on that?
    Ms. Browner. It's not a carryover in this case.
    Mr. Perciasepe. When Congress enacted the Safe Drinking 
Water Act in August of last year, they made a special provision 
for the first year. It gave the states three years to get 
through their legislative process. We're going to beat that by 
quite a bit.

                           drinking water SRF

    Ms. Browner. It's a revolving fund. This fund is a bit 
different than, for example, the Superfund discussion we've 
been having, where I think ``carryover'' is the appropriate 
term.
    If you are familiar with the Clean Water State Revolving 
Fund, it is modeled after that. As Mr. Perciasepe said, we're 
running two years ahead of the schedule in getting it set up 
with the states, compared to what we had to do under the CWSRF 
one.
    I think this is a success story. We got our guidance out 
much more quickly than anyone thought. The President didn't 
sign the law until August--actually, in September--and in 
November, we delivered guidance to the states on what they 
needed to do with their legislatures. Now they're doing it. 
Again, we would be more than happy to give you that breakout of 
which state is going to be ready to go, and when.
    Mr. Perciasepe. The money is allocated to the states by 
formula, so every state knows how much money they're going to 
get already, and they're planning on using it.
    Mr. Lewis. Madam Administrator, I have a number of 
questions that I was going to ask regarding Superfund. For 
example, there seems to be some disagreement with the dollar 
figure you use and GAO's suggestion that there's $250 million 
of unspent obligated funds for over 6,000--At any rate, I will 
have you answer those for the record.
    In the meantime, before I go to Brownfields, I would like 
to yield time to Mr. Walsh for questions he may have.

                     NAAQS: Compliance by business

    Mr. Walsh. Thank you, Mr. Chairman. Hello again.
    On air quality, I have a statement by a businessman in my 
district. Onondaga County--there's that word again--is barely 
an attainment county. Under the new guidelines, it's way over 
the top. This is a statement by a businessman and maybe you 
could comment on it.
    He says, ``The changes in the state implementation plan 
that would directly affect my company would be the requirement 
to market reformulated gasoline, reformulated diesel, and a 
requirement for stage 2 vapor recovery. My company has 42 
locations where we would be responsible for installing stage 2. 
Of these locations, 22 are vapor-ready.'' He's obviously a 
petroleum dealer, I guess.
    ``This means that I can expect capital costs to install 
stage 2 would be $1,130,000'', to install these devices.``This 
may not sound like much in Washington, but my total maintenance budget 
is less than $300,000 per year. In addition, my maintenance costs will 
increase by $147,000 per year.'' That's a 50 percent increase in his 
maintenance costs.
    ``All of the above looks like quite a cost for the unproved 
benefits that EPA claims for their new air standards.''
    Ms. Browner. Obviously, we believe that the science 
demonstrates that there are significant health benefits. 
Setting that aside, can I ask you a question about this 
gentleman's facilities? Does he already have the stage 2 vapor 
recovery system installed?
    Mr. Walsh. I think what he's saying is----
    Ms. Browner. That he would have to install it?
    Mr. Walsh. He has 42 locations, and 22 of those are vapor-
ready. So he would have to do the other 20.
    Ms. Browner. Okay. First of all, it is important to 
understand that there is no requirement on any business person 
that results from setting a public health standard in July. It 
doesn't happen.
    Over a seven to ten year period, there we will work with 
industry and others, to determine how to get the most cost-
effective additional reductions in pollution, if we conclude 
the rulemaking process by strengthening the standards. But no 
requirement would be imposed on any business person, with any 
decision that we might ultimately make in July.
    Mr. Walsh. You're saying an implementation of this, if it 
were to become law, or be promulgated----
    Ms. Browner. If the standards were to be strengthened, 
which we have not decided.
    Mr. Walsh [continuing]. That he would have seven to ten 
years to comply?
    Ms. Browner. No, that is the timeframe for the whole 
implementation process, which involves many industries and 
every state, and plays out over a seven to ten year period.
    In the case of vapor recovery, that's a very specific type 
of pollution control solution. Beginning next year, if you buy 
a new car, inside your gas tank will be a little $10 device 
called an on-board canister. I talked about it yesterday.
    For many communities, that will replace the need for a 
stage 2 vapor gasoline recovery. You're going to get the 
reduction inside the car that has previously been gotten 
outside the car.
    This is where it becomes almost impossible to answer with 
specificity until you move into an implementation phase and 
work state by state. It is conceivable for this gentleman that 
he would not, in fact, install, nor would anyone install, a 
stage 2 recovery system, given how many cars will have this new 
device and how often fleets turn over. There is extensive 
analysis we can show you about that.
    So at this point in time I'm not sure what he bases his 
statements on----
    Mr. Walsh. He's assuming 20 of these units at ``x'' dollars 
per, with the total.
    Ms. Browner. Right. I understand where he got the dollar 
amount, because it's a simple formula that lots of people use.
    But nothing in the proposal, regardless of what final 
decision may be made, has the effect of requiring him to do 
anything from June, July, and August. Because of this 
technology we were able to develop with Detroit, it is 
conceivable that, for this particular concern, he may never 
have to do anything on those facilities where there is nothing 
installed.

                            ozone transport

    Mr. Walsh. The next question.
    Again, in our county, which is currently attaining, but 
barely, the monitoring device is in the downtown area. There's 
just one, as I understand it, just one monitor. Presumably, 
that is put in the most heavily congested area, so it is the 
worst possible case. I question the logic of that.
    But the fact is that we're close to nonattainment, yet 
there is literally no industry to the west of that location. 
There is commercial industry, a lot of automobile traffic, but 
there are no industries that presumably would create 
particulate matter or----
    Ms. Browner. I think your concern is ozone, am I right?
    Mr. Walsh. You know, I don't know.
    Ms. Browner. We're almost positive it's ozone.
    Mr. Walsh. By the way, the monitor is under a bridge, under 
an overpass, so it probably collects there, especially on hot 
and humid days we have in Syracuse. But it is not a problem of 
industry locally. It's----
    Ms. Browner. It's transport.
    Mr. Walsh. Right. Well, transport, that's to the point.
    Now, how do you know how much of that came from Ohio or 
Michigan or Kentucky or God knows where else?

                                  otag

    Ms. Browner. We have been involved in an extensive process 
with OTAG, the Ozone Transport Advisory Group.
    Mr. Walsh. Yes, OTAG. I've heard that term.
    Ms. Browner. Your state is participating, and they've been 
quite valuable, as are all of the states.
    Mr. Walsh. The receiver states?
    Ms. Browner. It's a combination or the Midwest, the 
generator states, and the receiver states. We have been looking 
to them, in a series of modeling which they are now 
completing----
    Mr. Walsh. Haven't they both taken the same data and come 
to absolutely different conclusions?
    Ms. Browner. No, no. They're actually working through the 
data. Air quality modeling is a complicated issue, and we have 
learned a lot in the last decade. So they are taking that 
knowledge and trying to understand as best they can, given the 
current science, how much pollution is coming from where.
    OTAG has determined that some amount of the northeast 
problem, in terms of air pollution, is, in fact, a Midwest 
generated challenge. We've seen some progress through OTAG. As 
we move forward, we hope that multistate approaches to air 
pollution will produce some of the most common sense, cost-
effective solutions.
    Certainly the northeast states have a lot of data, which 
OTAG is reviewing. It appears to demonstrate that their problem 
is, in fact, coming from the Midwest.
    Mr. Walsh. So Ohio and Indiana and Kentucky are going to 
help us to----
    Ms. Browner. I don't want to name specific states. That's 
what OTAG is looking at right now, in terms of which states 
might do what.
    Air pollution doesn't recognize state boundaries. That is 
something we have worked very hard through this process to 
manage, to have a regional approach. New York and New Jersey 
and the northeast states have done a lot. When you look on a 
regional basis, the Northeast is where you can get the largest 
reductions for the least amount of money at this time. It may 
well be that, as OTAG concludes its work, that some chunk of 
that is Midwest.
    Mr. Walsh, Mary Nichols questioned whether Onondaga would, 
in fact, be a nonattainment area if we were to strengthen the 
standards, which we have not done. We're not sure it's certain 
that you would become nonattainment. We think you're doing a 
pretty good job.
    Ms. Nichols. I was referring to the charts that I have with 
me that we produced on the proposed standard, that look at the 
'93 to '95 data. I wasn't showing----
    Mr. Walsh. Whose chart is that?
    Ms. Browner. That's ours.
    Ms. Nichols. That is one of our charts.
    Ms. Browner. It's hard to see at the level of detail that 
you may be most interested in.
    Mr. Walsh. I know my 62 counties are there. We're in it.
    Ms. Browner. We'll check with you.
    Ms. Nichols. We'll check. There does have to be additional 
data reviewed before a decision is made, even for ozone, for 
which we have a lot of data.
    [The information follows:]

          Ozone: Attainment Status of Syracuse--Area Counties

    Although additional data will need to be reviewed before a 
decision is made about Onondaga County's attainment status 
under the proposed ozone standard, it appears from current 
monitoring data that Onondaga County does just meet the current 
standard, but would just fail to meet the proposed 8-hr 
standard.

    Mr. Walsh. I hope you're right and I hope I'm wrong.
    Ms. Nichols. Well, they're close. You still have to go back 
and look at the data for the last years.

                            ozone monitoring

    Ms. Browner. You raised a question about the ozone monitor. 
One of the things that we have proposed is to change the time 
of measurement from one hour to eight hours. That's extremely 
important, both for communities and industry. It gives you a 
stability in the system that one hour doesn't give you. What 
one hour can result in is you get a peak and you have a 
violation, whereas if you look at the data over an eight hour 
period, that peak was an anomaly or a one time occurrence. So 
there is a lot of support by communities and industry for going 
to the stability of an eight hour measurement.
    Mr. Walsh. Then does the logic follow to the logical 
conclusion, that you take the worst spot and the worst hour to 
monitor?
    Ms. Browner. Well, we are proposing that you should monitor 
on an eight hour basis.
    Mr. Walsh. Yes, but I mean currently, would you do it at 
peak hour, traffic-wise?
    Ms. Browner. You do it during the hours that people are 
most likely to be out and about. It is a rolling average. This 
all gets very complicated. You want to be measuring when people 
are outdoors breathing the air, which tends to be during the 
business day, not always, but usually.

              naaqs: scientific research on health effects

    Mr. Walsh. My last question. You may detect a note of 
cynicism in this question. If EPA is certain that there is 
sufficient scientific evidence to support tightened air quality 
standards, why does President Clinton's budget request $26.4 
million for the new research to ``reduce the uncertainty'', the 
great uncertainty about particulate matter's health effects?
    Ms. Browner. There are many issues that we deal with and we 
set standards for, but it is important to continue our 
scientific work.
    Mr. Walsh. So you're not convinced that particulate matter 
has deleterious health effects?
    Ms. Browner. We believe the science is very clear in 
showing that, when fine particles are in the air, and in a 
certain concentration, health effects occur.
    Mr. Walsh. Like when you're sweeping out your garage and 
where it's real dusty, you get----
    Ms. Browner. Well, that's the kind of experience that some 
people can have. We're obviously not talking about dust in 
people's garages. We're talking about little tiny things you 
can't see in the air.
    The money that we seek in this budget would go to a number 
of uses, including helping the states develop the monitoring 
network. As you point out, there is a monitor for ozone in your 
community. There are monitors for 2.5 in communities, but they 
are not currently subjected to a federal standard, called a 
Federal Reference Method, and they're not in every community.
    Mr. Walsh. So will there be several monitors in each 
community then?
    Ms. Browner. We're taking public comment on what a 
monitoring system should be like, if we, in fact, do conclude 
by setting a standard for the pollutant 2.5. Actually, the 
monitoring network is one of the things we take comment on: The 
devices, where they would be, and how they would be recording 
data.
    Mr. Walsh. Mr. Chairman, I will submit the rest of these 
for the record.
    How quickly can they respond back on these? I've been asked 
that.
    Ms. Browner. It depends on how many we get, to be honest 
with you. We will do our best to respond very, very quickly.
    Mr. Walsh. I only have six or seven.
    Mr. Lewis. He only has six or seven questions.
    Ms. Browner. Generally, I think it's about two weeks. We 
will certainly do our best. If the Chairman would like, there 
are a number of air questions which, if you would like us to do 
those first, we would be more than happy to do those first, if 
that's helpful.
    Mr. Lewis. I have indicated to the committee that we have 
spent a good deal of time on both air and also Superfund, and I 
intend to move on for my own questioning purposes, but before 
doing that, I would like to call upon the other two members who 
haven't had a chance to ask questions yet.
    First to question, Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman.
    If I can go off the record for just a moment.
    [Discussion off the record.]

                            indian programs

    Mr. Stokes. On the record.
    Madam Administrator, funding included in the EPA's budget 
for Indian programs has increased dramatically in recent years 
from a total of $75 million in 1996 to a request of $137 
million in 1998. Most of the growth has been in the State and 
tribal assistance grant account, which nearly doubles in 2 
years from $59 million to $110 million.
    I do not think that anyone can deny the need for assistance 
for Native American communities, but would you elaborate for us 
some on those needs, especially as they relate to safe drinking 
water and clean water activities?
    Ms. Browner. Many of the environmental statutes provide for 
tribes to be treated in a government-to-government, a State-
like relationship. They can assume responsibility in the way 
that States do for the day-to-day management or various Federal 
environmental programs.
    Respecting that right under the statutes, we have sought to 
enhance the capabilities, of tribes who may be entrusted with 
doing just that. We are working with them to help them develop 
the expertise, the programs, and the systems, so that they can 
take responsibility where it makes sense.
    The lion's share of these grants go to tribes for that very 
purpose, in the same way that we continue to provide money to 
States so they can do their work and expand their expertise.
    There is also obviously a strong desire on the part of 
tribes to assume greater responsibility for programs such as 
drinking water, as you mentioned. Some of this would be used by 
the tribes to develop their capacity for drinking water.
    The drinking water set-aside is $10 million for the tribes 
within that total amount. The clean water set-aside within that 
total is $5 million, and there is $15 million within that total 
which is provided to Alaskan Native villages. We have worked 
very closely with Senator Stevens and the Alaskan delegation to 
address a very pressing problem for Native villages in Alaska 
who literally carry their waste. How would you describe it? 
Their waste, and we are not talking solid waste.
    They have to carry it out. It is a very primitive type of 
system with a lot of health complications associated with the 
inability to have a sanitary system. We have therefore had a 
concerted effort with the Alaska delegation to speak to the 
needs of those Native villages, which is included in that 
total.
    Mr. Stokes. Tell us how you would assess the capability of 
Indian communities in regard to environmental programs. In 
general, is there sufficient staffing, monitoring, planning, 
and financial procedures in place to manage the funds and the 
programs? Especially, is there sufficient capability to 
accommodate the large program increases requested?
    Ms. Browner. No two tribes are identical. They come to the 
work with a variety of interests and points of view. We seek to 
respect that and help them develop their environmental 
management capability.
    A number of tribes have made some really impressive 
progress in the last several years, and I am very comfortable 
that the funding request will be money well spent to help them 
further develop their environmental management capabilities.
    Obviously, any grant that is made is subject to all of the 
controls. They must follow proper procedures before we can make 
the grant in the first instance.

                  drinking water health effects study

    Mr. Stokes. For fiscal year 1997, Congress appropriated $10 
million to EPA for health effect studies related to safe 
drinking water. What is the status of this funding? I would 
like to know how much is on contract and what specific issues 
are being researched.
    Ms. Browner. If I might ask Dr. Robert Huggett, the 
assistant administrator for Research and Development.
    Mr. Stokes. Dr. Huggett.
    Ms. Browner. He is managing those resources.
    Mr. Stokes. Sure. I would be pleased to hear from you.
    Mr. Huggett. Thank you, Mr. Stokes.
    In the budget request that we have, we have $10.7 million 
in research for supporting the Safe Drinking Water Act 
amendments. We have 35.6 million, I believe, in the total 
drinking water research program, and of the $10.7 million that 
I just mentioned, we have $4.6 million that will be going 
towards research on microbes, $3.9 million for research on 
disinfection byproducts, which is of particular importance 
because for some of the microbes such as cryptosporidium, 
normal disinfection by chlorine is not effective, and it looks 
like we may have to go to ozone, which creates a whole new 
suite of disinfection byproducts that we know very little 
about.
    We have $1 million for arsenic research, and we have .5 
million for sensitive populations; for instance, people with 
compromised immune systems.
    We do have an RFA, a request for assistance that we are 
crafting. We are trying in 1997 to work with the American Water 
Works Association to leverage our dollars with theirs.
    Mr. Stokes. It just occurs to me, in light of the trend now 
towards drinking bottled water so much, do we have any means or 
method of being able to monitor bottled water and how much 
better it is?
    Ms. Browner. In the drinking water bill which the Congress 
passed and the President signed last year, for the first time 
ever, there will be a requirement for comprehensive testing for 
bottled water. There will actually now be a program through the 
Food and Drug Administration.

                drinking water: community right-to-know

    A new provision that you included in the drinking water 
legislation is the community-right-to-know provision. People 
are now going to get, as they do already in California, an 
annual statement from their water supplier. This statement will 
provide information on what steps have been taken, what 
contaminants may have been found in the river or lake, and the 
steps that were taken to get rid of that contaminant. I think 
that is extremely important because it expands consumer 
confidence, if you give them information.
    I think a lot of people buy bottled water because they have 
heard something or suspect something. Let us honor their right 
to know, and let us bring them back to their tap water. They 
are already paying for their tap water, and we think that will 
be a very important provision. We are working right now with 
the States to get that up and running.

               drinking water infrastructure needs survey

    Mr. Stokes. This January, the agency submitted the Drinking 
Water Infrastructure Needs Survey, which contains some very 
large figures.
    The total estimated need is $138.4 billion over 20 years, 
broken down as $76.8 billion needed now to protect public 
health, $61.6 billion needed to provide safe drinking water 
during the next 20 years.
    Now, I understand the estimates are in constant 1995 
dollars, not escalated.
    Ms. Browner. Right.
    Mr. Stokes. Then, year terms, the amounts will be even 
higher. How do you envision the total requirement being 
financed among the Federal, State, and local governments, and 
consumers?
    Ms. Browner. Mr. Stokes, the new drinking water law 
directed EPA to work with the States to make a State-by-State 
basis projection as to how much money they would need to 
address the drinking water problems of their State. The EPA 
takes the information from the States and compiles it to give 
you a picture of the drinking water infrastructure needs of the 
entire United States.
    Clearly, when we look at the drinking water needs, the 
infrastructure needs, and emerging threats, such as microbials, 
which Dr. Huggett just spoke to, what becomes abundantly clear 
is that we are going to need a combination of Federal, State, 
local, and consumer resources to address these problems. This 
committee should be proud of the fact that it has provided the 
first ever Federal dollars to local communities to begin the 
work of upgrading these systems. We maintain that commitment in 
the President's budget request.
    Moreover, Congress gave flexibility to the States. We 
encouraged you to do this. We supported letting them move 
between their waste water fund and their drinking water fund to 
address the most pressingproblems, Some States may, on balance, 
think that their drinking water needs a little additional investment 
and make that judgment. Others may maintain the course they are 
currently on.
    From the Federal perspective, we are clearly providing 
important funding. We are also providing a framework within 
which the States can make the investments, reach out to the 
consumers, and do the job. It is not going to be a small 
effort, but I think that we should all be proud of the progress 
that we are making.
    Mr. Stokes. Well, along those lines, I understand there is 
a huge difference in cost per household largely based on 
economies of scale for larger systems.
    Ms. Browner. Yes, that is true.
    Mr. Stokes. Is it accurate that the survey determined the 
cost per household varied from $970 annually for large systems 
to $3,300 for small systems to $6,400 for American Indian 
systems to a cost of $43,500 for Alaskan Native systems?
    Ms. Browner. You are absolutely right. There is an economy 
of scale when it comes to delivering people clean drinking 
water.
    Mr. Lewis. Welcome to rural America.
    Ms. Browner. That is it, absolutely.
    Now, one of the things that you did in the drinking water 
bill which we supported is recognize that a small system, 
serving less than 10,000 is fundamentally different than a 
system serving a large metropolitan area. That had not existed 
in the statute previously, and so you gave us some flexibility 
to work with the different-sized systems in an effort to deal 
with the cost factors that the study reflects.

                    Safe Drinking Water Act Funding

    Mr. Stokes. The survey also indicated that $22.3 billion is 
needed related to the Safe Drinking Water Act. Can you--and you 
may want to do this for the record--walk us through the major 
aspects of these requirements, paying special attention to 
cryptosporidium and microbial contaminants and tell us how does 
the $22.3 billion break down by fiscal year?
    Ms. Browner. The request that we make for this fiscal year 
does include an increase. We reallocated funds within EPA so 
that we can implement the new drinking water law.
    [The information follows:]


[Page 403--The official Committee record contains additional material here.]


    In addition, there is the research which Dr. Huggett just 
spoke about. So I think it is fair to say that there is a total 
commitment in terms of the new drinking water requirements 
within this budget of $58 million, which we are not asking you 
to give us new money to do. We have moved that money within the 
agency from other less high-risk priorities. We have redirected 
the funds to meet this challenge.
    Mr. Stokes. I think I have time for one more question. I 
think I do, Mr. Chairman.
    Mr. Lewis. Well, certainly, you do.

                  Safe Drinking Water SRF Distribution

    Mr. Stokes. I appreciate it, Mr. Chairman.
    What is the status of the safe drinking water State 
revolving fund money, and has the agency developed a 
distribution formula?
    Ms. Browner. There are a number of steps involved in moving 
the drinking water money out to the States.
    We had a brief discussion about this earlier. I will try to 
summarize. We had to give guidance to the States on how to set 
up their funds which we did in record time. The President 
signed the bill in September and we sent out State guidance in 
November. They are now in their State legislatures working or 
legislation. A number of them have concluded their sessions and 
have already done it. Others are still in their legislative 
session, but they are all moving the legislation.
    Once those funds are set up, the projects are brought 
forward. The money is transferred. One State went very quickly. 
They got it through their legislature faster than anyone else. 
We have already transferred the first round of funds. I think 
it was Georgia. We have other States whose governors have now 
signed, and we will be moving it out.
    As Mr. Perciasepe said earlier, we are doing this in record 
time. We anticipate we will do it 2 years faster than we did 
with the clean water SRF.
    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Stokes.
    Mr. DeLay.

                               self-audit

    Mr. DeLay. Thank you, Mr. Chairman.
    Ms. Browner, I want to go over some self-audit questions. 
The Congress approved report language in last year's 
appropriation bill, in our bill, expressing support for the 20 
States that have passed environmental self-audit laws, and you 
might recall that the language expressed disapproval of EPA 
threats to States that delegation of environmental laws would 
not be forthcoming if they did not conform their audit laws to 
meet with EPA approval.
    Let me just remind you of the exact language, and I quote, 
``The committee strongly urges the EPA to allow States, indeed 
assist the States, to go forward in implementing their self-
audit laws, giving States the opportunity to demonstrate 
whether greater flexibility and cooperation will, in fact, lead 
to lowering the overall cost of achieving a clean and healthy 
environment, while assuringthat legal action remains for those 
not willing to meet the law.''
    Could you tell me exactly how you followed up on this 
language and how has the EPA assisted the States?
    Ms. Browner. We have been working with the individual 
States. Each of the States that have adopted legislation have 
adopted different legislation, so we have been working State by 
State to understand exactly what they anticipate will occur 
under their legislation.
    We have found several state self-audit laws to clearly 
honor the Federal laws in terms of the two most troubling or 
challenging issues, privilege and immunity. In others, it has 
necessitated a longer discussion. In some instances, attorneys 
general have become involved.
    Most recently, with your own State of Texas, we have 
exchanged a set of letters recognizing that they have an audit 
program and that they have explained to us their intentions on 
how they will manage that on a day-to-day basis. We think it 
is, as explained, within the confines of the protections of the 
Federal law, and so they are moving forward.
    We also worked with Utah. We came to an agreement on some 
corrections to their legislation, which they have introduced. 
They have passed it, the last time I checked. I think the 
governor has actually now signed it. So Utah has signed it. It 
was the governor's legislation and he has now signed it.
    We are also currently working with Michigan which has 
passed legislation. As I said last year, Congressman DeLay, I 
think self-audits are a very valuable tool. I think what we 
have demonstrated to you is that we can, in fact, work with 
States, and we can honor the American public's right to know 
under Federal law about the pollution of their environment and 
preserve where necessary the ability to take an enforcement 
action. I think we are doing exactly what you told us to do.

                         self-audit inspections

    Mr. DeLay. Well, I have got some concerns about that 
because not all the States have been assisted, and you are 
right, Texas now has signed, but I found in doing the process 
in Texas, for instance, some real problems in--I don't know--
intent or taking care of the intent of the language and the 
intent of self-audit.
    Frankly, I think you chose too--you went too far in some 
cases, specifically targeting businesses that complied with 
their States' audit law. In fact, rather than assisting the 
States and implementing their audit laws, the EPA seemed to 
pursue a plan of attack to undermine the State laws and 
intimidate businesses, discouraging them from taking advantage 
of State laws.
    For instance, in December, the EPA sent five letters, five 
letters of inquiry to Texas companies which all, coincidently, 
had participated in the State audit program. In January, four 
of those companies received surprise visits from EPA inspectors 
for spot inspections.
    Now, your intention to put a chill on the use of the law in 
my opinion was obvious, and your intimidation tactic apparently 
worked because it has been reported to us that the Texas audit 
was being cited by--was being cited by an average of 30 firms a 
month until these actions were taken, and afterwards, the 
number of firms volunteering to conduct environmental audits 
shrunk to six.
    Businesses are afraid to use Texas State audit laws because 
the EPA has clearly demonstrated that if they do that the EPA 
will come after them. How do you respond to this, and what did 
you discover in your information requests or your spot 
inspections?
    Ms. Browner. We make spot inspections across the country. 
It is part of the job we are told to do by Congress.
    I can assure you that there was no effort to undertake 
inspections or other kinds of investigations with firms that 
had chosen to participate in an audit program or otherwise 
unless, of course, there was a concern that they were, perhaps, 
hiding something, unless they were, perhaps, failing to make 
violation information available, which they are required to do 
under Federal law.
    Mr. DeLay. In these four cases, five letters to five 
companies right away for spot inspections of four of the 
companies.
    Ms. Browner. I am not familiar with the companies. So why 
don't we ask Mr. Herman, the Assistant Administrator for the 
office----
    Mr. DeLay. Have you talked to your regional officer about 
this?

                           self-audit: Texas

    Mr. Herman. Yes, Mr. DeLay. I am Steve Herman, the 
Assistant Administrator for Enforcement and Compliance 
Assurance.
    When we promulgated the Federal policy on audits, one of 
the things that we said we would do is work with the States and 
also evaluate State programs. Part of the way to do that was to 
get information from the States on how their program was 
working.
    Under some of the provisions of the Texas law, we couldn't 
get the information from the State itself, and that is why the 
information request was made to the companies.
    You should also be aware that under our audit policy, we 
have had, I believe--and I can provide you with an exact list--
30 or 40 Texas companies that have come in, and self-disclosed. 
The great majority have wound up with no penalty at all. The 
program has worked.
    We want to encourage the Texas program, and I have worked 
closely and personally with Mr. McVee to try and make sure that 
we can work compatibly. There was no specific targeting.
    Mr. DeLay. Your final policy--and maybe you will want to 
sit down. Your final policy on self-audit States, however, that 
it would use that information, but only--and I quote from your 
final policy--if the agency has independent evidence of a 
violation.
    What I am talking about, do you intend to pursue 
enforcement actions in any of the Texas cases?
    Mr. Herman. In the Texas cases, I cannot say. I don't know 
what information was had before. So I can't comment on those. 
What I can comment on, though, is the provision that you have 
cited.
    One of the issues that came up when this issue arose was a 
fear on the part of business that if they did audits, we or the 
States or somebody else would go around taking sort of the low-
hanging fruit and wind up punishing somebody who is actually 
trying to do the right thing.
    During the process the Administrator had us go through an 
18-month process when we formed our policy. First, we 
determined that neither the Federal Government nor any States 
had actually abused self-audits in the past. We did a search of 
our files and the Justice Department and then the States. We 
invited companies to come in.
    We have said in the policy is that we will not make willy 
nilly requests for audits. We might request an audit because of 
other circumstances.
    I don't know about the four companies in that case, but the 
audit itself wouldn't be the reason for pursuing them.
    Mr. DeLay. Did you have any independent information in any 
of those cases where you sought information, and what is it in 
each case?
    Mr. Herman. Okay. I can't comment on those four.
    Mr. DeLay. Okay.
    Mr. Herman. I don't even know the names of them, to tell 
you the truth.
    However, what I will say is that some of the requests--and 
I don't know if it is the four you are talking about--were made 
as part of the evaluation of the Texas process.
    Ms. Browner. And I think the State understood we were going 
to do that. Is that correct?
    Mr. Herman. Yes. We couldn't get it from the State.
    Ms. Browner. We went to the State. We wanted to make sure 
that the audit policy was working as we all hoped it would. We 
went to the State, and for a variety of reasons, the State 
couldn't give it to us. So we had to go to the companies.
    Mr. DeLay. This was brought up, by the way. You say you 
went to the State. The T&RCC of Texas didn't know anything 
about this, and they were----
    Ms. Browner. Well, we will talk to Barry.
    Mr. Herman. I will be glad to talk to Mr. McVee about it, 
absolutely.
    Mr. DeLay. Okay.
    Mr. Herman. Yes, absolutely.
    Mr. DeLay. Is the EPA considering or pursuing similar 
actions in other States with audit laws in effect?
    Mr. Herman. Yes. We have made requests, I believe.
    I do know for a fact we are pursuing this in Colorado, and 
I think in some others.
    Mr. DeLay. Without it, Texas has reached an agreement with 
the EPA on your audit law. Will the EPA continue to seek audit 
information from companies performing self-audits in compliance 
with the State law?
    Mr. Herman. One, we are doing everything we can to work 
with the T&RCC to get this done, and we have reached an 
agreement on the terms of the new statute. So right now, we 
don't have any plans and probably no need to do it.
    We do a regular review of State performance to ensure that 
cases are taken in a timely and appropriate way, and that is 
what we will continue to do.
    The problem previously was that under the Texas statute, no 
matter what happened, the law prevented getting a penalty in a 
certain case. So we had to see whether or not it was at such a 
level that it would be appropriate for us to take action, but 
that is not the case. That won't be the case if the Texas 
legislature acts anymore. They will have the authority.
    Mr. DeLay. Okay, thank you.
    Ms. Browner. Thank you.
    Mr. DeLay. Mr. Chairman, can I have a couple of more 
minutes?
    Mr. Lewis. We are going to have you complete what you are 
doing here, and then we will go vote.
    Mr. DeLay. Oh, we have got a vote on.
    Mr. Lewis. We have to go upstairs.

           Small Business Regulatory Enforcement Act: SBREFA

    Mr. DeLay. Oh, I am sorry. We have got 10 minutes? Okay, I 
will be very quick.
    I want to go to SBREFA, just very quickly, the Small 
Business Regulatory Enforcement Fairness Act.
    Ms. Browner, you testified in front of this subcommittee 
counterpart in the Senate last week, and you said that not only 
were you implementing the SBREFA by the letter of the law, but 
by the spirit of the law. Is that correct? Because I must tell 
you, I find it very commendable if it is true.
    Ms. Browner. That is what I said, and I stand by it.
    Mr. DeLay. The only thing is, I also understand that there 
is a rule-making currently pending at OMB to expand the toxic 
release inventory program, known as TRI Phase II.
    Ms. Browner. Facilities expansion, correct.
    Mr. DeLay. Yes, which affects small businesses and small 
facilities by increasing the amount of paperwork reporting.
    It appears that the EPA is going in the opposite direction 
from SBREFA and the Paperwork Reduction Act in that rulemaking 
and may have even deliberately moved the process so hastily in 
order to avoid some of SBREFA's requirements.
    The proposed rulemaking came out just two days before the 
requirements of the SBREFA became effective. The law would have 
required EPA to convince small business panels for input into 
the rulemaking. Did EPA intentionally put out the proposed 
rulemaking two days before SBREFA went into effect in order to 
avoid the requirements of the new law, and if so, is it----
    Ms. Browner. Absolutely not.
    Mr. DeLay. You did not?
    Ms. Browner. Absolutely not, no.
    Mr. DeLay. Well, if it wasn't deliberate and you are as 
committed as you say to both the spirit and letter of the law 
and you are willing to have your rhetoric match your actions, 
then will you pull back the rule and convene some small 
business panels so that you will know what the impacts of the 
rules will have on small business?
    Ms. Browner. We are currently in an OMB review process. As 
I understand the requirements.
    I will tell you what my pause is here. Whatever is 
ultimately decided on this rule, I will be sued by one side or 
the other. Who knows? I will probably be sued by all sides. I 
don't doubt that anything I say here will find its way into 
litigation. So I want to be very careful to speak within the 
legal terms that are appropriate.
    I would far prefer to be able to have the kind of dialogue 
that I think is helpful to all of us in these situations and 
not be circumscribed, if you will, by the legal terms. We 
recognize that this will be the subject of litigation 
regardless of what final decision is made.
    I find myself wanting to make sure that I speak very 
carefully.
    Mr. DeLay. Maybe I can't remember the administrative act, 
but cannot you pull back from OMB and follow SBREFA in this 
case and resubmit it to OMB?
    Ms. Browner. The requirements of SBREFA in terms of any 
final rule will be met.
    Mr. DeLay. Well, I understand that the rule has been stuck 
at OMB for sometime and that you have had several meetings with 
Director Raines on this rule.
    What seems to be the problem? Does Director Raines want you 
to make changes in the rule?
    Ms. Browner. There have been several discussions, many at 
the staff level and otherwise, in an effort to make sure 
everyone understands exactly what a community-right-to-know 
program is designed to accomplish, and what kind of facilities 
have historically participated in such a program, and why you 
would want to add certain types of facilities to that program 
so that the public will receive certain information about toxic 
emissions in their neighborhood.
    Mr. DeLay. Has a regulatory flexibility analysis been 
prepared for this rule-making?
    Ms. Browner. Yes. There is a regulatory flexibility 
analysis in keeping with the requirements of the Act.
    Mr. DeLay. Did the OMB or EPA work directly with affected 
industries to minimize the burden as required under the 
Regulatory Flexibility Act, and what suggestions were made to 
minimize the burden?
    Ms. Browner. There were--I want to hesitate here because I 
think you may be asking a very particular legal question. If 
you want to restate it, I will try and answer.
    Mr. DeLay. Do you want me to answer that for the record?
    Ms. Browner. Do you want me to answer that for the record?
    Mr. DeLay. Yes, submit it for the record.
    Ms. Browner. Okay, why don't we do that. That is fine.
    [The information follows:]

[Pages 410 - 412--The official Committee record contains additional material here.]


                      SBREFA: Paperwork Reduction

    Mr. DeLay. EPA has a laudable goal itself setting a 25-
percent reduction in paperwork burden. How does this particular 
rulemaking fit with that goal, the TRI Phase II?
    Ms. Browner. We are working across the agency to reduce the 
paperwork burden. We have made some real progress, for example, 
in the MPDES program. We have a mechanism that will 
dramatically both reward companies who are doing better in 
terms of reducing their pollution, and protect the public's 
right to know and diminish the amount of paper. We have 
approached our paperwork reduction goal across the board while 
we ensure that we are not limiting the public's right to know.
    We undertook a process several years ago. Under the 
statute, under the right-to-know section that you are now 
asking me about specifically, the statute requires that there 
be certain information provided when a company files.
    We have recently made changes in the forms that the 
companies can file with us in accordance with the statute. We 
are constantly looking at further refinements to that document, 
so that the companies can better provide the information.
    Mr. DeLay. I think we have to go vote.
    Ms. Browner. I apologize.
    Mr. DeLay. I appreciate you answering the question.
    I have one more question I will submit for the record, Mr. 
Chairman.
    Mr. Lewis. All right. Thank you, Mr. DeLay.
    We do have just a few minutes to vote, and we have, then, a 
second vote, and we will be right back.
    Ms. Browner. Okay. Thank you.
    Mr. Lewis. So we are in recess.
    Ms. Browner. Right.
    [Recess.]

                              Brownfields

    Mr. Lewis. We will come back to order.
    Mr. Stokes will be along in a moment, he indicated to me, 
but suggested it was fine to proceed.
    As I indicated, we have additional questions for the 
record. That is obvious, but we do appreciate your sensitivity 
to that.
    Going to Brownfields for a while, Mrs. Administrator, as 
you are aware, the committee generally and I personally have 
been a strong supporter of the concept behind the Brownfields 
program. The effort to revitalize abandoned or idle commercial 
or industrial areas within our urban centers is very 
worthwhile, and I expect to continue to support it in the same 
manner.
    Even though I count myself as a friend of this effort, I am 
quite troubled by the direction it seems to be going at EPA and 
elsewhere. I have viewed Brownfields not as a Federal program, 
but as a State and local problem in which the Federal 
Government can offer assistance.
    I am not troubled so much by your budget request, Ms. 
Browner. I am troubled that your program is just one of 16 
scattered throughout this year's overall budget request. I am 
troubled that this effort has made it possible to push forever-
increasing staffing levels as well. I am troubled that comments 
about the end of the era of big government. To the contrary, 
the President seems to be federalizing this entire issue.
    Ms. Browner, I am also a bit disconcerted that your plans 
to fund this worthwhile effort, at best, seemed to skirt the 
letter of the law and clearly go beyond the spirit of the law.
    You know your authority to spend Superfund trust funds 
extends to sites which present either actual, threatened or 
suspected release of a toxic substance to the environment. You 
also know that your own General Counsel's office has issued a 
1994 opinion which says, in part, and I would quote, ``Thus, 
this agency must ensure that any Superfund money provided 
through any cooperative agreement not be used for remedial 
action, i.e., cleanups, at non-NPL sites. Since the Brownfields 
project proposals cover a spectrum of sites and activities, the 
agency must be mindful of this limitation in accepting 
applications and entering into cooperative agreements for these 
projects.''
    Despite the law and despite your own General Counsel's 
interpretation of the law, your justification says that you 
plan in 1998 to issue ``grants for capitalization of revolving 
loan funds for cleanups in 106 cities.''
    How many of these sites in these 106 cities are on the 
national priority list?
    Ms. Browner. The Brownfields are not NPL sites, so I would 
say none. None, correct.
    Mr. Lewis. So none. So the answer is none.
    Where in the law do you have the authority to use Superfund 
money to capitalize revolving loan funds?
    Ms. Browner. If I might ask the General Counsel whose 
office wrote the----
    Mr. Lewis. We are talking a lot about it here. So----
    Ms. Browner. John Cannon. He personally did not write it. 
It was written prior to his tenure.
    Mr. Lewis. Would you explain these excessive acts by our--
well, these acts by your part of it?
    Mr. Cannon. My client never takes excessive acts and is 
always in accord with legal opinions issued by our office.
    Mr. Lewis. If you would identify yourself for the record.

                   Brownfields: Legislative Authority

    Mr. Cannon. My name is John Cannon. I am General Counsel of 
EPA.
    I would simply note, there may be particular cases that we 
would want to talk about separately, but I would simply note 
that Section 104 of Superfund provides broad authority to take 
response actions in connection with releases or threatened 
releases of hazardous substances to the environment. Under the 
removal side of that, which is really what we are talking about 
in Brownfields, that would include the ability to clean up 
sites, to take action to reduce the hazards of a site, as well 
as actions to investigate, monitor, survey, test, and do other 
information-gathering activities at a site which is a lot of 
what Brownfields is about as well.
    Mr. Lewis. The reason we are pursuing this is because we 
all know the difficulty with money availability, per se, but 
you want to go forward with cleanup whether we know or do not 
know the difficulty at a specific site.

                      Brownfields: Budget Request

    Ms. Browner. The budget request is for a series of actions. 
Two of the primary actions are the assessment grants which 
those are not used for cleanup.
    In working with individual cities as they have assessed 
these sites and found the funds to clean up, independent of our 
grants--
    Mr. Lewis. There are 75 of those, right?
    Ms. Browner. A hundred in the budget request. I think it 
would actually be assessment grants to 100 cities.
    Mr. Lewis. My staff has told me 75, but we will argue about 
that, I suppose, for the record.
    Ms. Browner. My staff is telling me 100.
    Mr. Lewis. It depends on whether you take your shoes off or 
what----
    Ms. Browner. And then, a portion would also, then--another 
chunk of it goes into the revolving loan fund program for the 
cleanup so that a modest loan can be made to a party who is 
willing to undertake the cleanup and redevelopment.
    If it would be helpful to the committee, we can certainly 
provide for you the legal justification for the creation of 
such a revolving loan fund.
    [The information follows:]

                      Brownfields: Legal Authority

    See attached opinions dated April 25, 1997, and July 7, 
1994, from EPA's Office of General Counsel for an explanation 
of EPA's authority to capitalize revolving loan funds for 
brownfields cleanup. The April 25, 1997, memo should be treated 
as priileged communicaitons between attorney and client.

[Pages 416 - 425--The official Committee record contains additional material here.]


    Mr. Lewis. Okay. Well, let me complete this line, then.
    Ms. Browner. Okay.
    Mr. Lewis. From the perspective of the spirit, if not the 
letter of the law, I would ask how is capitalizing a revolving 
loan fund for cleanup actions using trust funds any different 
or any more legal than issuing direct grants for this same 
purpose, and further, would you please explain what has changed 
in the law which now allows you to use trust funds which 
ultimately are to be used in non-NPL cleanups?
    Mr. Cannon. Well, again, if we are talking about trust 
funds and the use of those funds to remove or arrange for the 
removal of hazardous substances from sites that pose a release 
or threat of release, then that is an appropriate use of 
Superfund monies.
    Mr. Lewis. At non-NPL sites?
    Ms. Browner. Non-NPL sites.
    Mr. Cannon. Non-NPL sites. None of these sites are NPL 
sites.
    Ms. Browner. For example, an emergency room removal is not 
an NPL site.
    Mr. Lewis. Does that mean, I am asked--does the $350,000 
you intend to give them in grants are for cleanup?
    Mr. Cannon. It wouldn't necessarily have to be directly for 
clean up----
    Mr. Lewis. What do you think?
    Mr. Cannon [continuing]. Because Section 104 also 
authorizes----
    Mr. Lewis. What do you think?
    Mr. Cannon [continuing]. Other types of activities.
    Ms. Browner. In plain English?
    Mr. Lewis. Yes.
    Ms. Browner. What will be done and what we would hope to 
see done with this money is similar to a drinking water 
revolving loan fund, although this is very small. A modest loan 
will be made so a party can have the capital to get the work 
done at the site, whether that be assessment, cleanup, or 
redevelopment, and then it will be paid back so the money can 
be lent to another site.
    We have been out there looking, as you well know, at a lot 
of these sites. What we are finding, is that an increasing 
number of banks are becoming interested. There are still some 
places where, getting that up-front capital is a significant 
stumbling block to the cleanup and redevelopment, and that is 
what this is designed to do. We do think it is within our legal 
authority.
    Would someone actually do some cleanup? I don't doubt they 
would. We would suggest to you that that is legally 
appropriate, and helps to get the job done.
    Mr. Lewis. Well, to say the least, I think you know that I 
share your frustration; that I am very frustrated with the way 
this program has worked over time.
    Ms. Browner. Brownfields?
    Mr. Lewis. No. All of our programs that relate to cleanup. 
I mean, it is incredible the maze that we have out there and 
the lack of progress that seems to be a part of the money that 
we spent.
    Brownfields, we have been supportive of, but, indeed, in 
this case, it gets back to setting the priorities. We have got 
so much money to go around, and earlier, I was going to pursue 
questions about sites that don't have the immediateapparent 
challenge of difficulty for communities. Some are fenced in, et cetera, 
et cetera, et cetera, and yet, they are on our list and moving towards 
cleanup.
    The Brownfields sites are the ones that have the most 
pressing questions relative to the health and safety problems, 
and we understand that, but we are looking here to not only the 
spirit of the law, but also the priority problem that we are 
faced with.
    Your specific 1998 Brownfields request is for slightly more 
than $86 million, a $49-million increase over the 1997 level. 
According to your justification, your primary program outputs 
will be 75.
    Ms. Browner. We stand corrected. We have now looked at the 
documents we gave you. You are right. It says 75. The briefing 
papers I was given said 100. We made a mistake. I apologize.
    [The information follows:]

    The 75 pilots listed in the document provided to the 
Committee does not include the 25 pilots in EPA's base budget. 
The total number of assessments is therefore 100.

    Mr. Lewis. That is fine.
    Assessment grants at $200,000 each and 106 of the 
aforementioned revolving loan fund grants at $350,000 each. I 
guess that totals $52 million. What do you plan to do with the 
other $34 million you are requesting, and would you please 
provide a detailed justification for this proposed spending for 
the record?
    Ms. Browner. In summary, we will certainly do that. Eighty 
percent of the money being requested would go to State and 
local governments. The remaining portion is spent by EPA. It 
includes a variety of activities, not the least of which is the 
technical assistance and the outreach, to work with the States 
in the development of their cleanup programs. We will give you 
a detailed breakout.
    Mr. Lewis. I have got a figure here that shows $52 million 
and you plan to spend $34 million that is requested in the 
balance, I guess, for these other activities. That is not 
exactly 80 percent.
    Also, with respect to Brownfields program, I have a number 
of additional questions regarding your plan and actual 
expenditures for minor little things like conferences and 
seminars and other such meetings, which I would appreciate your 
providing for the record.
    Ms. Browner. Certainly.
    Mr. Lewis. For fiscal year 1997 and 1998, would you please 
list? Do you want me to do that for the record? I have got four 
detailed questions here.
    Ms. Browner. I would be more than happy to answer them for 
the record.
    Mr. Lewis. We will have it for the record.
    [The information follows:]

[Pages 428 - 442--The official Committee record contains additional material here.]


    Ms. Browner. Okay.
    Mr. Lewis. Finally, because of the growth of Brownfields--
why don't we change that name? I don't like that name. I keep 
wanting to say Brownsfields. It bothers me.
    Ms. Browner. Some have referred to them that way.
    Mr. Lewis. Funds have been requested through several parts 
of the overall Federal budget for this program. These requests 
may be listed as a Brownfields component, maybe, or perhaps 
under a different name. Nevertheless, they are all essentially 
economic development programs aimed specifically at 
Brownfields-type problems.
    For the record, would you please provide a list of all 
other 1998 Federal agency budget requests that fit into this 
definition?
    Ms. Browner. You are talking about other agencies because 
our Brownfields stuff is here, but you want me to give you a 
list of HUD and Treasury. Okay, I would be more than happy to 
do that.
    [The information follows:]

                  Brownfields: Other Agencies' Request

    EPA has requested $87.4 million in Fiscal Year 1998 for 
Brownfields activities. The Department of Housing and Urban 
Development (HUD) has requested $25 million in Fiscal Year 1998 
for Economic Development Initiative grants targeted to 
Brownfields Communities. While other Federal agencies may 
expend resources at brownfields in the course of carrying out 
their programs, we are not aware of any other Fiscal Year 1998 
budget requests aimed specifically at Brownfields.

    Mr. Lewis. If you can do that.
    Let's see. I have asked the Inspector General to come up to 
the table, but I will get to her in a little while. I have a 
couple more questions, and I will give you a little time. You 
are comfortable, aren't you? Okay.
    Mr. Frelinghuysen.

                              brownfields

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Relative to the Chair's question about Brownfields, you 
actually have a pool of Brownfields money, right? It is a pool 
of money for Brownfields projects?
    Ms. Browner. We have within prior----
    Mr. Frelinghuysen. For that program, there is a certain sum 
of money, which you have stated.
    Ms. Browner. Yes. Within our base, we have directed funds 
towards Brownfields, correct.
    Mr. Frelinghuysen. You also have technical assistance 
grants as a separate--you have a series of technical assistance 
grants?
    Ms. Browner. Within the Brownfields program?
    Mr. Frelinghuysen. Yes.
    Ms. Browner. The vast majority of our work in Brownfields 
is through a grants program. That is correct.
    Mr. Frelinghuysen. Are there two separate programs? Is 
there a Brownfields program and a technical assistant grant 
program?
    Ms. Browner. Under Superfund, there are technical 
assistance grants for community and other organizations to work 
at Superfund sites. There is not a technical assistance grant 
program within Brownfields. There is a grants program to local 
governments, mostly cities, in Brownfields for site assessment, 
but there is not a technical assistance grant program in 
Brownfields.
    Mr. Frelinghuysen. So it is fair to say to the layperson, 
you have two removal programs?
    Ms. Browner. No.
    Mr. Frelinghuysen. One under Brownfields and one under 
Superfund?
    Ms. Browner. We have two programs. That is correct. 
Superfund is directed at the 1,300-plus NPL sites, and 
Brownfields has been largely a grants program to local 
communities to deal with lightly contaminated sites.
    Mr. Frelinghuysen. So you do removal----
    Ms. Browner. They use them for site assessments. They are 
not removal grants at this time.
    Mr. Frelinghuysen. You do removals under both Brownfields 
and Superfund?
    Ms. Browner. We don't do removals at Brownfields. Is that 
the question?
    Mr. Frelinghuysen. Yes, that is the question.
    Ms. Browner. No. We have historically provided grants to 
local communities for sites----
    Mr. Frelinghuysen. I get a feeling from your staff that 
maybe you do do it. Do you do removals under Brownfields?
    Ms. Browner. If I might answer the question, the 
Brownfields program which we created 2\1/2\ years ago has been 
a grants program largely to local governments to undertake site 
assessment of Brownfields sites so they can entice developers 
and lenders to invest in those sites to do the cleanups and to 
redevelop the sites.
    We are requesting an increase in our Brownfields budget 
that would expand the number of assessment grants we make to 
cities and allow for 106 pilots for revolving loan funds to be 
created. These are small loans that would be made perhaps for 
cleanups and other types of activities.
    Until now under appropriations that have been provided, 
cleanups have not been done with the Brownfields grants. They 
have been restricted to site assessments.
    [The information follows:]

    In 1997, EPA implemented a revolving loan fund program 
which distributes grants to cities for the cleanup of 
Brownsfields sites.

    Mr. Frelinghuysen. This begs a larger question. Why do you 
basically need a separate pool of money for Brownfields? I know 
there is a certain attractiveness with returning urban centers 
that have been polluted with toxic waste back into economically 
viable condition, but why do you basically need a separate pool 
of money?
    If you have all of these national priority sites out 
there--and I do get the feeling there is a fair amount of 
funding cross-pollenization, that in fact, you are saying you 
don't spend Brownfields money at Superfund sites.
    Ms. Browner. We don't.
    Mr. Frelinghuysen. But in reality, I think perhaps 
indirectly you may have. I get the impression----
    Ms. Browner. We would be more than happy to show you where 
all of the $200,000 grants for Brownfields have been used.
    [The information follows:]

                      Brownfields: List of Grants

    The list of where all the $200,000 grants for Brownfields 
pilots are as follows:

                            National Pilots

Baltimore, MD
Birmingham, AL
Bridgeport, CT
Burlington, VT
Cape Charles-Northampton County, VA
Charlotte, NC
Chicopee, MA
Chippewa County/Kinross Township, MI
Cleveland, OH
Detroit, MI
Emeryville, CA
Houston, TX
Indianapolis, IN
Kansas City, KS and MO
Knoxville, TN
Laredo, TX
Lawrence, MA
Lima, OH
Louisville, KY
Lowell, MA
Navajo Nation
Newark, NJ
New Orleans, LA
New York, NY
Oregon Mill Sites, OR
Phoenixville, PA
Portland, OR
Rhode Island
Richmond, CA
Richmond, VA
Rochester, NY
Rome, NY
Sacramento, CA
St. Louis, MO
Stockton, CA
Tacoma, WA
Trenton, NJ
West Central Municipal Conference, IL
Worcester, MA

                            Regional Pilots

Atlanta, GA
Bellingham, WA
Bonne Terre, MO
Boston, MA
Buffalo, NY
Camden, NJ
Cincinnati, OH
Clearwater, FL
Concord, NH
Dallas, TX
Downriver Community Conference, MI
Duwamish, WA
East St. Louis, IL
Illinois
Indiana
Kalamazoo, MI
Miami, FL
Milwaukee County, WI
Minnesota
Oakland, CA
Murray City, UT
Naugatuck Valley, CT
New Haven, CT
Northwest Indiana Cities
Panhandle Health District, ID
Philadelphia, PA
Pittsburgh, PA
Portland, ME
Prichard, AL
Provo, UT
Puyallup Tribe of Tacoma, WA
Salt Lake City, UT
Sand Creek Corridor, CO
San Francisco, CA
Shreveport, LA
Sioux Falls, SD
Somerville, MA
West Jordan, UT
Wisconsin

    Ms. Browner. It is absolutely true that in presenting a 
budget to you, we make evaluations about where we think a 
certain amount of dollars can best be spent, and we are 
suggesting to Congress, that Brownfields is a very real, 
pressing problem for communities across the country. Expanding 
within EPA's budget request the amount of dollars that would be 
set aside for Brownfields is what we think is warranted and 
appropriate. That is no different. That is true.
    Mr. Frelinghuysen. But the most critical problem is--and I 
know the Chairman wants to reclaim his time----
    Mr. Lewis. No, no.
    Mr. Frelinghuysen [continuing]. Is the national priority 
list. In response to the Chairman, you said that none of the 
Brownfields sites are on the national priority list.
    Ms. Browner. Right.
    Mr. Frelinghuysen. This is a committee that is in the 
business of establishing priorities, if I caught the gist of 
what the Chairman said when he introduced his opening remarks. 
We are setting priorities here.
    Ms. Browner. We have set a set of priorities, and 
obviously, you may choose to ultimately disagree with them. We 
hope that we can work together to help you understand why we 
have made this recommendation, but it is true. We have said in 
our budget request to you that Brownfields are a priority. That 
is true.
    Mr. Frelinghuysen. But in terms of risk to the population 
and a lot has been made in these hearings about affected 
constituencies, the children, in the overall scheme of things, 
I assume the Superfund priority list is where, in fact, we are 
putting most of our money because that is, in fact, where the 
greatest potential crisis exists now and in the future. So 
where does Brownfields stack up?
    Ms. Browner. You are correct that the total request for 
Superfund is far larger than the request for Brownfields. I 
think that appropriately reflects an evaluation of both risk 
and what we are finding in our experience outside of Washington 
as to the assessment of being the most pressing problems.
    Mr. Frelinghuysen. I just want to get one thing clear. Are 
you using any Superfund money--I want this on the record--for 
Brownfields sites?
    Ms. Browner. The Brownfields grants are funded out of the 
Superfund trust fund. That is true, yes.
    Mr. Frelinghuysen. See, this is disturbing to me. I mean, 
if, in fact, we are talking about quality of life issues for 
people--and I am not saying economic vitality in cities isn't 
important, but if, in fact, you are talking about contaminated 
water, children and others at risk, the greatest priority 
should continue to be cleaning up these Superfund sites, and 
that is, in fact, what ought to be done in the most expeditious 
manner.
    Ms. Browner. That is why we sought an increase.
    Mr. Lewis. I was seeking you to yield, not because your 
time was out. You had time, but to try to back up the point, 
the concern here, and the reason I was asking questions about 
the law and the intent of the law, is that surely, there are 
mayors around their country that would raise their hand and 
say, hey, send us some money, we might be able to use this 
place for commercial purposes if we could just do a little bit, 
and it would sound good to those mayors to have the 
Administration respond and say, sure, we will do this, but when 
you say for the record that Brownfields sites are not the most 
important in terms of priority, they are pressing problems, but 
indeed, in terms of health----
    Ms. Browner. I said they are not NPL sites but I never said 
they weren't important.
    Mr. Lewis. Wait a minute. They are not the most pressing 
health and safety problems either, are they?
    Ms. Browner. I think for the communities where Brownfields 
sites exist, they are a very real problem.
    Mr. Lewis. From EPA's perspective, are they the most 
pressing health and safety problems? I think the answer to that 
has clearly got to be no.
    Ms. Browner. In terms of the kind of waste that we find, 
unfortunately, at sites across the country, I agree with you. 
There are lots of things we invest and there are lots of things 
you direct us to invest in that for many individual communities 
are the most pressing problems. That is why we together make 
that investment.
    Mr. Lewis. But the problem is that Mr. Stokes and I have to 
worry about whether we have got adequate funding for programs 
that affect children, programs that affect veterans medical 
care, et cetera, and we are talking about sizeable dollars. I 
know a million here, a million there. So what? But the 
reality----
    Ms. Browner. Sizeable. We agree.
    Mr. Lewis [continuing]. Is that this is relatively a non-
priority expenditure when we have got problems within your 
budget, and we are here to deal with your budget.
    Ms. Browner. Right.
    Mr. Lewis. So, frankly, I would have expected the 
Administrator to say to my colleague, Mr. Frelinghuysen, as a 
practical matter, we probably don't need a separate fund.
    The mayors kind of like to have us do this, but in the 
meantime, we do have other priorities, and I would hope that.
    Ms. Browner. I am not sure we understand the choice of the 
word ``special fund.''
    Mr. Lewis. Not an NPL. Money being applied from the 
Superfund.
    Ms. Browner. I do believe that providing some dollars to 
Brownfields sites is a wise investment of Superfund monies. Our 
budget reflects this and has reflected this for the last 
several years, and many of you have supported it.
    Mr. Lewis. And I suggested we have supported some dollars, 
but, boy, there is a considerable adjustment there, and at a 
time when we have got grave difficulty--I am sorry. I am taking 
a lot of your time.

               brownfields: other agencies participation

    Mr. Frelinghuysen. Actually, I will return it to you, but 
it just seems to me that this is a sizeable increase given what 
they have got last year and given the fact that I believe 
Housing and Urban Development which is also under this 
committee's jurisdiction gets $25 million for Brownfields. 
Aren't I correct, Administrator?
    So, if you take $25 million and add it to $86 million, you 
are talking about quite a lot of money.
    Ms. Browner. I am not sure what the $25 million is you are 
referring to.
    Mr. Frelinghuysen. Out of HUD for Brownfields.
    Ms. Browner. Oh, I don't want to speak to their budget 
request. I am not familiar with it.
    Mr. Frelinghuysen. Well, in the overall scheme of things, I 
assume you know because there is good coordination between your 
Department and HUD; that there is $25 million in their budget. 
Do you know how much is in Treasury?
    Ms. Browner. The Treasury request is, I think, part of the 
balanced budget discussion that is now taking place. It is a 
tax-incentive package that is, I think, scored at $1.2 billion 
over a 5- or 7-year period. I don't remember which.
    Mr. Lewis. Only $1.2 billion?
    Ms. Browner. Over a 5--a 7-year period. I think it's 
actually scored at $1.2 billion over 7 years.
    Again, as I explained yesterday, the Treasury proposal is 
designed to allow those who did not cause the pollution, but 
are interested in cleaning up the pollution, the same tax 
deduction that those who caused the pollution get. It is just 
that simple.
    Mr. Lewis. Well, it is that simple, and I think we have 
clarified how simple it is for the record. So I appreciate 
that.
    Do you have other questions before we move on?
    Mr. Knollenberg, do you have additional questions?
    Mr. Knollenberg. No, I do not. I am here for the markup.
    Mr. Lewis. I see. We are glad you are here. Thank you.
    If it is all right with the members, Mr. Stokes, I would 
like to go on a little bit here with portions of EPA's budget.
    As in the case with Brownfields, I am sure that EPA's use 
of Superfund dollars to combat the situation regarding the 
illegal use of methylparafynol for insect control is either 
illegal or a far stretch from the intent of the law.

              SUPERFUND: METHYLPARAFYNOL EMERGENCY REMOVAL

    As was noted previously, you are restricted in the use of 
Superfund dollars to those situations which threaten a release 
to the environment. I believe this is defined in the statute as 
outside the environment. Nevertheless, even though these 
illegal hazardous substance applications have occurred within 
people's homes, you apparently claim the authority to spend 
Superfund dollars because, one, contaminated household 
belongings and building materials may be disposed improperly, 
bottles of unused methylparafynol may be disposed of 
improperly, or, three, on the surface in side the houses, such 
a toxic may pass into the air inside the homes and will escape 
to the outside or ambient air.
    It seems to me that that is a very interesting kind of 
stretch at any rate, and I would like to hear what you have say 
about it.
    Ms. Browner. Unfortunately, I think something very tragic 
has happened in a growing number of communities. For those 
members who are not familiar with it, methylparafynol is 
licensed for use outdoors on cotton.
    There are some rogue applicators who are taking this highly 
potent chemical and spraying it inside people's homes. It does 
a really good job on bugs, not to mention what it may do to the 
occupants' health.
    We have gone into the homes to remove the wallboards, the 
furniture where it sits and continues to pose a risk to the 
individuals in the homes. We have used our emergency removal 
authority under the Superfund program for this. We use the 
authority granted to us for where there is an emergency a 
threat of release to the environment, or an impact to human 
health.
    For those communities where it has happened it has been a 
real tragedy. In addition to dealing with the problem, we have 
also now identified a large number of people who were illegally 
doing this. They are in custody. They will obviously be dealt 
with appropriately, but we do believe we have the authority.
    Mr. Lewis. I am empathetic. On the other hand, it seems to 
me that we are beyond the edges of it. We are moving rapidly in 
the direction, Madam Administrator of essentially exercising 
power in a way that would move the Superfund trust fund in that 
direction of being a Superfund slush fund, and I understand 
that you can't really solve every problem inside everybody's 
home unless you have all the money you really want, I suppose, 
and I am concerned about only this. It seems to me that there 
is a stretch here in terms of a real authority, and Superfund 
problems of very high priority are very real.
    Ms. Browner. We would be more than happy to provide, Mr. 
Chairman, to the committee other emergency response actions.
    For example, I think last year in the State of Texas, there 
was a large tire fire. We used our emergency response authority 
there to protect the public. The kind of uses that are made of 
that authority and the dollars, we would be more than happy to 
detail for you.
    [The information follows:]

                Superfund: Emergency Response Activities

    In the interest of protecting the public, the Agency has 
conducted emergency response actions at more than 4,600 
hazardous waste sites. The following are some examples:
    Divex Site, Columbia, South Carolina. On September 6, 1993, 
an explosion severely damaged the Divex explosives 
manufacturing facility, killing the owner. EPA emergency 
response personnel responded and found the manufacturing 
facility to be extremely unsafe with the threat of further 
explosions. The site included many explosive devices and 
detonators, shock-sensitive chemicals, and explosive residues. 
EPA, in coordination with the Bureau of Alcohol, Tobacco, and 
Firearms as well as the Department of Defense, temporarily 
relocated four families living adjacent to the facility and 
removed and/or detonated hazardous and explosive materials. EPA 
also discovered that the owner had a small laboratory facility 
located near downtown Columbia. The laboratory, which was found 
to contain hundreds of vials of nitroglycerin as well as 
several hundreds of pounds of shock-and-heat-sensitive 
explosive chemicals, was located within 100 feet of an 
apartment complex, a restaurant, and a shopping mall. EPA 
emergency response personnel temporarily relocated two families 
near the laboratory while safely removing and detonating the 
explosive chemicals.
    Radium Chemical, Queens, New York. The Radium Chemical Site 
was a radium leasing firm dealing primarily in medical radium 
needles for medical treatment purposes. The contaminated 
needles (containing approximately 1,109 curies of radium) were 
in leaking casing throughout an abandoned warehouse located in 
a densely populated area within 10 feet from the Queens/
Brooklyn expressway. The warehouse also contained improperly 
stored hazardous materials including flammable liquids, 
corrosives, poisons, and oxidizers. A fire at the facility 
could have deposited radium over a 5 mile radius, likely 
affecting thousands of people. EPA stabilized the site, 
maintained 24-hour site security to prevent vandalism and 
direct exposure, and removed and disposed of all dangerous 
materials.
    RAMP Industries, Denver, Colorado. In August 1994, the 
State of Colorado asked EPA to respond to the RAMP Industries 
site; a defunct radioactive waste processing site located in 
Denver. Across the street from the facility is a Denver housing 
project of approximately 1,600 residents. The site contains 
high levels of gamma radiation, along with over 6,000 barrels 
of unknown hazardous waste. When EPA arrived, the site was 
poorly secured. EPA found high gamma radiation readings outside 
the fence perimeter. EPA constructed a second fence and 
contracted for security services. EPA is currently assessing 
the site to determine how to remove the hazardous and 
radioactive materials and decommission the facility.
    Fike/Artel Chemical Site, Nitro, West Virginia. EPA 
conducted a removal action from June 1988 thru March 1993. The 
Fike/Artel Chemical facility was an inactive specialty chemical 
producing plant located 100 yards from a residential community. 
The site contained cylinders of hydrogen cyanide, methyl 
mercaptan storage tanks, numerous buried materials, and several 
thousand drums of unlabeled hazardous materials. EPA initiated 
an emergency action to stabilize the site. EPA characterized 
and properly disposed of the hazardous drums and storage tanks, 
and detonated the hydrogen cyanide cylinders.
    Tanager Trail/Bruce Products Site, Howell, Michigan. The 
Tanager Trail Site is the home of one of two Howell, Michigan, 
teenagers, who, were found to be carrying potentially explosive 
devices in a truck. The youths, who said they were 
manufacturing explosives ``for fun'', had obtained the 
materials from an abandoned chemical/explosives manufacturing 
facility, Bruce Products. Forty-four varied containers of 
oxidizers, corrosives, organic solvents, and class ``C'' 
fireworks were found in one youth's bedroom, along with a 
gasoline-filled cylinder used as a flamethrower and a propane 
cylinder for making ``fireballs.'' Additional chemicals were 
discovered in a shed, including a one-gallon can of diethyl 
ether. EPA removed the chemicals from the bedroom and shed and 
also recovered diverse laboratory equipment and numerous books 
on hazardous materials and improved munitions. Arrangements 
were made to remove the over packed chemicals to appropriate 
disposal facilities.
    The Bruce Products site is located in a residential area 
with the nearest property less than 300 feet from the main 
building. Located at this site were 1,100 drums, 10 pails, 21 
tanks, and 180 bags of chemicals. All of the containers were in 
various stages of deterioration. EPA emergency response 
personnel coordinated the removal and disposal of the materials 
with members of the Michigan State Police, the Howell Police 
Department, the Bureau of Alcohol, Tobacco and Firearms, and 
other agencies. The removal action was completed July 27, 1994.

    Mr. Lewis. How much money have you spent in this kind of 
activity?
    Ms. Browner. I think, generally, in the appropriations 
process, we set aside $100 million for an emergency response 
fund. We can't anticipate what the claims may be and the needs 
may be.
    Mr. Lewis. How about on this?
    Ms. Browner. For this one, we have actually set aside a 
total of $65 million at this time. It does involve activities, 
I think, now in four or five States where this highly hazardous 
substance has been applied inside people's homes. We have spent 
$33 million.
    Mr. Lewis. Just so that we really understand the difficulty 
here, we have spent a good deal of time talking about the fact 
that we have not been able to be as responsive to some very 
serious problems in Mr. Frelinghuysen's district. So the money 
is going somewhere else instead, and I just think it is 
important for us to know that that is the case and that we know 
it, all of our members know it.
    Finally, I know you are aware of the report in March 10, 
1997's edition of our local newspaper, The Washington Post, 
that some Louisiana residents have been accused of deliberately 
having their homes sprayed with this stuff ``to take advantage 
of a Federal offer to renovate their homes.''
    Ms. Browner. Right.
    Mr. Lewis. Is this an accurate report?
    Ms. Browner. Yes.
    Mr. Lewis. If it is, how will the costs associated with 
these emergency removals be recovered for the trust fund?
    Ms. Browner. We are working in the States where there are 
suspicions of these kind of activities with the local police. 
People have been arrested. These are illegal activities, and 
their houses, obviously, would not be eligible for an emergency 
response.
    Unfortunately, there are people who will do amazing things 
if they think it is in their interest. This is a highly toxic 
substance that people are spraying in their homes. It is in no 
way licensed for indoor use. It breaks down in the sunlight. It 
doesn't break down in your house, but----
    Mr. Lewis. We have no disagreement, but it is a priorities 
question.
    Ms. Browner. Right.
    Mr. Lewis. If I exercised my priorities unilaterally, maybe 
Mr. Stokes and I wouldn't get along as well as we do.
    Ms. Browner. Right. Also, I know you are going to speak to 
our inspector general. They are also involved in the 
investigations of those people who may have sought to scam the 
system.
    Mr. Lewis. The scamming business, I have similar questions, 
but I am really going to be talking to the inspector general 
over time about this priority question that was kind of the 
start of my whole discussion with you all.
    Ms. Browner. No, I just meant that she might have some more 
information that I don't have.
    Mr. Lewis. Okay. Well, let me move on just a little bit.
    Mr. Knollenberg. Mr. Chairman, if you would re-recognize 
me, I would yield a couple of minutes to Mr. Frelinghuysen for 
a follow-up question.
    Mr. Lewis. Yes, go right ahead. Go right ahead.

                          Superfund--Carryover

    Mr. Frelinghuysen. Thank you, Mr. Chairman and Mr. 
Knollenberg.
    We had the discussion, briefly. This morning, you said that 
there was about $138 million in carryover funds. Why don't you 
obligate all of these carryover funds for these sites that are 
ready to go? I just need, if possible, a simple answer. Why 
couldn't we do that?
    Ms. Browner. Of what are referred to as the carryover 
funds?
    Mr. Frelinghuysen. You have $138 million. You are saying 
you have sites ready to go.
    Ms. Browner. We are doing it, yes. We are doing it.
    Mr. Frelinghuysen. You have a fixation on the amount of 
money.
    Ms. Browner. We are doing that, yes, and it is taken into 
account of how many sites we can get to, and that $138 million 
will be spent.
    Mr. Frelinghuysen. What is the period of obligation here? 
This year, it is going to be done, for the record?
    Mrs. Browner. Yes. Even with the expenditure, however, of 
the $138 million carryover from the last fiscal year, we still 
have sites ready to go that we will not get to.

                     Superfund: PRP Responsibility

    Mr. Frelinghuysen. Last year, you testified that the 
potential responsible parties that were responsible for about 
84 percent of the cleanups--they were about a billion-dollar 
annual commitment. What would be this year's figures, potential 
responsible parties?
    Ms. Browner. They average over the history of the program 
at about 70/30. We can break them out. Some years, you get a 
very large settlement at a large site. Love Canal may be 
included in last year's numbers, but we can break that out. The 
PRP has finally paid up. It took several years, but there were 
some very large ones in the last year.
    Mr. Frelinghuysen. So, to answer my question, what do you 
anticipate would be this year's figures?
    Mrs. Browner. The average is 70 percent of the cleanup 
costs are paid for by responsible parties, and 30 percent come 
from the trust fund.
    Mr. Frelinghuysen. The dollar amount being?
    Mrs. Browner. We will provide that.
    [The information follows:]

                        Superfund: PRP Payments

    EPA does not project a specific dollar amount for 
settlements in a given year because the occurrence or non-
occurrence of a single large settlement can skew the final 
amount. However, over the past three years the average value of 
settlements with potentially responsible parties (PRP's) has 
been approximately a billion dollars. In FY 1997 EPA continues 
to project reaching settlements with PRP's for cleanup at 
approximately 70% of the sites, a figure which is comparable to 
previous years.

                Superfund: Liability of Nonprofit Groups

    Mr. Frelinghuysen. All right. A minor matter, but one that 
is important, school boards have often been caught up in the 
liability net. Do you support releasing school boards from 
liability under Superfund?
    Ms. Browner. We have adopted a policy to speak to a large 
number of smaller parties that we think have been unfairly 
trapped within the liability scheme of Superfund.
    Tim, is there a specific provision for school boards? There 
are for Girl Scouts, for churches.
    Mr. Fields. For nonprofits.
    Ms. Browner. For nonprofits.
    Mr. Fields. For nonprofits and charitable----
    Ms. Browner. Nonprofit and charitable organizations, we 
have taken them out. If there is a particular problem with the 
school board, we are more than happy to work on it.
    Mr. Frelinghuysen. I would appreciate your support for a 
measure to that effect, which I have.
    Ms. Browner. They are in the de minimis, yes. They have 
been, yes.
    Mr. Frelinghuysen. They are not excluded now, and they 
should be. They are not excluded now, and they should be.
    Mr. Fields. They are not exempt. That is right.
    Ms. Browner. We need to change the law, and we supported, 
obviously, rewriting Superfund for a number of years now.
    Mr. Frelinghuysen. Thank you.
    Thank you, Mr. Chairman. Thank you, Mr. Knollenberg.
    Mr. Lewis. Mr. Stokes wants to ask a couple of questions 
about Brownfields.

                     Superfund: Requested Increase

    Mr. Stokes. Thank you, Mr. Chairman.
    I came in on the tail end of this discussion relative to 
Superfund and Brownfields, but let me just clarify for the 
record a couple of concerns I have.
    What amount are you currently carrying for the Superfund? I 
know you are requesting an additional $650 million?
    Ms. Browner. That is correct. That is for cleanup at NPL 
sites. In the list of the 1,387 sites, in excess of 600 sites 
are ready for final cleanup activities. That is what that money 
is for.
    Mr. Stokes. Now, the additional $650 million is in addition 
to what sum?
    Ms. Browner. That is on a base of approximately 1.4.
    Mr. Stokes. $1.4 billion?
    Mrs. Browner. Yes, correct.

                              Brownfields

    Mr. Stokes. Okay. Then, for Brownfields, you are requesting 
an additional $50 million. That is in addition to what amount?
    Ms. Browner. $37.12 million.
    Mr. Stokes. $37.12 million, okay. So you are talking about 
roughly $87 million----
    Ms. Browner. Correct.
    Mr. Stokes [continuing]. Compared to $1.4 billion?
    Ms. Browner. Compared to a total of $2 billion. $87 million 
is this year's budget request for Brownfields. This year's 
budget request for Superfund is 2-point-something.
    Mr. Stokes. That is what I am trying to get at, the total 
amount of your request, 2-point----
    Ms. Browner. I think if you would round it to $2.1 billion, 
that is probably the most accurate.

                     Brownfields: Location of Sites

    Mr. Stokes. $2.1 billion.
    Now, in assessing or arriving at priorities, when you look 
at Brownfields--and most Brownfields, I would say, are located 
in inner cities?
    Ms. Browner. Certainly a large number are located in 
cities, not all. We also find them in rural areas and other 
areas.
    Mr. Stokes. You find them in rural areas, also?
    Ms. Browner. Yes.
    Mr. Stokes. But in major cities, they are located in the 
heart of the city?
    Ms. Browner. They tend to be in the old areas, the older 
areas where a lot of industrial or light industrial activities 
may have taken place.
    Mr. Stokes. Can you describe the population that is around 
those areas in most of those cities?
    Ms. Browner. They are the inner cities, the urban centers. 
They will tend to be communities of low income, frequently of 
color, although not always, by any means, but certainly they 
are traditional inner cities in many instances where these 
sites are found. Part of the reason that there has been a 
failure to do the cleanups is that there hasn't been within the 
community itself the kind of resources.
    So Brownfields has allowed mayors to do the assessment and 
then say to the bankers, ``Look, it is lightly contaminated, a 
few dollars to clean it up, redevelop it, there is a workforce 
there.''
    Mr. Stokes. I would assume anyone living next door to these 
type of contaminated sites in an inner city, those people would 
have no higher priority than to be able to----
    Ms. Browner. That is correct.
    Mr. Stokes [continuing]. Breathe air that is free of toxics 
and contaminants and things of that nature.
    Ms. Browner. That is absolutely correct. I have visited a 
number of these sites, and I have frequently walked through the 
community, and talked to the people who might happen to live 
right next to a particular site. What I hear time in and time 
out is they are concerned for their health, for their safety, 
and for their children.
    In a lot of these areas, there is a fence, but it is often 
ineffective. People can come and go, in and out of these sites, 
and there is obviously concern for the health and safety.
    For these communities, I mean, this is their priority.
    Mr. Stokes. That is right. In those communities, that is 
the priority, right?
    Ms. Browner. Absolutely.
    Mr. Stokes. Okay.
    Ms. Browner. One of the benefits we have seen for 
communities is, when these sites are cleaned up and 
redeveloped, it has an incredible impact on the local tax base.
    When we look at all the projects that have been 
successfully completed now, a study shows an increase in local 
property taxes of $800 million annually.
    What is happening at these sites is they have got 
electricity, they have phone service, they have water, the 
garbage truck is coming by, but no one is there with a 
profitable business to pay a little bit back to the community 
through a tax.
    If you come in, clean it up, restore it, and redevelop it, 
someone is there. Not only do they create jobs, not only is the 
site cleaned up, but they are paying taxes.

                   Brownfields: Economic Development

    Mr. Stokes. Well, isn't it true that also now there is an 
appropriate to provide jobs for those persons who live in or 
near those particular sites, taking into consideration that 
these are areas that have high concentration of unemployment, 
and many of these people are utilized for jobs relative to the 
cleanup of these sites?
    Ms. Browner. That is also true. Again, if we look at what 
the effect of the budget request would be, as I said, there is 
the $800-million increase in local taxes. There is also an 
estimate of in excess of 100,000 jobs that would be created 
through the cleanup and redevelopment of these sites. I think I 
may have misspoken before when you take the effect of the 
program to date, plus the increase that we seek, when you take 
all of that together and we look at that effect, what we see is 
an increase to the tune of $108 million in taxes annually, and 
an increase in jobs in excess of 100,000.
    Mr. Lewis. Mr. Stokes, if you would yield, and I would kind 
of like to have us get through this----
    Mr. Stokes. I have been trying to be as lenient. I listened 
to everybody over there on these issues, and I didn't take up a 
great deal of time. I think this is important.
    Mr. Lewis. The administrator is saying very directly that 
what EPA is involved in here is an economic developmentprogram, 
and frankly, I am for that, but I am not sure that is EPA's 
responsibility, when she says she doesn't have enough money to take 
care of these very serious sites that involve very significant threats 
to people's health and welfare, and we have got HUD money for CDBG and 
other kinds of questions like that.
    It just seems to me that maybe there is an expansion of 
responsibility here that may go beyond the purview of EPA, but, 
you know----
    Mr. Stokes. Well, I think the Administrator is fully 
capable of responding to that issue herself. It would seem to 
me that in the utilization of Federal funds and particularly 
when we are talking about issues that relate, such as we have 
here, to contaminated sites which is fully within their 
jurisdiction, if as a byproduct of that, they can help the 
economic development of that local community, I don't think 
that is bad for EPA, nor do I think Congress ought to object to 
it.
    Ms. Browner. I do think that the problem, first and 
foremost, at these sites is the contamination. That is why 
parties will not come to them, and that is why we have had a 
lot of support from this committee in creating this program.
    I mean, we did create this program out of existing funds. 
We did not seek funds from the Congress in the first two years 
of this program. We directed them within our base. We are now 
suggesting an increase, but what I found in going to these 
sites is the reason no bank would get near them, and the reason 
no developer would get near them is, first and foremost, the 
contamination.
    Yes, it is a lightly contaminated situation. In most 
instances, it does not trigger Superfund and the national 
priorities listing, but nevertheless, it is contamination that, 
first and foremost, is affecting these sites and their future 
use.
    Mr. Stokes. It might be good, Mr. Chairman, if we could on 
our visit out to Cleveland look at the housing out there that 
you and I have discussed so many times, public housing, and 
also take a look at what we have been able to do in terms of 
these type of contaminated sites within the inner city of 
Cleveland.
    Industry is coming back into the city. Persons who have 
left the city are now moving back into the city, all the 
product of this type of an approach.
    Mr. Lewis. I must say to my colleague from Ohio, I am 
anxious to take such a trip. I am very supportive of programs 
and encourage economic development in communities, just as the 
kind that you describe, but when we see the exercise of the 
Superfund pool of dollars, almost like it is a slush fund, it 
has to be very disconcerting when we have got other kinds of 
problems across the country.
    In other words, I am asking here whether or not if we want 
to do this and give it priority, I think there are other 
agencies that ought to have the money and might do it better. 
So that is the question, and it is a legitimate question, 
especially when she is talking about sites that do not have the 
kind of priority in terms of health.
    Ms. Browner. In terms of the budget priorities obviously, 
we spend a lot of time grappling with that very question, as 
you are appropriately doing here. In terms of the priorities 
for the total 1998 budget request for Superfund, 96 percent of 
the money we are requesting would go to those larger grossly 
contaminated sites, 4 percent would go to Brownfields. It is a 
prioritization. We think we have struck an appropriate balance.
    Mr. Stokes. I think we need a little better distribution, 
then.
    Ms. Browner. You want more for Brownfields?
    Mr. Stokes. Yes, I want more for Brownfields.
    Mr. Lewis. I might even consider that someday if we don't 
have half the money go for Administration, but in the meantime, 
you are pointing to one of the really key elements and reasons 
that I think the Superfund program needs some major overhaul by 
the policy committee, I must say. At any rate, you and I----
    Mr. Stokes. And that is not our fault out here. We haven't 
done----
    Mr. Lewis. We are not the authorizers.
    Mr. Stokes. Yes. Well, I am using the term generically.
    Mr. Lewis. Yes.
    If I could, if it is all right, I would like to go on with 
a few questions.
    Mr. Stokes. Sure.

                    Inspector General Budget Request

    Mr. Lewis. We have got to move on to a markup here pretty 
soon, and I know that Mr. Mollohan has a couple of questions he 
wants to ask, but these are items I would like to have us get 
to.
    As I review the overall EPA budget request, I notice that 
just one of the eight accounts, state and tribal assistance 
grants, took a reduction as compared to 1997.
    Another account, oil spill response, remains the smallest 
account at just $15 million, the same level as last year.
    Next in line, in terms of both overall size and change 
compared to last year, is the Office of Inspector General. The 
inspector general will get, in your budget request, a net 
increase of $64,300 over last year, but will lose nearly 12 
full-time-equivalent employees.
    Within the OIG's so-called management account, there is 
scheduled to be no dollar change. It will stay at $25,841,000, 
with a net reduction of nearly three FTE employees.
    Madam Administrator, given the scope and complexity of the 
issues EPA engages in, given the amount of money you spend and 
given what some people believe is not the best of records with 
respect to overall management of programs, I am totally 
perplexed how you came to the conclusion that the IG needed no 
new money and fewer people.
    Even your personal office, Ms. Browner, would see two new 
people and an 18-percent increase of nearly $1 million over 
1997.
    If you would, please tell me what the IG's original budget 
request was when you started the 1998 budget process a year 
ago, and then tell me what changes, if any, were made in that 
request.
    Ms. Browner. The reduction in FTEs that you make reference 
to is a result of administrative reforms across the agency. 
Every office in the agency is taking an appropriate reduction 
in FTEs based on administrative reforms, which we have all 
agreed to.

            FTE Increase in the Office of the Administrator

    There are a number of programs which are managed out of the 
Office of the Administrator, including congressional relations, 
and public education. So it is not just the people who work 
directly for me.
    In fact, EPA is kind of organized oddly. There are a number 
of large offices that in other budgets sit separate that at EPA 
sit within the Office of the Administrator.
    Mr. Lewis. I am not sure I am really quite getting you the 
question I was asking, but----
    Ms. Browner. Okay. I was going to explain what the two FTEs 
were for in the Office of the Administrator and the increase. 
It is for our Office of Children's Health.
    As far as I know, there were no changes in terms of--I have 
a long history with respecting what the IG asks for.
    Mr. Lewis. Could you tell me what the IG asks for and how 
that compares with what----
    Ms. Browner. Do you remember?
    Mr. Lewis. Maybe the IG would like to tell us about it.
    Hand her a microphone.

                    Inspector General Budget Request

    Ms. Tinsley. Actually, I don't have those figures with me, 
but my staff just said that we originally asked for $45 
million, but I am wondering if that included the administrative 
support that the agency provides.
    Ms. Browner. I don't think that is right, Nikki. Every 
year, they get what they ask for.
    Ms. Tinsley. Yes. So if you take that out----
    Mr. Lewis. Maybe you would like to have the gentleman who 
is with you identify himself for the record and respond. Just 
stand right up there.
    Mr. Binder. I am Michael Binder.
    Mr. Lewis. Michael Binder.
    Mr. Binder. Binder.
    Mr. Lewis. Come over to the mike.
    Mr. Binder. Yes. Our entire budget includes the agency 
support piece. The agency contributes a portion of our budget 
to the overhead support of the Inspector General's office. That 
accounts for approximately $4.2 million of the Inspector 
General's budget.
    We basically have stayed relatively level over the last 
several years.
    Ms. Tinsley. So, then, the answer is that the agency gave 
us what we asked for.
    [The information follows:]

[Pages 458 - 460--The official Committee record contains additional material here.]


    Ms. Browner. We gave them what they asked for. We did.
    Mr. Chairman, I had a long history of respecting what the 
IG asks for, working with Mr. Martin previously, and if there 
is any problem here, I am more than happy to correct it, but I 
always honor what they ask for.
    Mr. Lewis. Well, I am very interested in reviewing that, at 
any rate.

                    FTE Across-the-Board Reductions

    Ms. Browner. They did take the Government-wide FTE 
reductions. Everybody took that. It went across the board. It 
was across the board, and that is what they did and so did 
every other office.
    Mr. Lewis. How do you do that when you increase the budget 
for an element of your----
    Ms. Browner. You take it first.
    Mr. Lewis. You take it first and then you increase it with 
the new money, right?
    Ms. Browner. No. That way, Congress can see exactly where 
things happen. That is why it is displayed.
    Mr. Lewis. Ms. Browner, just a moment. We took an across-
the-board cut, and then we ask for more money and we are 
looking for----
    Ms. Browner. It goes to Superfund and it goes to 
Brownfields. That is where the FTEs go. They don't go anywhere 
else. They go directly----
    Mr. Lewis. And then we divert the Superfund?
    Ms. Browner. No. The $650 million in increase in Superfund 
will only go to clean up the sites. That is what it goes for. 
It does not go to administration. It goes to clean up the 
sites.
    Mr. Lewis. That is what we are saying for the record today. 
I don't know what we will be discussing next year.
    I am not lightly frustrated, but it is very important that 
you know that we must insist in difficult times upon priorities 
that reflect the real-world priorities related to people's 
health and well-being.
    With respect to the reduction of personnel on page 413 of 
the justification notes, there is, and I quote, ``a decreaseof 
3.2 total work years to meet an agency-wide initiative to reduce the 
size of the Federal workforce.''
    Given that your total budget request shows a net increase 
of 332 FTEs over 1997, I would like to know what agency-wide 
initiatives the IG is talking about.
    Do you want me to repeat that?
    Ms. Browner. Yes.
    Mr. Lewis. Okay. With respect to the reduction of 
personnel, page 413 of the justification notes, that there is, 
and I quote, ``a decrease of 3.2 total work years to meet an 
agency-wide initiative to reduce the size of the Federal 
workforce.''
    Given that your total budget request shows a net increase 
of 332 FTEs, and that is her budget, over 1997, I would like to 
know what agency-wide initiatives the IG is talking about.
    Would you like to respond to that?
    Ms. Browner. Yes, I can respond. There is a Government-wide 
effort to reduce the number of FTEs. Every component of EPA 
participates in that Government-wide effort, including the IG.
    Correct me if I am wrong, but that is what that reduction 
reflects, which is the Government-wide----
    Mr. Lewis. I am frankly finding difficulty getting that out 
of your budget justifications.
    Ms. Browner. Okay. We would be more than happy to show you 
office by office what the Government-wide FTE reduction effect 
is.
    It is true that we took cuts office by office across the 
board. Everyone took a proportion of the cuts, and then we can 
reflect that for you. We are reflecting in our budget request 
an increase for specific areas in total numbers of FTE.
    Mr. Lewis. I must say that one of the things that I was 
intrigued by, and I may have just been misreading it, as I saw 
a reduction in the IG's office in a very complex subject area, 
which is your entire work, and I saw an increase in your own 
personal office which kind of causes me discretion.
    Ms. Browner. We did both. We took a reduction.
    [The information follows:]

[Page 463--The official Committee record contains additional material here.]



    Mr. Lewis. And then you put it back up again.
    Ms. Browner. For a very specific thing, which is the Office 
of Children's Health, and that is all reflected in the budget.
    Similarly, Superfund shows an increase because that would 
be commensurate with an increase in the funding. Brownfields 
shows an increase. It is all displayed so you can clearly see 
where the cuts were taken and where--it gets tough when you are 
having an increased total.

                     voluntary programs: ig report

    Mr. Lewis. I am having some difficulty, but I am sure the 
IG will help me make sure I understand it as we have a chance 
to communicate over time here.
    In March 1997, the Inspector General issues a report on 
selected voluntary programs. The report concluded that the 
voluntary programs generally use good management practices. 
However, the report identified a few areas where EPA could 
improve program management and made several recommendations, 
including documenting the planning process when developing 
future programs and preparing written year-end evaluations.
    The reported noted that the Office of Air and Radiation 
provided corrective actions including milestones for each 
recommendation. It further stated that no further response for 
that office was required and that the IG was ``closing this 
report in its tracking system.''
    In the area of improving the planning process, two of the 
three proposed correction actions are promised. For example, 
the Atmospheric Pollution Prevention Division is to issue by 
June 1997 an annual report for fiscal year 1996 that includes a 
year-end evaluation of each program's accomplishments. Also, 
the division is to make sure that future annual business plans 
include, as appropriate, a market analysis, technical analysis, 
marketing plan, and evaluation plan.
    Is it a standard IG practice not to track a recommendation 
because a program office was ``promised'' to take corrective 
action in the future?
    Ms. Tinsley. It is not unusual if the agency has agreed to 
implement a recommendation and has given us a time frame in 
which to implement it that we would close the report. That is 
often the basis on which we close reports because implementing 
recommendations often takes the agency well into the future.
    However, we do go back later on and make sure that the 
problem was corrected, and if not, we look to see if the 
recommendations were implemented.
    Mr. Lewis. I guess what I was pointing to is right now 
there appears to be a due date of June 1997 for one promised 
corrective action, but the other promised corrective action 
relating to future annual business plans is open-ended.
    Ms. Tinsley. I haven't talked with the auditors about that, 
but I assume that we would expect that to happen every year 
when they do a business plan.

                            consent decrees

    Mr. Lewis. In the House report, accompanying the fiscal 
year 1997 Appropriations Act for EPA and others, the committee 
expressed concerns regarding the adoption of court-approved 
consent decrees. Such decrees obviously serve, among other 
things, to circumvent the funding priorities of both the 
legislative and the executive branches.
    To assist us in keeping track of any such consent decree 
negotiations, which I understand are normally conducted by or 
through the Department of Justice, involving issues under the 
jurisdiction of EPA, you were asked to provide us with 
briefreports on such events. These reports were to begin prior to the 
beginning of any such negotiations and were to be updated at 6-month 
intervals and upon completion.
    To date, the committee has received no information 
regarding the beginning of any consent decree negotiations, no 
information regrading any ongoing consent decree negotiations, 
and no information regarding the completion of any consent 
decree negotiations.
    Should we assume that EPA is not aware of any such consent 
decree negotiations at DOJ or otherwise that are currently 
underway, about to be underway, or just completed on any issue 
with which EPA has an administrative or financial 
responsibility?
    Ms. Browner. I would like to ask the Comptroller to respond 
for you on that question, Katy Schmoll, or, John, if you want 
to join in.
    Ms. Schmoll. I am Katy Schmoll, the agency Comptroller.
    Mr. Lewis. I have been watching you shake your head down in 
the back there.
    Ms. Schmoll. That is right.
    As a matter of fact, Frank and I did have a conversation 
about appending the consent decree back, I believe, in 
February.
    Mr. Lewis. In January?
    Ms. Schmoll. I believe back in the January and February 
time frame, and that has been the only activity that we have 
had in that area to this time.
    Ms. Browner. Mr. Chairman, there are two types of consent 
decrees generally at EPA. One is used in an individual 
enforcement action if a facility is out of compliance. A 
consent decree is used to reach an agreement on how they will 
come into compliance and manage their pollution.
    We did not understand that those consent decrees were to be 
brought to your attention because they are enforcement actions.
    There is a second kind of consent decree of which an 
example would be that we are sued for missing a statutory 
deadline. It says that Congress told us to do something by 
August 1st, we haven't done it, we are sued by somebody to get 
it done. A judge then imposes a deadline on us. I believe we 
have, in fact, kept the committee informed of those kind of 
lawsuits.
    Have we entered into any consent decrees of that nature?
    Mr. Lewis. Apparently, that was the one conversation that 
Frank and Katy had.
    Ms. Browner. This is not happening.
    Mr. Cannon. This is John Cannon, again, General Counsel.
    I think the language that is written in the report 
basically refers to what we would consider to be a very narrow 
set of decrees that would convert discretionary decision on the 
part of the agency into a mandatory duty to be enforced by a 
court.
    Under guidelines issued to us by the Justice Department, 
generally, we are forbidden to do that. So we could expect very 
few, if any, consent decrees that we would enter into to be 
included in that category.
    The one report that we did make, we made, I think, as a 
precautionary matter, although we didn't think we were required 
to because it did come close to the line, and we felt the 
committee would be aware of it.
    Ms. Browner. Mr. Chairman, again, maybe I am reading 
between the lines here. I think part of the concern of the 
committee where what is referred to as deadline suits, where we 
are sued for missing a deadline and then we agreed to a new 
deadline--and that does have resource implications. We have to 
go out and get the work done to honor the court-enforced 
deadline.
    To the best of my knowledge, in the last 6 months, there 
have been no new deadline suits agreed to, resolved, if you 
will, settled.
    There have been some current that we have amended. We have 
gone back to court and changed the deadline.
    Mr. Lewis. I kind of concluded my last series of questions 
by saying shouldn't we assume that EPA is not aware of any such 
consent decree negotiations at DOJ or otherwise currently under 
way, about to be underway, or just completed on any issue.
    Mr. Cannon. The answer is yes. I mean, if we were aware of 
any that we thought would go in that direction, we would be up 
here.
    I will tell you, and this is important, under the narrow 
language there, even a new deadline, if it were simply 
implementing a statutory deadline and a court enforcing that, 
we would not interpret as converting a discretionary duty and a 
mandatory duty.
    Mr. Lewis. Let me just say that the committee is concerned 
that we be informed, and we don't think that law is that 
narrow, but if it needs to be clarified, maybe we will change 
the law. Certainly, we ought to be discussing it with you 
further, for there is some concern.
    Ms. Browner. Yes.
    Mr. Cannon. I think if there is some misunderstanding, we 
would be happy to discuss it with you.
    Ms. Browner. Certainly, in terms of modifications extending 
deadline suits, we are more than happy to make that information 
available to you.
    Mr. Lewis. We do have lots of questions, I will repeat one 
more time for the record, but I have taken plenty of time, and 
we do need to move on to other matters, but in themeantime, I 
have promised Mr. Mollohan he would be able to spend a little time with 
us.

                   Pulp and Paper Effluent Discharge

    Mr. Mollohan. Thank you, Mr. Chairman. I appreciate it, Mr. 
Chairman.
    Ms. Browner, just two short lines of questioning. You have 
had since 1993 the cluster rule pending to further limit 
emissions in the effluent discharges from pulp and paper 
activities. The part of that, that I am particularly interested 
in is the discharge.
    Ms. Browner. At the water site.
    Mr. Mollohan. Yes, ma'am.
    As I understand it, there are two options under 
consideration. There is the chlorine substitute option, and 
then there is the chlorine substitute and the oxygen----
    Ms. Browner. Delignification.
    Mr. Mollohan. I could have gotten that. Delignification 
added to that, and that a lot of the companies have already 
undertaken major investments with regard to just the chlorine 
substitution part of that. That may not be exactly--I mean, I 
may not be exactly using the right words, but you understand 
where I am going with it, and that the other piece of it is 
that both processes achieve the desired result, achieve about 
the same levels of reductions.
    So I have a couple of questions with regard to that. First 
of all, this has been pending since 1993, and just the delay is 
creating some instability from the industry's point of view. So 
I am wondering if you would speak to the timeliness of it or a 
time frame in which we might expect a promulgation, first of 
all.
    Ms. Browner. We have been working very closely with 
environmental and industry groups. I personally have met with 
them on numerous occasions. This is not an easy issue, as you 
well know.
    Mr. Mollohan. I don't think any of you have been dealing 
with it very easy here.
    Ms. Browner. That is the good news at EPA. They are not 
easy.
    Mr. Mollohan. Right.
    Ms. Browner. At EPA, we do expect to deliver a final 
rulemaking package to OMB for the inter-agency review, which is 
a 90-day review process, later this spring.
    Mr. Mollohan. So, if they took the 90 days, by the end of 
the summer?
    Ms. Browner. Right. They can also add 30 more days to the 
90 days.
    Mr. Mollohan. So, on the outside, we should be looking 
toward the end of summer. Sitting right here, looking at it, 
that would be a good estimate?
    Ms. Browner. I would suggest fall. Well, let me take the 
120 days.
    Mr. Mollohan. Let me ask you this. Since it is in a 
rulemaking, I understand you have to be a bit careful with 
these questions, but are you able to agree or are you able to 
comment on whether these two processes achieve essentially the 
same reduction levels?
    Ms. Browner. We are in an active rulemaking.
    Mr. Mollohan. Okay.
    Ms. Browner. We impose the comment period. I think it would 
not be, I think, appropriate for me to comment.
    Mr. Mollohan. Okay. Is the best available technology that 
is economically achievable the overall standard that you are 
applying to this?
    Ms. Browner. The requirement is for a best available 
technology. That is what this rulemaking requires, yes.
    Mr. Mollohan. It doesn't have the tag on it that is 
economically feasible?
    Ms. Browner. Yes. Actually, I think you are right. It 
says-- I apologize, I didn't answer your question--best 
available technology that is economically achievable.
    Mr. Mollohan. Okay. So that is the overall standard we are 
applying in this decision-making process?
    Ms. Browner. That is the format within which, right, the 
decision is made.
    Mr. Mollohan. Okay, thank you.

                                  OTAG

    The second issue has to do with ozone, just a couple of 
questions about ozone, and I am sure you have been asked about 
that. So I will be brief here, but this OTAG group, the Ozone 
Transport Assessment Group that is working to come up with this 
overall solution, how are they doing?
    Ms. Browner. They are actually meeting right now in 
Atlanta. We are encouraged that they have been dealing with 
some very difficult issues.
    It is like any stakeholder process where you have 
representatives from 37 States. It has its good days and its 
bad days, to be honest.
    Mr. Mollohan. You anticipate that they are going to come up 
with some sort of compromise, or you would hope that they would 
come up with some sort of a solution to this transport issue.
    Ms. Browner. That is what they are focusing on, and 
obviously, the first thing they had to do is all agree on the 
nature of the transport issue over which there is----
    Mr. Mollohan. Major disagreement.
    Ms. Browner [continuing]. Need for discussion.
    Well, I don't know that there is disagreement, but it is a 
complex modeling. So there is need for a lot of discussion.
    Mr. Mollohan. Well, I want to get into that, just the 
modeling issue, just for a second.
    If they are not able to come up with a proposal, what would 
be your intention?
    Ms. Browner. We will work with them to find out what we 
should do at that point in time.
    I mean, I don't want to prejudge a process that I think is 
one of the better processes and one of the better ways of doing 
business when you deal with pollution that crosses State lines.
    We have committed to them to work in their process. We are 
working in their process. They have been honest to the process, 
and so have we.
    Mr. Mollohan. Okay. At the same time, you are proposing new 
standards, ambient air quality standards for ozone, and in 
part, are you relying upon this transport issue and dealing 
with the transport issue to help solve the ambient ozone 
problem that exists in Northeastern cities?
    Ms. Browner. The transport issue is an issue today. If we 
conclude the current proposed rulemaking by strengthening the 
public health standard for ozone, clearly, we will need to 
continue our issues with respect to transport.
    Transport of ozone is an issue today, regardless of what 
comes from the current rulemaking.
    Mr. Mollohan. But do you see that, dealing with that issue, 
perhaps in the current rulemaking or with regard to this OTAG 
process as part of the solution to the ambient air quality smog 
problem in the Northeastern cities?
    Ms. Browner. I think OTAG has always had as one of its 
primary focuses the transport issue.
    Mr. Mollohan. I know, and I am not being very articulate 
here.
    What I am saying is, do you see solving this transporter, 
dealing with this transport issue as part of the solution for 
the ozone ambient air quality issue in Northeastern cities? In 
other words, if you----
    Ms. Browner. Yes. Not just in the Northeast. I think maybe 
that is where we are having the problem. It is dealing with the 
ozone problem sort of east of the Mississippi.
    Mr. Mollohan. Okay. Would that----
    Ms. Nichols. Yes. Every State in that region, to some 
extent, are both a victim and the----
    Ms. Browner. Right. So it is not just a Northeast 
phenomenon.
    Mr. Mollohan. Okay, but if you were to reduce that, you 
assume that you were to reduce smog in the Northeastern States?
    Ms. Browner. You would reduce it in the Midwest.
    Mr. Mollohan. Yes, okay, but the premise to that goes back 
to this long-distance transport issue, and I, of course, 
question that premise.
    I think there are some studies. I have a quote here in a 
New York Times article. Don Sunquist, our former colleague, he 
said that although not complete, the OTAG modeling analyses are 
changing common perceptions of the transport issue. Contrary to 
expectations, the modeling is not showing significant long-
range interstate ozone transport.
    Now, to be fair, in the article down here, looking at the 
same study and I think the same modeling, the Northeastern 
folks come up with the absolutely opposite conclusion. So I 
want a full disclosure and get that out there before I ask you 
a question.
    I am obviously especially sensitive to this because the 
amendments to the Clean Air Act, the premise to that was that 
the long-distant transport of NOX created a civic deposition in 
the northeastern part of the United States, which the causal 
relationship there was never proven to my satisfaction, but 
when you are dealing with this long-distant transport question, 
I am just wondering if you are going to assume as you regulate 
emissions, additional reductions in emissions from stationary 
sources and further west that you are solving the ozone ambient 
air quality problem in the East.
    Ms. Browner. Yes. I mean, it is one of the challenges, and 
one of the issues that OTAG is now involved in is the modeling 
of these complex questions.
    Mr. Mollohan. So that is still an open question in your 
mind?
    Ms. Browner. Can you ask the question very simply?
    Mr. Mollohan. Do you think that emission from the Midwest 
are contributing to the ozone and, therefore, smog problem in 
the Northeast?
    Ms. Nichols. Maybe I could address, where OTAG is on this 
issue as well as where we are based on the information----
    Mr. Mollohan. Okay.
    Ms. Nichols. I am Mary Nichols, Assistant Administrator for 
Air and Radiation.
    OTAG has completed two rounds of modeling, and they have 
updated their emissions inventories, and as a group, they have 
reviewed the first two rounds. They are now working on the 
third round, which I think will address the precise question 
that you are asking.
    Where they are as of today is they have reached a general 
conclusion as a group that within a 26-State area, at least the 
sort of inner part of the zone, they clearly agree that there 
are contributions from one State to another. Sometimes more 
than another State is receiving from each of those States 
within the region.
    Mr. Mollohan. Okay.
    Ms. Nichols. What they haven't agreed to is how far it goes 
or precisely how much reductions would be beneficial in solving 
the downwind problems.
    I just want to say one other thing. They haven't agreed to 
try to solve the containment problem. Their only mission as a 
group is to deal with the air quality that is going over the 
borders from one State to another to make sure that one State 
is not causing a violation in a downwind State. They are not 
trying to solve the whole problem for the region as a whole.
    Mr. Mollohan. Okay. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Mollohan. I have a great 
appreciation for the questions you were asking, for sometimes 
there is such transport even from one large city to other areas 
of a single State.
    Mr. Mollohan. Well, we just don't want to have additional 
regulations for emissions imposed upon us to solve the 
Northeastern pollution problem that, in large part, are mobile 
sources.
    Mr. Lewis. I understand. I understand.
    Mr. Mollohan. I wonder how we are going to solve L.A.'s 
smog problem with long-distant transport from the West, Mr. 
Chairman.
    Mr. Lewis. I must tell you that L.A.'s problem is the 
problem that got us into this bigger box, most likely.
    In the meantime, Ms. Browner and friends, we have 
appreciated spending a couple of days with you. As you know, 
there are endless questions that many of us would like to 
pursue further. We will do a good deal of that for the record, 
and we do appreciate your responsiveness.
    In the meantime, we will excuse you, for we must move onto 
other business, and thanks for your cooperation.
    Ms. Browner. Thank you very much.

[Pages 471 - 1467--The official Committee record contains additional material here.]







                               I n d e x

                              ----------                              
                                                                   Page
Administrator Browner's Opening Remarks..........................     2
Administrator Browner's Written Testimony........................     5
Air Toxics Strategy..............................................   262
Assessing Health Risks to Children...............................   260
Asthma and Air Pollution.........................................   267
Biosolids: Beneficial Reuse......................................   308
Biosolids Disposal...............................................   249
Biosolids Program................................................   250
Brownfields......................................................   185
Brownfields......................................................   259
Brownfields......................................................   413
Brownfields......................................................   443
Brownfields......................................................   453
Brownfields: Additional Questions from Chairman Lewis............   428
Brownfields: Budget Request......................................   415
Brownfields: Chrysler Plant in Toledo............................   246
Brownfields: Economic Development................................   454
Brownfields: Legal Authority.....................................   415
Brownfields: Legislative Authority...............................   414
Brownfields: List of Grants......................................   445
Brownfields: Location of Sites...................................   453
Brownfields: Other Agencies' Involvement.........................   191
Brownfields: Other Agencies' Participation.......................   447
Brownfields: Other Agencies' Request.............................   443
Brownfields: Property Purchase...................................   237
Brownfields: Site Status.........................................   187
Budget Priorities................................................     9
Chairman Lewis' Opening Remarks..................................     1
Consent Decrees..................................................   464
Davis Clark Landfill.............................................   232
Dredging N.Y./N.J. Harbor: Impact on Shore.......................   264
Dredging Permits: Approval Status................................   264
Drinking Water: Additional Questions and Chairman Lewis..........   256
Drinking Water: Community Right-to-Know..........................   401
Drinking Water: Cost-Benefit Analysis............................   254
Drinking Water Health Effects Study..............................   400
Drinking Water Infrastructure Needs Survey.......................   401
Drinking Water Needs Survey: SDWA Needs..........................   403
Drinking Water Safety............................................   253
Drinking Water SRF...............................................   394
Drinking Water SRF Distribution..................................   404
Drinking Water SRF: State Applications...........................   391
Drinking Water SRF: Status and Capitalization Grant Applications.   393
Fiscal Year 1998 EPA Budget Justification........................   779
FTE Across-the-Board Reductions..................................   461
FTE Increase in the Office of the Administrator..................   457
FTEs by NPM......................................................   463
Green Lights and Energy Star.....................................   269
Gulf of Mexico: Oil and Gas Permits..............................   356
Gulf of Mexico: Oil and Gas Permits..............................   279
Gulf of Mexico: Public Notice....................................   358
HBCUs: Research Grants...........................................   266
Health Effects Institute: Access to Data.........................   343
Indian Programs..................................................   399
Inspector General: Additional Questions from Chairman Lewis......   458
Inspector General Budget Request.................................   456
Inspector General Budget Request.................................   457
Methylene Chloride: Scientific Peer Review.......................   280
NAAQS: Access to Health Study Data...............................   198
NAAQS: Access to Health Study Data...............................   338
NAAQS: Additional Questions from Chairman Lewis..................    18
NAAQS: CASAC Panel...............................................   199
NAAQS: CASAC Panel...............................................   233
NAAQS: CASAC Panel Recommendations...............................   200
NAAQS: Clean Air Act Mandated Review.............................   201
NAAQS Compliance.................................................    16
NAAQS: Compliance by Business....................................   395
NAAQS: Compliance by States......................................   204
NAAQS: Control Strategies........................................    14
NAAQS: Health Effects Studies....................................    14
NAAQS: Health Effects Studies....................................   197
NAAQS Health Effects Studies: Access.............................   274
NAAQS: Industry Compliance.......................................   305
NAAQS: Industry Participation....................................   308
NAAQS: Public Debate.............................................   246
NAAQS: Scientific Research on Health Effects.....................   398
New York-New Jersey Harbor: Dredging.............................   262
New York-New Jersey Harbor: Mud Dump Site........................   264
Onondaga Lake....................................................   270
Onondaga Lake: Clean Water Act Waivers...........................   273
Onondaga Lake: Nitrogen Discharge................................   271
Onondaga Lake: NY DEC Model......................................   273
OTAG.............................................................   396
OTAG.............................................................   468
Ozone: Attainment Status of Syracuse-Area Counties...............   397
Ozone: Health Effects............................................   268
Ozone Measurement Technology.....................................   247
Ozone Monitoring.................................................   398
Ozone: Notice of Rulemaking......................................   301
Ozone Transport..................................................   396
PM 2.5: CASAC Recommendation.....................................   304
PM 2.5: Criteria for Standard Setting............................   202
PM 2.5: Effect on Industry.......................................   304
PM 2.5 Monitors..................................................   288
PM 2.5: Peer Reviewed Health Studies.............................   289
PM 2.5: Premature Death..........................................   303
PM 2.5 Proposed Standard.........................................    34
PM and Ozone Rulemaking..........................................   243
PM and Ozone Standards: Other Agencies' Comments.................   275
PM and Ozone Standards: Scientific Review........................   242
PM and Ozone: Statutory Mandate..................................   240
PM Budget Request................................................   244
PM: CASAC Panel..................................................   195
PM Health Standard: Public Comment...............................   241
PM Proposed Standard: Scientific Review..........................   201
PM Public Health Standard........................................   235
PM Risk Assessment...............................................   192
Pulp and Paper Effluent Discharge................................   466
Question for the Record from Congressman Bereuter................   727
Questions for the Record from Congresswoman Kaptur...............   710
Questions for the Record from Chairman Lewis.....................   471
Questions for the Record from Congressman Price..................   725
Questions for the Record from Congressman Hobson.................   699
Questions for the Record from Congressman Knollenberg............   684
Questions for the Record from Congressman Frelinghuysen..........   656
Questions for the Record from Congressman DeLay..................   626
Questions for the Record from Congressman Stokes.................   621
Questions for the Record from Congressman Fazio..................   735
Questions for the Record from Congressman Bilbray................   729
Questions for the Record from Congressman Murtha.................   756
Questions for the Record from Congressman Moran..................   745
Regional Structure...............................................   390
Research Triangle Park...........................................   237
RTP: New Facility Bidding Process................................   239
Safe Drinking Water Act Funding..................................   402
Safe Drinking Water Information System...........................   251
SBREFA: Paperwork Reduction......................................   413
SDWA: FY 1997 Funding for Compliance.............................   309
SDWA Implementation: FY 1997 Obligations.........................   309
Self-Audit.......................................................   404
Self-Audit: Inspections..........................................   405
Self-Audit: Texas................................................   406
Small Business Regulatory Enforcement Act: SBREFA................   408
Superfund........................................................   205
Superfund........................................................   310
Superfund: A Chemical Industry Perspective on EPA's Superfund 
  Administrative Reforms.........................................    36
Superfund: Additional Questions from Chairman Lewis..............   313
Superfund: Bergen County Site....................................   207
Superfund Budget Request.........................................    13
Superfund Candidate Site List....................................   201
Superfund: Candidate Sites.......................................   324
Superfund Carryover..............................................   206
Superfund Carryover..............................................   451
Superfund: Carryover and Obligations.............................   354
Superfund: Community Involvement.................................   353
Superfund: Emergency Response Activities.........................   449
Superfund: GAO Report............................................   185
Superfund: Letters from Senator Chafee and Administrator Browner.   178
Superfund: Liability of Nonprofit Groups.........................   452
Superfund: Methylparafynl Emergency Removal......................   448
Superfund: Pace of Cleanups......................................   352
Superfund: Pace of Cleanups......................................   350
Superfund: Pepe Field............................................   351
Superfund: PRP Responsibility....................................   451
Superfund Reauthorization........................................    34
Superfund: Reauthorization, Agency Efforts.......................    35
Superfund Reforms: A Report on the First Year of Implementation..    99
Superfund: Requested Increase....................................   452
Superfund: Risk Ranking..........................................   336
Superfund: Risk Ranking of Sites.................................   355
Superfund: Status of Sites.......................................   355
Superfund: Teilman Property......................................   208
TRI Expansion: Status of Rule....................................   410
Urban Livability.................................................   261
Voluntary Programs: IG Report....................................   464
WIPP.............................................................   277
WIPP: Schedule of Review.........................................   278

                             <all>
</pre></body></html>
